<html>
<title> - S. 1, FOR THE PEOPLE ACT</title>
<body><pre>[Senate Hearing 117-14]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 117-14

                        S. 1, FOR THE PEOPLE ACT

=======================================================================

                                HEARING

                               BEFORE THE
                               
                 COMMITTEE ON RULES AND ADMINISTRATION
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2021

                               __________

    Printed for the use of the Committee on Rules and Administration
    
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    


                  Available on http://www.govinfo.gov
                  
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-074 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                  
                  
                  
                  
                 COMMITTEE ON RULES AND ADMINISTRATION

                             FIRST SESSION

                  AMY KLOBUCHAR, Minnesota, Chairwoman

DIANNE FEINSTEIN, California         ROY BLUNT, Missouri
CHARLES E. SCHUMER, New York         MITCH McCONNELL, Kentucky
MARK R. WARNER, Virginia             RICHARD SHELBY, Alabama
PATRICK J. LEAHY, Vermont            TED CRUZ, Texas
ANGUS S. KING, JR., Maine            SHELLEY MOORE CAPITO, West 
JEFF MERKLEY, Oregon                     Virginia
ALEX PADILLA, California             ROGER WICKER, Mississippi
JON OSSOFF, Georgia                  DEB FISCHER, Nebraska
                                     CINDY HYDE-SMITH, Mississippi
                                     BILL HAGERTY, Tennessee

                    Elizabeth Peluso, Staff Director
              Fitzhugh Elder IV, Republican Staff Director
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                  Pages

                         Opening Statement of:

Hon. Amy Klobuchar, Chairwoman, a U.S. Senator from the State of 
  Minnesota......................................................     1
Hon. Roy Blunt, a U.S. Senator from the State of Missouri........     3
Hon. Eric Holder, Former U.S. Attorney, General and Current Chair 
  of the National Democratic, Redistricting Committee, 
  Washington, DC.................................................    15
Hon. Mac Warner, West Virginia Secretary of State, Charleston, 
  West Virginia..................................................    16
Hon. Jocelyn Benson, Michigan Secretary of State, Lansing, 
  Michigan.......................................................    18
Hon. Todd Rokita, Attorney General of Indiana and Former U.S. 
  Representative, Indianapolis, Indiana..........................    19
Michael Waldman, President of the Brennan Center for Justice, New 
  York, New York.................................................    21
Hon. Trevor Potter, Former Republican Chair of the FEC and 
  Founder and President of Campaign Legal Center, Washington DC..    50
Hon. Lee Goodman, Former Republican Chair of the FEC, Washington 
  DC.............................................................    52
Fred Wertheimer, President of Democracy 21 and Former President 
  of Common Cause, Washington, DC................................    53
Bradley Smith, Chairman of the Institute for Free Speech and 
  Former Republican Chair of the FEC, Columbus, Ohio.............    54
Tiffany Muller, President and Executive Director of End Citizens 
  United/Let America Vote Action Fund, Washington DC.............    56

                    Prepared Statement/Testimony of:

Hon. Eric Holder, Former U.S. Attorney, General and Current Chair 
  of the National Democratic, Redistricting Committee, 
  Washington, DC.................................................    78
Hon. Mac Warner, West Virginia Secretary of State, Charleston, 
  West Virginia..................................................    82
Hon. Jocelyn Benson, Michigan Secretary of State, Lansing, 
  Michigan.......................................................    87
Hon. Todd Rokita, Attorney General of Indiana and Former U.S. 
  Representative, Indianapolis, Indiana..........................    93
Michael Waldman, President of the Brennan Center for Justice, New 
  York, New York.................................................   103
Hon. Trevor Potter, Former Republican Chair of the FEC and 
  Founder and President of Campaign Legal Center, Washington DC..   168
Hon. Lee Goodman, Former Republican Chair of the FEC, Washington 
  DC.............................................................   211
Fred Wertheimer, President of Democracy 21 and Former President 
  of Common Cause, Washington, DC................................   242
Bradley Smith, Chairman of the Institute for Free Speech and 
  Former Republican Chair of the FEC, Columbus, Ohio.............   267
Tiffany Muller, President and Executive Director of End Citizens 
  United/Let America Vote Action Fund, Washington DC.............   281

                  Materials Submitted for the Record:

Klobuchar--Letter from When We All Vote Organization.............   285
Klobucher--Letter from Declaration for American Democracy........   287
Klobucher--Letter from National Disability Rights Network........   315
Klobuchar--Letter from End Citizens United Action Fund/Let 
  America Vote Action Fund.......................................   319
Klobuchar--Letter from Democracy 21..............................   321
Klobuchar--Letter from Demos.....................................   324
Klobuchar--Letter from Voting Rights Lab.........................   330
Klobuchar--Letter from Southern Poverty Law Center Action Fund...   333
Klobuchar--Letter from Denise W. Merrill, Secretary of the State 
  of Connecticut.................................................   350
Klobuchar--Statement of Damon Hewitt, Acting President and 
  Executive Director, Lawyers' Committee for Civil Rights Under 
  Law............................................................   353
Klobuchar--Report on H.R. 1, the For the People Act, as 
  Introduced in the 117th Congress...............................   366
Blunt--Letter from Foundation for Government Accountability......   519
Blunt--Letter from Opportunity Solutions Project.................   520
Blunt--Article: Americans for Prosperity.........................   521
Blunt--Article: Alabama Secretary of State Leads 15 Other 
  Secretaries in Expressing Opposition to H.R. 1.................   523
Blunt--Article: American Conservative Union......................   525
Blunt--Article: An Unconstitutional Voting Reform................   527
Blunt--Letter from Associated Builders and Contractors...........   532
Blunt--Article: ATR Urges No Vote on H.R. 1, the ``For the People 
  Act''..........................................................   534
Blunt--Memo: The Biden Administrations' Immediate Opportunity to 
  Create A Pro-Enforcement Majority on the Federal Election 
  Commission.....................................................   537
Blunt--Article: The Club for Growth..............................   540
Blunt--Letter from the U.S. Chamber of Commerce..................   542
Blunt--Letter from Concerned Women for America Legislative Action 
  Committee......................................................   544
Blunt--Statement: Disability Community Fears Paper Ballot Mandate 
  Will Hurt Voters with Disabilities.............................   545
Blunt--Letter from the Eagle Forum...............................   547
Blunt--Letter from the Faith and Freedom Coalition...............   549
Blunt--Article: `For the People Act' Proclaims Democracy, but 
  Usurps Democ Choices...........................................   551
Blunt--Letter from Family Research Council.......................   554
Blunt--Article: Raffensperger: Baseless Stolen Election Claims 
  Don't Justify Federal Takeover With H.R. 1.....................   556
Blunt--Article: What Does Georgia's New Voting Law SB 202 Do?....   559
Blunt--Article: H.R. 1 Is not `For the People' Sen. Mike Lee.....   566
Blunt--Article: H.R. 1 Would End Bipartisanship at the FEC.......   568
Blunt--Article: H.R. 1/S.R. 1 Seeks to Weaken Voting Standards 
  and Silence Conservative Voices................................   571
Blunt--Article: How the House's Election Reform Bill Would 
  Exacerbate our Polarization....................................   574
Blunt--Letter from Institute for Free Speech.....................   579
Blunt--Article: Jim Crow is not on the Georgia Ballot............   581
Blunt--Letter from March for Life Action.........................   585
Blunt--Letter from Honest Elections Project......................   587
Blunt--Letter from National Association of Manufacturers.........   589
Blunt--Letter from National Association of Wholesalers and 
  Distributors...................................................   590
Blunt--Letter from National Retail Federation....................   592
Blunt--Letter from National Right to Life Committee..............   594
Blunt--Statement of Secretary of State Bill Gardner Regarding the 
  Impact of H.R. 1 on New Hampshire Elections....................   597
Blunt--Article: On Electoral Redistricting Panels, H.R. 1 Would 
  Require Racial, Gender Discrimination..........................   599
Blunt--Opinion: H.R. 1 Could Restore our Democracy. As it's 
  Written now, it Could Hurt it, too.............................   603
Blunt--Article: Pelosi's H.R. 1 is an Authoritarian Outrage......   605
Blunt--Article: Pelosi's H.R. 1 Bill a Blatant Power Grab for 
  Democrats......................................................   610
Blunt--Article: Election Integrity is a National Imperative......   614
Blunt--Article: Power Over Elections Belongs to Nevada...........   617
Blunt--Letter from Association of Mature American Citizens.......   620
Blunt--FGA Article: Eight Ways S. 1 is Wrong for the States and 
  Wrong for Americans............................................   623
Blunt--Letter from Heritage Action for America...................   626
Blunt--Letter from MicroVote.....................................   628
Blunt--Statement from the National Taxpayers Union...............   630
Blunt--Letter from People United for Privacy.....................   631
Blunt--Letter from Public Interest Legal Foundation..............   636
Blunt--Letter from Susan B. Anthony List.........................   639
Blunt--Statement from Rick Stream, Republican Director of 
  Elections, St. Louis County, MO................................   640
Blunt--Letter from Tea Party Patriots Action.....................   642
Blunt--Article: Sorry, Stacey Abrams, H.R. 1 Exemplifies the Need 
  for the Filibuster.............................................   644
Blunt--Article: The Heritage Foundation Explains the Election 
  Process if H.R. 1 Passes.......................................   653
Blunt--Yale Law and Policy Review: The Other Voting Right: 
  Protecting Every Citizen's Vote by Safeguarding the Integrity 
  of the Ballot Box..............................................   660
Blunt--Letter from People United for Privacy.....................   678
Blunt--Article: Biden Falsely Claims the new Georgia law `ends 
  Voting Hours Early'............................................   685
King--Statement: Disability Community Fears Paper Ballot Mandate 
  Will Hurt Voters with Disabilities.............................   688
King--Letter from MicroVote......................................   690
Merkley--Letter from Governor Kate Brown.........................   692
Merkley--Letter from Democracy For All 2021......................   693
Merkley--Letter from the Environmental Community.................   696
Merkley--Article: H.R. 1 Isn't at all an Unconstitutional Bill...   697
Merkley--Letter from Sierra Club.................................   699
McConnell--Letter from the Office of the Attorney General, State 
  of Indiana.....................................................   702
McConnell--Letter from John H. Merrill, Secretary of State.......   708
McConnell--Letter from Former FEC Commissioners..................   710
McConnell--Article: H.R. 1 Could Restore Our Democracy. As It's 
  Written Now, It Could Hurt It, Too.............................   714
McConnell--Article: Jim Crow Is Not On The Georgia Ballot........   716
Cruz--Letter from Public Interest Legal Foundation...............   719
Cruz--Letter from Citizens United................................   722
Cruz--Letter from Concerned Women for America Legislative Action 
  Committee......................................................   724
Cruz--Letter from Family Research Council........................   725
Cruz--Letter from Independent Women's Forum, Independent Women's 
  Law Center, and Independent Women's Voice......................   727
Cruz--Letter from Campaign for Liberty...........................   731
Hyde-Smith--Letter from Mississippi Secretary of State Michael 
  Watson.........................................................   733

                  Questions Submitted for the Record:

Hon. Amy Klobuchar, Chairwoman, a U.S. Senator from the State of 
  Minnesota to Hon. Eric Holder, Former U.S. Attorney General and 
  Current Chair of the National Democratic Redistricting 
  Committee, Washington, DC......................................   735
Hon. Roy Blunt, a U.S. Senator from the State of Missouri to Hon. 
  Mac Warner, West Virginia Secretary of State, Charleston, West 
  Virginia.......................................................   737
Hon. Angus King, Jr., a U.S. Senator from the State of Maine to 
  Hon. Mac Warner, West Virginia Secretary of State, Charleston, 
  West Virginia..................................................   744
Hon. Deb Fischer, a U.S. Senator from the State of Nebraska to 
  Hon. Mac Warner, West Virginia Secretary of State, Charleston, 
  West Virginia..................................................   745
Hon. Amy Klobuchar, Chairwoman, a U.S. Senator from the State of 
  Minnesota to Hon. Jocelyn Benson, Michigan Secretary of State, 
  Lansing, Michigan..............................................   747
Hon. Angus King, Jr., a U.S. Senator from the State of Maine to 
  Hon. Jocelyn Benson, Michigan Secretary of State, Lansing, 
  Michigan.......................................................   748
Hon. Roy Blunt, a U.S. Senator from the State of Missouri to Hon. 
  Todd Rokita, Attorney General of Indiana and Former U.S. 
  Representative, Indianapolis, Indiana..........................   749
Hon. Deb Fischer, a U.S. Senator from the State of Nebraska to 
  Hon. Todd Rokita, Attorney General of Indiana and Former U.S. 
  Representative, Indianapolis, Indiana..........................   754
Hon. Amy Klobuchar, Chairwoman, a U.S. Senator from the State of 
  Minnesota to Michael Waldman, President of the Brennan Center 
  for Justice, New York, New York................................   755
Hon. Angus King, Jr., a U.S. Senator from the State of Maine to 
  Michael Waldman, President of the Brennan Center for Justice, 
  New York, New York.............................................   762
Hon. Amy Klobuchar, Chairwoman, a U.S. Senator from the State of 
  Minnesota to Hon. Trevor Potter, Former Republican Chair of the 
  FEC and Founder and President of Campaign Legal Center, 
  Washington DC..................................................   765
Hon. Angus King, Jr., a U.S. Senator from the State of Maine to 
  Hon. Trevor Potter, Former Republican Chair of the FEC and 
  Founder and President of Campaign Legal Center, Washington DC..   767
Hon. Ted Cruz, a U.S. Senator from the State of Texas to Hon. 
  Trevor Potter, Former Republican Chair of the FEC and Founder 
  and President of Campaign Legal Center, Washington DC..........   767
Hon. Roy Blunt, a U.S. Senator from the State of Missouri to Hon. 
  Lee Goodman, Former Republican Chair of the FEC, Washington DC.   772
Hon. Amy Klobuchar, Chairwoman, a U.S. Senator from the State of 
  Minnesota to Fred Wertheimer, President of Democracy 21 and 
  Former President of Common Cause, Washington, DC...............   780
Hon. Roy Blunt, a U.S. Senator from the State of Missouri to 
  Bradley Smith, Chairman of the Institute for Free Speech and 
  Former Republican Chair of the FEC, Columbus, Ohio.............   783
Hon. Amy Klobuchar, Chairwoman, a U.S. Senator from the State of 
  Minnesota to Tiffany Muller, President and Executive Director 
  of End Citizens United/Let America Vote Action Fund, Washington 
  DC.............................................................   791

 
                        S. 1, FOR THE PEOPLE ACT

                              ----------                              


                       WEDNESDAY, MARCH 24, 2021

                       United States Senate
              Committee on Rules and Administration
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in Room 
301, Russell Senate Office Building, Hon. Amy Klobuchar, 
Chairwoman of the Committee, presiding.
    Present: Senators Klobuchar, Blunt, Feinstein, Schumer, 
Warner, Leahy, King, Merkley, Padilla, Ossoff, McConnell, 
Shelby, Cruz, Capito, Wicker, Fischer, Hyde-Smith, and Hagerty.

  OPENING STATEMENT OF HONORABLE AMY KLOBUCHAR, CHAIRWOMAN, A 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Chairwoman Klobuchar. I call to order this hearing of the 
Rules and Administration Committee on S. 1, the For the People 
Act. Today, we are here to consider the For the People Act 
legislation that I am honored to lead with Senator Merkley and 
Majority Leader Schumer, which has been co-sponsored by every 
Democratic member of this committee. I would like to thank 
Senator Blunt, our colleagues, and our witnesses for being here 
today.
    I would also like to acknowledge, in addition to Senator 
Merkley, two of our other members who are new to this committee 
and are new to the Senate. Senator Ossoff, who, along with 
Senator Warnock, was elected in Georgia, where we all know 
election issues were front and center, as well as Senator 
Padilla, who has his own extensive experience with these issues 
from his time as California's Secretary of State. Last month, 
when we held this committee's organizing meeting, I announced 
that the For the People Act would be the subject of our first 
legislative hearing.
    I am also pleased that we took part in very constructive 
hearings along with the Homeland Security Committee on the 
January 6 attack on the Capitol, and our productive work 
Senator Blunt and I are doing together on oversight and 
investigations of that day is continuing. In the end, that 
insurrection was about an angry mob working to undermine our 
democracy. It reminds all of us how very fragile our democracy 
truly is and how it is on all of us to not just protect that 
democracy but to ensure that it thrives and that democracy is 
due for some rejuvenation.
    This bill is essential to protecting every American's right 
to vote, getting dark money out of our elections as well as 
some very important anticorruption reforms. It is about 
strengthening our democracy by returning it to the hands of its 
rightful owners, the American people. As I said from the stage 
on the Inauguration Day--on that beautiful day, which Senator 
Blunt did so much to make a success under that bright blue sky 
at the very place where you could still see the spray paint on 
the bottom of the columns and the makeshift windows that were 
put in place--I said, this is the day our democracy picks 
itself up, brushes off the dust and does what America always 
does, goes forward as one Nation under God, indivisible, with 
liberty and justice for all.
    Well, we can't do that if anyone's vote is suppressed. At a 
time when the right to vote is under attack and special 
interests and dark money are drowning out the voices of the 
American people, we need to take action. Last November, in the 
middle of a pandemic, in the middle of a public health crisis, 
nearly 160 million Americans voted, more people than ever 
before, in part because the methods of voting, specifically 
making it easier to vote, were extended in states across the 
country. That was an extraordinary thing. That was progress, 
but what was the result? Well, just since the beginning of this 
year, now over 300 bills have been introduced in state 
legislatures across the country, in nearly every state, 
including my own home State of Minnesota. Efforts have been 
made to suppress the vote, efforts have been made to introduce 
bills that would suppress the vote.
    So, as Senator Warnock said in his maiden speech on the 
Senate floor last week, ``What's happening. Some people don't 
want some people to vote.'' That's what's happening. To take 
two examples: A dozen states--including Arizona, Georgia, and 
Pennsylvania--have introduced legislation to limit access to 
vote by mail, which is how 45 percent of voters cast their 
ballots in the last election, and 14 states have introduced 
legislation to make it easier to purge voters from the rolls. 
At the same time, the huge sums of money spent on elections are 
drowning out the voices of voters. According to the Center for 
Responsive Politics, spending for the 2020 election cycle was 
approximately $14 billion, more than double the 2016 cycle.
    Dark money also continues to flood our elections, denying 
voters their ability to know who is trying to influence their 
vote. These are real threats to our democracy, and the For the 
People Act takes them head on in a common sense way to return 
the power to the people. That is why the American people 
overwhelmingly support the provisions of this bill. According 
to a Pew poll from last year, 65 percent of respondents said 
the option to vote early, or absentee should be available to 
any voter. A poll from the Campaign Legal Center found that 83 
percent of likely voters support public disclosure of 
contributions to organizations involved in elections. A recent 
Morning Consult poll found that 57 percent of voters support 
requiring states to establish nonpartisan redistricting 
commissions.
    These are not new ideas. Many of the provisions in this 
bill have already been adopted across the country in red, blue, 
and purple states and have the support of Republican and 
Democratic Governors and election officials. They should be 
extended to all people in America. 21 states have same day 
voter registration, including red states like Idaho, Wyoming, 
and Iowa. Kentucky's Republican Secretary of State just 
recently praised a bill that would make early in-person voting 
permanent. He called it the ``most significant election reform 
legislation in the past quarter century.'' 20 states have 
automatic voter registration laws, including Alaska and 
Georgia.
    Even Ohio's Republican Secretary of State has called for 
automatic voter registration in his state. 45 states allowed 
all voters to vote by mail in the November election, and 43 
states have early voting. They should all have early voting. 
What this bill does is to take the best of the best and simply 
puts in place minimum standards. I know it is not just 
bipartisan support in the states. There are nine bipartisan 
bills that are part of the For the People Act, including the 
Honest Ads Act, a bill that Senator Graham and I have long 
tried to get passed, along with Senator Warner, a member of 
this committee. I am focused on having a productive discussion 
of what is in the bill before us and how we will address the 
real challenges our democracy is facing. Based on what some of 
my colleagues say, I think I want to briefly respond ahead of 
time to that. We may hear about voter fraud, despite the fact 
that experts have found that voter impersonation fraud is so 
rare that an American is more likely to be struck by lightning 
than to commit voter impersonation fraud.
    We may hear about alleged problems with the 2020 election, 
despite the fact that in November, the Trump Administration's 
Department of Homeland Security, along with state and local 
officials across the country, called the 2020 elections the 
most secure in American history. We may hear about Federal 
overreach despite the fact that Article I Section 4 of the 
United States Constitution empowers Congress to ``make or 
alter,'' those are the words of the Constitution, rules for 
Federal elections, ``at any time.''
    We may hear about alleged violations of the First 
Amendment, despite the fact that the Supreme Court has 
repeatedly held that disclaimer and disclosure requirements are 
constitutional and that the Court has never held that there is 
a constitutional right to spend anonymously on elections. We 
may hear about taxpayer funding of campaigns, despite the fact 
that this bill includes a provision stating explicitly that no 
taxpayer money should be used to fund campaigns. The subject of 
this hearing, the very health of our democracy, is simply too 
important to allow these types of misrepresentations to go 
unaddressed.
    At its core, the For the People Act is about three simple 
ideas: making voting easier, getting big money out of politics, 
and strengthening ethics rules. These are not radical 
proposals. These are ideas that nearly everyone in this country 
agrees with. With this bill, we can make them a reality and 
ensure that Americans have a democracy that works for them. 
With that, I am honored to turn it over to Ranking Member 
Blunt. Thank you.

 OPENING STATEMENT OF HONORABLE ROY BLUNT, A U.S. SENATOR FROM 
                     THE STATE OF MISSOURI

    Senator Blunt. Thank you, Senator Klobuchar. Good morning 
to everybody here. Pleased that others will be attending as the 
morning goes on. Before I begin my comments on today's hearing, 
I would like to congratulate Chairwoman Klobuchar on becoming 
head of our committee. Senator Klobuchar and I have a long 
history of working together to try to make the daily work of 
the Senate go better as an institution, and we have worked on 
lots of bills outside of the scope of this committee as well. 
As all of you know, we have also begun bipartisan hearings on 
the events of January the 6th.
    As the Senator said, we are continuing interviews, 
extensive interviews on that topic, and we are going to be 
looking to see what comes next there. I look forward to 
continuing the committee's work with her as we look to the 
remainder of this Congress. I also want to mention the four new 
members that have joined the committee. I would like to 
formally welcome Senators Merkley, Hagerty, Padilla and Ossoff 
to the committee.
    Senator Padilla and I both served as Secretaries of State 
and have maybe more of a sense of the many things that you 
worry about on Election Day than people who have been 
candidates on Election Day but never have had the 
responsibility that Secretaries of State and local officials 
have. Now to the business of today. It has been 21 years since 
the first bill of a Congress has been referred to the Rules 
Committee. I think the first bill, the S. 1 bill, is 
symbolically important. It is intended to demonstrate the 
highest priority of the Senate's majority party.
    As the Rules Committee begins its review of the majority's 
highest priority, S. 1, we should note that Democrats defended 
the last elections as secure without meaningful election fraud 
as Senator Klobuchar has done here today. They point to the 
high level of voter participation and the ability of states to 
make pandemic driven changes. If you follow their view of why 
we need this bill, in spite of those two things, it is because 
the states are now headed in the wrong direction. They have 
been pointing to 253 bills, that became 300 bills this morning, 
but 253 bills mentioned in almost every article filed in 43 
state legislatures to make it harder to vote. Now, nobody is a 
bigger expert on how you should conduct elections than 
politicians. When people come to see me who are with the 
airline industry, I say, okay, what you are going to find in 
Congress is everybody here thinks they are experts on two 
issues: elections and air travel.
    Elections are something that every state legislator thinks 
they are an expert on. Frankly, six or seven bills filed in the 
average legislative session by Republicans and that many filed 
by Democrats would not be an unusual number at all. The truth 
is almost none of those bills become law. In fact, the Brennan 
Center, who has been the source of these 253 bills that 
restrict voter access, say that so far only two have become 
law. One bill in Arkansas further defines the implementation of 
photo I.D. requirements. The other bill in Utah requires the 
Lieutenant Governor to send the Social Security list of 
deceased recipients to county clerks so that they can initiate 
the process of removing the names of dead people from the voter 
rolls.
    The Brennan Center lists that removal as voter suppression. 
I think they also list the bill that Senator Klobuchar talked 
about in Kentucky as voter suppression because it takes the 
expansion that Kentucky made in the pandemic moment and then 
institutes the best of that expansion as part of permanent law. 
You can't have both voter suppression and praising the bill at 
the same time as an example of how we need to move forward, and 
states are moving forward in these areas. Now, it is never 
mentioned that over 700 bills have been filed by Democrats in 
state legislatures and actually more than 100 of them have 
somehow become law.
    100 Democrat bills passed into law and 2 Republican bills. 
Sounds like there is a little disproportion there. But let me 
give you an idea on that one. One of the Illinois bills 
requires the establishment of polling places in county jails so 
prisoners can vote. The bill that we are looking at really 
doesn't have much to do with the topic of how well the 
elections were conducted in the last cycle or Democrats 
wouldn't be offering the bill at all. One of the goals of S. 1 
will be a Federal takeover of the election process. In my view, 
that would be an unmitigated disaster for our democracy. 
Today's hearing will shed light on some of the destructive 
elements contained in this legislation. I have been a former 
Election Administrator, first as the Green County Clerk in 
Missouri's third largest county, and later as Missouri's 
Secretary of State.
    I am greatly concerned about the idea that somehow one size 
fits all regulations from the Federal Government change a 
system that has served our country well since the beginning of 
the country. The diversity of our election system is one of the 
greatest strengths of our election system. You all have become 
perhaps tired of me consistently quoting President Obama in 
2016, who made that exact same observation. One of the 
strengths of the system is the diversity of the system. S. 1 
would force a single partisan view of elections on more than 
10,000 jurisdictions around the country.
    State and local Election Administrators would be forced to 
change how they register voters and which voting systems they 
can use, how they handle early voting and absentee ballots, and 
how they maintain their voter lists. The bill requires states 
to make ballot drop boxes available for 45 days prior to a 
Federal election. It even designates the location of the drop 
boxes and tells states how the ballots are to be taken out of 
the drop boxes and counted. It would mandate unlimited ballot 
harvesting, a process where one person collects and submits an 
unlimited number of ballots, a system ripe for abuse, as 
Democrats in the House of Representatives contended when they 
refused the election of a Republican from North Carolina 
because of ballot harvesting.
    This bill would also require states to allow felons to vote 
in Federal elections, and it does allow states that don't want 
to do that to have a separate set of voter registration lists, 
one for Federal elections and one for other elections. What is 
more, this bill would require all of these changes to be made 
very quickly, so quickly that, should this legislation be 
enacted, chaos will reign in the next election and voters will 
have less faith in the integrity of their elections than they 
currently do.
    S. 1's path of destruction doesn't stop at Election 
Administration, it would result in a partisan Federal Election 
Commission, a commission that is designed to be half of one 
party and half of the other. Federal moneys would flow into 
campaign coffers at the rate of $6, 6 Federal dollars for every 
$1 raised up to $200. $1,200 from the Treasury for $200 raised 
would be particularly helpful to candidates when they can pay 
themselves a salary to campaign, as this bill also allows. 
There are only--these are only a few of the things that people 
need to be aware of. I am sure they will be aware of much more 
by the end of this hearing. There are First Amendment issues. 
There are 10th Amendment issues. A Federal takeover of 
congressional redistricting, a constitutional issue.
    Let me finally request, as a committee, we really worked 
through this and other issues based on the principles of fair 
play. Now as I said earlier, Senator Klobuchar and I have 
worked closely together for a long time and we will continue 
to, but on this issue, the first time my staff saw a draft of 
this 818 page bill was March the 12th.
    After agreeing to the number of witnesses on March the 
16th, we were informed at 6:18 p.m. on Thursday, March the 
18th, that instead of having the three Democrat witnesses and 
two Republican witnesses we would agree to, there would be six 
Democrat witnesses, and we could add our witnesses if we could 
find them over the weekend. This committee has a long tradition 
of respect for the minority party. I hope that custom will be 
restored. I am glad to be joined by so many of our colleagues 
today, chairwoman, and look forward to the hearing.
    Chairwoman Klobuchar. Thank you very much, Senator Blunt. I 
think, you know, our strong friendship will continue despite 
our disagreements on this bill. I will want to point out one 
thing, the bill has been in existence for years. The version of 
the bill that was introduced this year is very similar to the 
one that was introduced in the last Congress almost 2 years 
ago.
    The Senate bill actually closely tracks the text of the 
House bill which passed the House of Representatives and was 
introduced on January 4th, 79 days ago. So with that, we have 
both--we are honored to have both leaders here who are members 
of this committee. I will first hand this over to Senator 
Schumer.
    Senator Schumer. This is the first committee meeting I am 
attending as Majority Leader because I believe this issue is 
so, so important.
    Now, the story of American democracy is really messy and 
full of contradictions and halting progress one step forward, 
one step back.
    It was a century and a half before women got the right to 
vote, another half century before African-Americans could enjoy 
the full rights of citizenship. It took mighty movements and 
decades of fraught political conflict to achieve even those 
basic dignities and establish the United States as a full 
democracy worthy of the title. Progress in the right to vote is 
a hallmark of this democracy. When the found--when the Nation 
was founded, you had to be a white male property, white male, 
Protestant property owner in many of the states.
    So a very small percent--if we kept those rules into 
effect, let's not change things, we maybe would have 5 percent 
or 10 percent of the American people voting, but no, our move 
to equality, our move to fairness has been inexorable, but it 
didn't happen on its own. It took mighty movements and decades 
of fraught political conflict to achieve those basic dignities 
and establish the United States, as I said, as a full democracy 
worthy of the title, but any American who thinks that the fight 
for a full and fair democracy is over is sadly and sorely 
mistaken.
    Today, now, in the 21st century, there is a concerted 
nationwide effort to limit the right of American citizens to 
vote and to truly have a voice in their own Government. In the 
wake of the November elections, one of the safest in recent 
history, Republican led state legislatures have seized on the 
former President's big lie that the election was stolen and 
introduced more than 250 bills in 43 states aimed at tightening 
voting rules under the guise of election integrity. Instead of 
doing what you should be doing when you lose an election in a 
democracy, attempting to win over those voters in the next 
election, Republicans instead are trying to disenfranchise 
those voters. Shame on them. In Iowa, where college students 
often rely on the flexibility provided by early and mail in 
voting, the Republican legislature voted to cut early voting by 
9 days, close polls an hour earlier, and tightened rules on 
absentee voting. In Wisconsin, where urban and rural precincts 
face vastly different administrative burdens, Republicans have 
proposed limiting ballot boxes to only one municipality, no 
matter what, its size could be 10,000 voters in a rural 
Republican county or 500,000 voters in an urban Democratic 
voting county--one ballot drop box.
    In Arizona, no fewer than 22 separate measures to limit 
voting rights have been introduced, including a bill to require 
every absentee ballot to be notarized. How are poor people 
going to pay for a notary when there is virtually no indication 
of fraud. It is one of the most despicable things I have seen 
in all my years. Shame, shame, shame. Other things in Arizona, 
two bills to ban automatic voter registration and same day 
registration, even though neither practice exists in Arizona. 
The most reprehensible effort of all might be found in Georgia, 
where Republicans recently passed a bill to eliminate early 
voting on Sunday. On Sunday, a day when many churchgoing 
African-Americans participate in voter drives known as souls to 
the polls, what an astonishing coincidence. Outlaw voting on a 
day when African-American churches sponsor get out the vote 
efforts.
    I would like one of the Republican members on this 
committee to give us a plain sense justification for that 
restriction, no early voting on Sundays. Why did Georgia 
Republicans outlaw? Monday through Saturday, legitimate voters 
show up, but Sunday is voter fraud day. Give me a break. Every 
one of us, Democrat, Republican, liberal and conservative, 
knows what the Georgia legislature is doing. They don't even 
have a good justification for it. This is infuriating. I would 
like to ask my Republican colleagues, why are you so afraid of 
democracy? Why, instead of trying to win voters over that you 
lost in the last election, are you trying to prevent them from 
voting?
    Our country has come a long way, supposedly, since African-
Americans in the South were forced to guess the number of jelly 
beans in a jar in order to vote, but some of these voter 
suppression laws in Georgia and other Republican states smack 
of Jim Crow rearing its ugly head once again. It is 160 years 
since the 13th, 14th and 15th amendments abolished slavery and 
Jim Crow still seems to be with us. The laws, their various 
cousins in Republican state legislatures across the country, 
are one of the greatest threats we have to modern democracy in 
America, according to The Washington Post. These laws could 
strain every available method of voting for tens of millions of 
Americans, the most sweeping contradiction of ballot access in 
the United States since the end of reconstruction.
    If one political party believes that when you lose an 
election, the answer isn't to win more votes but rather to try 
and prevent the other side from voting, we have an existential 
threat to democracy on our hands if we don't stop these vicious 
and often racist actions. A Third World autocracy, like 
Erdogan's Turkey or Orban's Hungary will be on its way. That is 
why the country so badly needs S. 1, a bill that would combat 
all of these voter suppression efforts, a bill that would make 
it easier, not harder, to vote by automatically registering 
American voters when they get a driver's license, by 
guaranteeing at least 15 continuous days of early voting. A 
bill that would limit dark money and corruption in our politics 
and much more.
    We are going to hear from my fellow Democratic committee 
members why the bill is so important, and I expect we are going 
to hear the same tired canards from our Republican colleagues, 
many of which have no basis in fact--most of which defy belief. 
We are going to hear that this bill, gasp, register Americans 
to vote is a Democratic power grab. We are going to hear that 
it is a Federal takeover of our elections, never mind that the 
founders, who my Republican colleagues invoke when it is time 
to confirm a right-wing judge, wrote in the Constitution, in 
the Constitution, that the Congress has the power to pass laws 
to determine the time, place, and manner of Federal elections. 
We have been down this road before. Opponents of voting rights 
throughout history have always said, leave it to the states, 
just leave it to the states to discriminate against African-
Americans, Latinos, Native Americans, younger Americans in 
college.
    It is shameful our Republican colleagues are proposing 
these ideas in 2020. The same kinds of states rights that have 
been used from time immemorial to prevent certain people from 
voting. Shame, shame, shame. This is not the usual political 
argument. This goes to the core of our democracy. The crowning 
achievement of the American civil rights movement was a Federal 
election law. You might know it better as the Voting Rights 
Act. Federal, bipartisan. The truth is that we have passed 
scores of Federal election laws and amended our Constitution to 
guarantee the franchise to our citizens, often bipartisan, led 
by Republican Presidents. The Voting Rights Act of 1965, the 
National Voter Registration Act of 1993, the Help America Vote 
Act of 2002, the 14th, 15th, 19th, 23d, 24th and 26th 
Amendments. All election changes.
    That is because in a democracy it shouldn't matter if a 
state wants to make it so onerous for a particular group to 
vote that it is nigh impossible. Is requiring a notary public 
any different than asking people to guess the number of 
jellybeans in a jar? I guarantee you the motivation is exactly 
the same. It shouldn't matter if a state wants to do it if it 
is so, so wrong, so against the grain of our democracy.
    Voting rights are sacrosanct. They must be inviolable, and 
if Congress has to pass a law or amend the Constitution to 
protect the voting rights of our citizens, that is what we 
should do. That is what we must do. That is what our democracy 
requires we do as one. S. 1, the For the People Act, will be a 
priority in this Congress. Thank you.
    Chairwoman Klobuchar. Thank you very much, Senator Schumer. 
We now turn to the Republican leader, Senator McConnell.
    Senator McConnell. Following up on what the Majority Leader 
has just said, the state bills that he refers to, I believe 
Senator Blunt has mentioned, only two of them have passed and 
they had absolutely nothing to do with suppressing the vote. It 
is also noteworthy that this is a solution in search of a 
problem. Turnout in 2020 was up 7 percent. The turnout in the 
2020 election was the highest since 1900. States are not 
engaging in trying to suppress voters whatsoever.
    This is clearly an effort by one party to rewrite the rules 
of our political system, but even more immediately, it would 
create an implementation nightmare, as Senator Blunt pointed 
out, that would drown state and local officials who run 
elections. This proposal needs all the scrutiny it can get, and 
I am glad we are all here to give it that scrutiny.
    This legislation would forcibly rewrite the election laws 
of all 50 states from here in Washington. Popular policies like 
voter I.D. requirements would be banned unless states neutered 
them with loopholes. Meanwhile, unpopular and absurd practices 
like ballot harvesting, where paid political operatives can 
show up carrying stacks of other people's ballots, would not 
just be allowed it would be mandatory.
    Washington would mandate that every state and county in 
America adopt same day voter registration with minimal 
safeguards, but it would make it incredibly difficult for 
states and counties to conduct routine voter list maintenance 
like removing dead people or voters who don't live there any 
longer.
    Then there is the whole question of political speech. 
Refereeing campaigns and policing speech are sensitive tasks. 
Appropriately, the FEC was designed after Watergate to be 
bipartisan--an even split three to three. So let me dwell on 
that for a minute.
    After Watergate, my party--the Republican Party--was just 
about wiped out. The overwhelming Democratic majorities could 
have done anything they wanted to. It never occurred to them 
that the Federal Election Commission, set up to police how we 
run campaigns, would be made a partisan entity. They could have 
done it then. Now we are in a 50/50 Senate and a narrow 
majority in the House, and this audacious move wants to turn 
the judge of our democratic process into a partisan prosecutor. 
Talk about shame.
    If anybody ought to be feeling any shame around here, it is 
for turning the FEC into a partisan prosecutor--the majority 
controlled by the President's party--to harass and intimidate 
the other side. That is what you ought to be ashamed about.
    Over in the House Administration Committee, we are having 
an example right now of how that could happen. The Democratic 
Majority is trying to overturn a certified election result. I 
want to ask how many of our friends on the other side here were 
just arguing last month and the month before that certifying a 
state election was the gold standard. It is over after a 
certification.
    Apparently not in the House. Of course, the Constitution 
gives the House the power to determine who will sit there. That 
doesn't mean they should go against everything they were 
preaching in the last two months about the sanctity of state 
certification and simply ram through someone who lost the 
election, according to officials in Iowa. That is what happens, 
I would say to my Democratic friends, when you let partisan 
bodies regulate elections, and that is certainly not what we 
need at the FEC. That is what, among other things, you ought to 
be ashamed about.
    This bill would also expand the scope of this newly 
partisan FEC. More power over more of Americans' speech, more 
mandates for private groups to publicize their list of 
supporters. Associational privacy is a core liberty. It has 
been championed heroically by organizations like the NAACP. 
This bill is such an attack on citizens' privacy that even the 
left-wing ACLU opposes this bill.
    These are big picture problems, but on a practical level, 
even if you disagree with everything I just said, the fact is, 
as Senator Blunt pointed out, this legislation is just not 
ready for primetime. It is an invitation to chaos. Chaos. 
State-level election officials, including Democrats, are 
sounding alarms left and right.
    This messaging bill would create a nightmare if it actually 
became law. It would mandate brand new voting machines that 
have not even been produced yet. It mandates something that 
doesn't exist, let alone certified and approved. It would force 
every state to rush through big changes like inventing new, 
unsecure, automated telephone systems to register voters. I am 
sure prank callers would have a field day with that. This thing 
even has something to say about the paper on which local 
officials would be able to print their ballots. The kind of 
envelope adhesive they have to use.
    That is a really important thing for the Federal Government 
to dictate: what kind of adhesive they have to use. What a 
great idea. Just the prospect of all these silly new mandates 
is already keeping local officials up at night, and that 
includes, by the way, Democratic local officials who conduct 
elections. Of course, this thing would even put American 
taxpayers on the hook for transfer payments. Don't be kidded 
into thinking there is not Federal money in this bill. Transfer 
payments that would go directly to fund political campaigns. 
Taxpayer-funded bumper stickers and attack ads. What a great 
idea.
    The American people are really going to like that. Taking 
their money and spending it on attack ads, bumper stickers, 
buttons, and balloons. Look, even liberals who like this bill 
better than I do are admitting all the practicalities need to 
go back to the drawing board. This is nowhere near ready for 
primetime. It is an invitation to total chaos.
    So I will close with this. Senator Klobuchar, I had your 
job after the 2000 election. Chris Dodd and I teamed up to pass 
the Help America Vote Act. It was a major voting bill. What it 
did was to try to encourage making it easier to vote but harder 
to cheat. It was a combination of things--well balanced. It 
passed 92 to 2. 92 to 2. That is the kind of consensus that can 
be built when you approach a subject like the one that is 
before us today on the right way.
    By contrast, this bill did not receive a single Republican 
vote in the House, and I predict it will not in the Senate 
should we unfortunately have to vote on it. Both Republicans 
and Democrats voted against it in the House.
    Now, we have just seen two consecutive Presidential 
elections, 2016 and 2020, where chunks of Americans on both the 
left and the right took turns refusing to accept the result 
when their side lost.
    We can't afford to go further down this road. We should be 
finding ways to rebuild trust, not destroy it further, but that 
is exactly what a partisan power grab would guarantee. That is 
what S. 1 is all about. Thank you, Madam Chairwoman.
    Chairwoman Klobuchar. Thank you very much, Senator 
McConnell. We do want to clarify that the bill did pass the 
House, did receive votes in the House, 220 to 210, with only 
one Democrat voting against the bill. By a prior agreement, 
Senator Merkley, who is the author of the bill, is going to say 
a few words and then we will introduce the witnesses. Thank 
you.
    Senator Merkley. Thank you, Madam Chair. This is clearly a 
very important conversation for our country. It has been since 
we were born. Our founders had this revolutionary idea that 
instead of power flowing down from kings and being edicts on 
the people, it would flow up from the people to guide our 
Nation in its current time and in times to come. That power is 
exercised through the ballot box, which makes that ballot box 
an incredibly important, not just a symbol of Government by the 
people, but the core device through which that power is 
exercised. Our founders recognized that this could be 
difficult.
    I think you have all heard that Ben Franklin in 1787 when 
he was leaving the constitutional convention, exiting the door 
of Independence Hall, was asked, ``Doctor, what have we got, a 
Republic or a monarchy?'' and he replied, ``a Republic, if you 
can keep it.'' This is a battle over keeping the vision of our 
country, a power flowing up from the people, has been one that 
we have had to fight to maintain throughout our history.
    It was Lincoln, speaking at Gettysburg, commented on the 
fact that, ``we here highly resolve that these dead shall not 
have died in vain, that Government of the people, by the 
people, for the people shall not perish from the earth.'' Now, 
our founding document was flawed, and they didn't give the 
power of the ballot box, the power of the vote to every 
individual, and we have worked through great struggle to make 
sure that that is remedied. Through the 14th and 15th 
Amendment, we overcame some of the barriers on race, through 
the 19th Amendment, barriers on gender--happening within the 
lifetime of my father, I was astounded to learn as a child. 
Overcoming barriers that denied Native Americans the right to 
vote with Indian Citizenship Act of 1924, and overcoming 
barriers of Jim Crow with the Voting Rights Act of 1965.
    LBJ, commenting at that time, said the vote is the most 
powerful instrument ever devised for breaking down injustice. 
Many have characterized the power to vote as the most 
fundamental right. Robert Kennedy famously saying, ``each 
citizen's right to vote is fundamental to all the other rights 
of citizenship.'' So here we are now once again, struggling 
with the battle on how to defend the integrity of our election 
process, the integrity of the ballot box. We have elections 
that are afflicted by gerrymandering, which is a direct attack 
on equal representation. Political scientists continue to tell 
us that the representation in the House of Representatives is 
significantly biased by the gerrymandering that takes place in 
various states. Every American has a stake in the integrity of 
eliminating gerrymandering.
    The dark money flowing through our campaigns, the big money 
is a source of such cynicism to Americans, that this 
unidentified, massive hundreds of millions of dollars is 
drowning out their voice. They see those campaign attack ads, 
hundreds and hundreds of millions of dollars, with nobody 
knowing where this money comes from, and what they know is that 
it isn't power from the people because people don't have 
hundreds of millions of dollars. That is power from the 
corporations, that is power from the mega rich attempting to 
influence the course of our country, not for the people, not 
of, by, and for the people, but by and for the powerful. We 
have a responsibility to address that.
    Then, voter suppression. Well, this is not some, as I just 
heard, some silly idea that we should stop voter suppression. 
It is fundamental. We took an oath to the Constitution and that 
involves defending the right to vote, defending the ballot box. 
We are going to see a lot of laws passed trying to take that 
away. We know, we all know how easy it is to manipulate the 
vote on Election Day. We know because we see it. We see the 
long lines in very poor communities, we see difficult places to 
reach or moved precinct polling places in areas that are 
primarily where black Americans vote.
    We see the false information put out by various characters 
saying, oh, the election was last week. Sorry you missed it 
when actually the election is the coming week. Or saying, here 
is the vote, but it is not the accurate vote. The antidote to 
the manipulation of Election Day has been to enable people to 
vote early or vote by mail. It has worked in red states like 
Utah. It has worked in blue states like Oregon.
    It has been popular with citizens who want to know that 
they can exercise their right without being sent to the wrong 
place, without being sent to someplace that has no parking, 
without being sent to someplace where there is no staff, so 
they have to wait in line for 5 hours without worrying about 
whether that November election is in the middle of a snowstorm. 
They want to exercise that right and we have a responsibility 
to defend their ability to do so. So let's take on these 
afflictions in a bipartisan manner.
    Until recently, it was bipartisan energy in support of the 
vision of election integrity. Let's summon that spirit together 
again. Let's summon the spirit that led us to the 14th and 15th 
amendments, the 19th Amendment, that led us to the 1924 Indian 
Citizenship Act, that led us to the 1965 Voting Rights Act. It 
is our responsibility. It is imperative that we act, and we act 
now. Thank you, Madam Chair.
    Chairwoman Klobuchar. Thank you very much, Senator Merkley. 
Before we swear in our first panel of witnesses today, I would 
like to make a motion to enter into the record some documents 
by unanimous consent. They were submitted by national leaders, 
civil rights groups, democracy reform groups, and others in 
support of S. 1, the For the People Act. I would like to 
highlight three letters in the group, the first from former 
first lady Michelle Obama's organization, When We All Vote, in 
support of the bill, which has been signed by more than 60 
people who are National leading voices in the arts, sports, and 
civil rights, including Tom Hanks, Kerry Washington, Lin-Manuel 
Miranda, and Issa Rae.
    A letter from the Declaration for American Democracy in 
support of the bill that has been signed by more than 300 
National and state organizations, and a letter from the 
National Disability Rights Network, which highlights some of 
the challenges voters with disabilities continue to face when 
casting their ballot and emphasizes the urgent need to enact 
many of the reforms in the For the People Act. I ask unanimous 
consent to put these letters in the record. Put them in the 
record.
    [The information referred to was submitted for the record.]
    Chairwoman Klobuchar. I am now going to introduce three of 
the witnesses and Senator Blunt will introduce the other 
witnesses, the other two witnesses, including one that is with 
us today, but before we do that, I will swear in the witnesses. 
If the witnesses could please stand, including those joining us 
virtually, and raise your right hand. Do you swear that the 
testimony you will give before the committee shall be the 
truth, the whole truth, and nothing but the truth, so help you 
God?
    Mr. Holder. I do.
    Ms. Benson. I do.
    Mr. Waldman. I do.
    Mr. Warner. I do.
    Mr. Rokita. I do.
    Chairwoman Klobuchar. Thank you. Now, our witnesses. Our 
first witness today is former United States Attorney General 
Eric Holder. Attorney General Holder began his career in public 
service in the Public Integrity section of the Justice 
Department in 1976. He was later appointed by President Reagan 
to serve as a judge on the Superior Court of the District of 
Columbia in 1988.
    After Attorney General Holder stepped down from the bench 
in 1993, he made history as the first African-American to serve 
as the United States Attorney for the District of Columbia. In 
1997, he was named Deputy Attorney General by President Clinton 
and became the first African-American to serve in that 
position. He then moved on to a law firm at Covington & 
Burling, and after that, in 2009, he again made history by 
becoming the first African-American to serve as United States 
Attorney General under President Obama. In 2017, he launched 
the National Democratic Redistricting committee and has served 
as its chair.
    Our second witness today is Secretary Jocelyn Benson. 
Secretary Benson was elected as Michigan's 43d Secretary of 
State in 2018. Over the last 2 years, she has implemented a 
number of major reforms, and this is very important to the 
discussion we will be having today about the implementation 
issues. She has been able to do this with no issues to 
Michigan's elections, including putting in place automatic 
voter registration, same day registration, and no excuse vote 
by mail for all voters, as well as conducting post-election 
audits.
    Before taking office, she was the youngest woman in United 
States history to lead a top 100 accredited law school, after 
she was appointed as Dean of Wayne State University Law School 
in Detroit at the age of 36. Previously, she was an Associate 
Professor and Associate Director of Wayne Laws Damon J. Keith 
Center for Civil Rights. She also currently serves as Vice 
Chair of the Advisory Board for the Levin Center at Wayne Law, 
which she founded with former United States Senator Carl Levin. 
Secretary Benson received her B.A. from Wellesley University, 
her M.A. from Magdalen College at the University of Oxford, and 
her law degree from Harvard Law School.
    Our third witness on the first panel is Mr. Michael 
Waldman, President of the Brennan Center for Justice at New 
York University Law School. He has served in that capacity 
since 2005. He began his career in 1989 as the Director of 
Public Citizen's Congress Watch. From 1993 to 1995, he served 
as a Special Assistant to President Clinton for Policy 
Coordination and was the top White House aide on campaign 
reform. He then continued to serve in the Clinton 
Administration as Director of Speech Writing and Assistant to 
the President until 1999.
    He has written four State of the Union addresses and two 
inaugural addresses. Mr. Waldman has also been a lecturer in 
public policy at Harvard's John F. Kennedy School of 
Government, and practiced law in Washington, DC. and New York. 
He received his B.A. from Columbia University and his law 
degree from NYU School of Law. I will now turn it over to 
Senator Blunt to introduce the two other witnesses.
    Senator Blunt. Thank you, Senator Klobuchar. Since you 
responded to Senator McConnell's comments, I have just one 
brief comment to what Senator Schumer had to say. He said he 
would like for any Republican to answer the question of why 
Georgia should eliminate voting on Sunday. They are not 
eliminating voting on Sunday. It did not pass the legislature. 
The Republican Governor, the Republican Lieutenant Governor 
even refused to preside over the debate. This is an idea like 
most of the 253 ideas out there introduced by some Republican 
in some legislature somewhere that will not happen.
    You know, we can spend all day talking about legislation 
that was filed by Republicans that had--that will not become 
law, or we can talk about this bill. I hope we get to where we 
talk about this bill. I have two witnesses today, we have 
asked, who can talk about this bill with great knowledge of how 
this bill will affect states. One of our witnesses, Todd 
Rokita, was elected to serve as the Attorney General of Indiana 
in November 2020. Prior to that, Todd Rokita served Indiana in 
the Congress. As Indiana's Secretary of State, Todd was elected 
as President of the National Association of Secretaries of 
State in 2007.
    Our second witness today, Mac Warner, is West Virginia's 
30th Secretary of State. He graduated from the United States 
Military Academy at West Point and the West Virginia University 
School of Law. Prior to serving as Secretary of State, he 
served his country for 23 years in the United States Army and 5 
years in Afghanistan with the State Department. I would like to 
turn to Senator Capito for any additional comments she might 
make about her Secretary of State, Mac Warner.
    Senator Capito. Well, thank you, Senator Blunt. I thank all 
of you, and I want to thank our Secretary of State, Mac Warner, 
for joining us today. He ran a flawless election in 2020 under 
difficult situations for everybody. We had more people voting. 
We had no disputes to speak of. I want to thank our Secretary 
of State for not only being a leader in this area on mobile 
voting as well, but also for serving our country. He comes from 
a long line of West Virginians, and I am proud to have him here 
with us today. Thank you.
    Chairwoman Klobuchar. Very good. We will start with our 
first witness. The witnesses have 5 minutes for an opening 
statement. We will begin with Attorney General Holder.

    OPENING STATEMENT OF HONORABLE ERIC HOLDER, FORMER U.S. 
ATTORNEY, GENERAL AND CURRENT CHAIR OF THE NATIONAL DEMOCRATIC, 
            REDISTRICTING COMMITTEE, WASHINGTON, DC

    Mr. Holder. Thank you, Chairwoman Klobuchar, Ranking Member 
Blunt, and members of the committee. I want to thank you for 
the opportunity to appear before you today. You know, for as 
long as this country has existed, there have been two opposing 
forces that have fought over how we define and confer the 
rights and privileges of citizenship, freedom and equality. 
Every step that has brought us closer to universal suffrage has 
been met by those, often by those who were in power, who want 
to maintain an unjust status quo, much in the same way that 
reconstruction was followed by the era of Jim Crow.
    The progress won by the civil rights movement, including 
the Voting Rights Act of 1965, has faced a multipronged assault 
that has sought to take us back to an era in which politicians, 
not the people, pick who wins and consequently who can 
participate in elections. The events of the past few months 
have brought into stark focus what has been true for too long. 
There is a large and powerful faction in this country intent on 
retaining power and who will bend or break the rules of our 
democracy in order to do so. The attack on our system of 
Government did not begin or end with insurrection at the 
Capitol on January the 6th.
    For years now, politicians have spread the same lies about 
voter fraud and advanced falsehoods about the integrity of our 
electoral system. The fact is that there is no evidence of 
widespread or systemic fraud during the 2020 election or at any 
other time. Yet state legislators around the country have used 
these baseless assertions as a pretext to introduce, as we have 
heard, more than 250 bills in 43 states that would restrict who 
can vote. This new wave of bills is the latest step in a decade 
long project to systematically chip away or outright eliminate 
key protections for voters in a way that has undermined our 
representative democracy.
    Too many Americans, and particularly people of color, face 
discriminatory and onerous barriers to vote. The For the People 
Act is a necessary and appropriate response to both the erosion 
of voting rights and the advancement of special interests. The 
combination of unprecedented partisan gerrymandering during the 
2011 redistricting process, the wave of voter suppression bills 
passed in the wake of the Supreme Court's disastrous Shelby 
County decision, and the threat of dark money unleashed by the 
court's Citizens United decision have all combined to create a 
political system that does not adequately represent the desires 
of the American people.
    The For the People Act is the right remedy at the right 
time. This bill recognizes that the best solution to abolishing 
the undemocratic trinity of issues plaguing our democracy--
gerrymandering, voter suppression, dark money--is to get rid of 
all of them at once. By creating a baseline of protection for 
voters, rooting out corruption and dark money, and ending the 
practice of partisan gerrymandering, this Congress can create a 
fair level playing field in our electoral system. This bill 
also makes it evident that Congress should pass the John Lewis 
Voting Rights Advancement Act, which would update the formula 
for determining which jurisdictions are subject to Federal 
preclearance.
    Now taken together, the For the People Act and the John 
Lewis Voting Rights Advancement Act represent the greatest 
pieces of civil rights legislation since 1965 and are badly 
needed reforms that will strengthen our democracy. Now, despite 
what opponents may say, this bill would not favor either party. 
On the contrary, it would create a level playing field for the 
American people. The reality is that no matter what political 
party you support, what policies you advocate, your voice will 
be stronger if politicians are required to be responsive to 
your needs.
    Now is the time for Congress to exercise its constitutional 
authority to protect the structure of our representative 
democracy. Ensuring a true representative democracy is how we 
advance equality, opportunity, and justice in areas where too 
many Americans are still let down, left out, and left behind. 
It is how we make every vote count and how we make every voter 
count.
    It's making the determination of what kind of country we 
want to be: one closer to its founding promise, or a Nation 
turning away from our democratic ideals. Passing this bill will 
be a critical and necessary step to restoring power to the 
people where it belongs. Thank you.
    [The prepared Statement of Mr. Holder was submitted for the 
record.]
    Chairwoman Klobuchar. Thank you very much, Attorney General 
Holder. Next, with us today, Secretary Andrew ``Mac'' Warner 
from West Virginia.

   OPENING STATEMENT OF HONORABLE MAC WARNER, WEST VIRGINIA 
         SECRETARY OF STATE, CHARLESTON, WEST VIRGINIA

    Mr. Warner. Thank you, Chairwoman Klobuchar, Ranking Member 
Blunt, and members of this committee. Thank you for letting me 
address the implications of S. 1 on the State of West Virginia. 
Dubbed For the People's Act, this is anything but for the 
people. In fact, it is against the people. It is against the 
states, and it is against the United States. First, it is 
against the people because it overrules access, and it 
overrules checks and balances. My most vehement objection to 
this is that by prohibiting electronic transmission of ballots. 
It strips the most efficient and secure form of voting for our 
military, the people who put their very lives on the line for 
our democracy and way of life.
    When I was deployed, as were my two sons, my two daughters, 
my two sons in law, all of whom served in the United States 
Army, it is prohibited--they have had difficulty voting. 
Therefore, when I became Secretary of State, I determined to 
fix this, and we did it through electronic transmission of 
ballots using mobile devices. We proved the technology with our 
military and then we extended it to voters with disabilities, 
giving them not just the right to vote but the opportunity to 
vote. 31 states allow electronic transmission and S. 1 strips 
this opportunity for everyone to vote electronically.
    How is this for the people? Clearly, it is not. S. 1 also 
overrules checks and balances in our election security. It 
mandates AVR, including 16 year old, and bans I.D. laws and 
shields non-citizens from prosecution. It eliminates the 
signature verification. It pushes mail-in-voting without photo 
I.D. It promotes ballot harvesting and requires drop boxes. It 
delays election results by requiring acceptance of ballots up 
to 10 days. That delay and all of these collectively decrease 
individual confidence and it increases distrust in our 
elections. Second, S. 1 is against the states because it 
requires a huge expansion of state legislation and imposes 
funding mandates far beyond states' abilities to implement.
    It forces decertification of every voting machine in West 
Virginia, wasting tens of millions of dollars that you have 
provided to us through HAVA funding. It mandates same day 
registration, which requires poll books connected to the 
internet through high speed broadband, something West Virginia 
simply cannot do. We do not high-band, or high speed broadband 
in all the precincts of West Virginia. It requires agencies 
beyond DMV, such as colleges and social services, to 
automatically register people that come in contact with them 
and transmit their personal identification information, thereby 
increasing risks for hackers. It busts our budgets.
    It forces election officials to accept and count ballots 
voted in incorrect precincts. It stops states from cleaning up 
voter registration lists. West Virginia's Clerk Association 
president Linda Huggins said this, ``clerks are unanimously 
against S. 1 because deadlines cannot be met, and requirements 
are not achievable.'' Clerk Michelle Holley cited unfunded 
mandates as showstoppers, and clerk Brian Woods said, ``it 
doesn't matter if you are Democrat or Republican, if you want 
to keep our democracy intact, you have got to leave it up to 
states to run their elections.'' To implement the changes by 
January 1st, a special session of our legislature would be 
required, which is not practical and would be hugely expensive. 
In some take away the ideology and the partisanship, clerks 
across West Virginia, most of whom I am told are Democrats, are 
against S. 1.
    Third, S. 1 is a vast Federal overreach. This 800 page 
monstrosity stomps on states rights. The United States 
Constitution does say that the time, place, and manner of 
elections shall be prescribed by state legislatures. States 
have individual approaches based on history, geography, and 
cultures that create vastly complex and different election 
processes. This broad mosaic provides election security versus 
a one size fits all approach. The private right of action 
remedy is tremendously problematic, as are the number of 
severability clauses that indicate S. 1 is not likely to 
withstand judicial scrutiny. The court cases will increase 
delays, cause confusion and distrust in our already contentious 
and tense election process. In conclusion, S. 1 is not for the 
people, especially not for the people of West Virginia.
    Federalizing elections has never been done before and for 
good reason. Senators, please leave election administration up 
to the states. The impossible requirements and unfunded 
mandates of S. 1 will create election chaos and further divide 
our country. On behalf of the State of West Virginia, as its 
Chief Elections Official, I urge you to consider these grave 
implications, and I thank you for this opportunity to bring 
these various serious flaws and concerns to your consideration. 
Thank you.
    [The prepared Statement of Mr. Warner was submitted for the 
record]
    Chairwoman Klobuchar. Thank you. For a different 
perspective on the bill, the Secretary of State for the State 
of Michigan, Jocelyn Benson.

    OPENING STATEMENT OF HONORABLE JOCELYN BENSON, MICHIGAN 
             SECRETARY OF STATE, LANSING, MICHIGAN

    Ms. Benson. The election of 2020 is behind us. The war on 
democracy is escalating and in addition to the ongoing efforts 
of democracy deniers to spread misinformation alongside 
continued attacks and threats against election officials, a new 
battlefront has emerged in state legislatures all across the 
country. Yet Michigan's story demonstrates a different path.
    Our experience underscores that voters on both sides of the 
aisle want reforms like those in the For the People Act. It 
shows how with sufficient funding, partnerships, leadership, 
and political will, it is entirely possible to efficiently and 
successfully implement those reforms. In November 2018, 
Michigan citizens voted overwhelmingly to amend our State 
Constitution to instill the right to vote absentee without a 
reason, same-day voter registration, automatic voter 
registration, and an independent citizens redistricting 
commission.
    My office was charged with working with 1,600 clerks across 
our state to implement all of these policies in advance of the 
2020 election cycle. We did, because these policies are not new 
and implementing them is not rocket science. Many states 
already have these reforms in place. We conferred with leaders 
in those states to learn from their experience, replicate best 
practices, and modernize our democracy effectively and 
efficiently. We implemented automatic voter registration, for 
example, with security protocols in place to ensure that only 
eligible citizens were registered.
    By November 2020, we increased our number of registered 
voters by a quarter of a million. We found that voters on both 
sides of the aisle embrace the ability to vote absentee and use 
secure drop boxes to return their ballots. The number of people 
voting absentee in Michigan increased exponentially from 1.1 
million in November 2016 to 3.3 million in November 2020. We 
saw thousands of new voters register in the days leading up to 
the November election, including nearly 30,000 on Election Day 
itself. The majority of those were under 30. In the end, due in 
no small part to these reforms, we had the most successful, 
secure election in our state's history.
    We have also succeeded in implementing Michigan's first 
Independent Citizens Redistricting Commission enacted by voters 
in 2018. We found that when given the chance, citizens embrace 
the opportunity to draw their own legislative districts. The 
commission is already at work and you can learn more about 
their work at RedistrictingMichigan.org. Now, if Michigan can 
do all of this in one election cycle, in the midst of a global 
pandemic, and during one of the most significant and highly 
scrutinized election cycles in our lifetime, every state in the 
country with proper funding and leadership can do the same.
    Because while states are laboratories of our democracy, 
Federal minimum standards ensure equal protection of every 
citizen's right to vote. Yes, every state will face unique 
circumstances in incorporating a new Federal floor, but it is 
our job to meet those challenges, not to shirk them. Just as 
the National Voter Registration Act took a popular state policy 
in Michigan, the Motor Voter Law, and made it a nationwide 
convenience for every citizen, it will take collaboration, 
partnerships, leadership and funding, but it can be done.
    Truly, only politics and political will stands in our way. 
I want to close by noting that 56 years ago at this very 
moment, thousands were marching to Montgomery, Alabama from 
Selma to similarly call on their Federal Government to protect 
their right to vote against the efforts of states to impede 
their access. Many of those brave advocates were beaten and 
lost their lives, but their work led to the passage of the 
Voting Rights Act, one of the most effective voting laws in our 
nation's history. When it was proposed, it was met by many with 
the same attacks and critiques that we see today.
    Opponents said compliance would be impossible, that it 
would be an overreach of Federal authority, but in the years 
that followed, those critics were proved wrong, and our nation 
became a more perfect union as a result. So clearly, history 
instructs in the current moment demands that the United States 
Government once again step in and defend democracy.
    At this moment, you are our greatest hope, and this 
legislation is our best chance to stop this rollback on voting 
rights that is sweeping state legislatures throughout the 
country. I urge you to act and advance this legislation, 
because no matter where a voter lives or who they vote for, 
their right to vote should be protected. The future of our 
democracy depends on your leadership today. Thank you.
    [The prepared Statement of Ms. Benson was submitted for the 
record.]
    Chairwoman Klobuchar. Thank you very much, Secretary 
Benson. The next witness is Attorney General Todd Rokita. Thank 
you for being with us.

OPENING STATEMENT OF HONORABLE TODD ROKITA, ATTORNEY GENERAL OF 
 INDIANA AND FORMER U.S. REPRESENTATIVE, INDIANAPOLIS, INDIANA

    Mr. Rokita. Thank you, Chairwoman, Ranking Member. 
Appreciate you inviting me to speak today on behalf of the 
citizens of Indiana. My name is Todd Rokita and I serve as the 
Attorney General for the State of Indiana. Prior to serving 
as--and prior to that, I served as Indiana's Chief Election 
Officer, as well as a Member of Congress. Given my experience 
as Indiana's Chief Election Officer and in various offices, I 
know how elections can and should be run to ensure transparency 
and public confidence in elections.
    We don't hear enough about the need for public confidence 
in our elections in order to make this Republic work. Any 
effort to address America's election system must begin with 
recognition of a simple fact, that the 2020 Presidential 
election was unlike any other in our history. It doesn't need 
to be repeated because we shouldn't be having pandemics every 
time we have a Presidential election.
    The 2020 election involved an effort to convert what has 
traditionally been Election Day in our country to a month's 
long process of vote gathering, ballot harvesting, last minute 
rule and law changes by people not authorized to do so. All of 
those resulted in shaken confidence in our electoral system and 
a profound unease, if not outright distrust, about the results. 
Americans saw mountains of mail in ballots being processed in 
cavernous central processing centers. Tens of millions of mail 
in ballots overloading the processing capacity of a system in 
many states, turning the tabulation of votes into a week's long 
process. In case after case, we saw vote watchers and observers 
excluded from an opaque, seemingly never ending counting 
process.
    Many of the problems of 2020 resulted from the efforts of 
those without the authority to do so trying to control how the 
election was run and changing election rules at the last 
minute. This led to an unprecedented number of election 
lawsuits that, frankly, have overwhelmed the system. Senate 
Bill 1 would increase the number of those lawsuits, both 
against states and states suing the Federal Government. The 
mandates of this bill are wholly unnecessary, and the 
determinations for how elections are operated should remain 
with the states, as intended by the framers for good reason.
    The proposed changes will open our elections up to 
increased voter fraud and irregularities and promote, perhaps 
the most egregious provision, the Act's elimination of voter 
and photo I.D. laws. Requiring Government issued photo I.D. at 
the polls represents a common sense, simple best practice for 
election administration and is in place in over 32 states. 
Government issued photo I.D. has been the global standard for 
documentary identification purposes for decades. I recently 
talked with a Hoosier who has dual citizenship. She is an 
American citizen, and she is a Mexican citizen. She showed me 
her voting card, a special issued card, just for voting that 
not only had her picture, but a copy of her thumb fingerprint 
that was compared at the voting booth when she had to use it, 
had to dip her thumb in ink and use it to compare.
    Now, this is Mexico, considered by many a Third World 
country that has better turnout than we do, upholding the 
integrity of one citizen, one vote there, and here, this bill 
making a lot less--a lower standard than that illegal. We are 
going in the opposite direction for a free society. Regardless 
of which party or candidate a voter favors, all Americans 
should have confidence in the outcomes of their elections. No 
American's vote should be devalued by fraudulent votes.
    Earlier this month, 19 of my Attorney General colleagues 
joined me in a letter to your leadership opposing H.R. 1, 
similar to S. 1. As we wrote in the letter, the Act has several 
constitutional deficiencies and mandates that, if passed, would 
federalize state elections and impose burdensome costs and 
regulations on state and local officials. The measures proposed 
in S. 1 turn our Constitutional election structure on its head. 
It would open the door for greater fraud and less confidence. 
Our system of Government depends on the electorate having faith 
in the outcome of our elections.
    Removing voter integrity measures such as photo I.D. laws, 
requiring votes to be counted up to 10 days after the election, 
requiring that unaccountable commissions and District Court 
judges far removed from the states should draw our district 
lines, isn't going to solve any of that. It is going to make 
the situation worse. Voters should have a voice through their 
directly elected representatives in their states on how these 
elections should be run. While the bill pretends to apply only 
to Federal elections, the simple fact is these changes will 
apply across the board because no state can afford to have 
separate elections for state elections and Federal ones.
    States should continue to hold elections in a matter that 
best suits each state, and S. 1 would take control entirely 
away from the states. Simply put, if states are laboratories 
and that is what our founders intended, and that is what has 
been proven time and time again, the passage of S. 1 would make 
the states laboratories close, and no innovation would occur. 
Should the Act become law, I could tell you the sun won't set 
in Indiana before we sue the Federal Government, and I am sure 
other states will join. Thank you for your time.
    [The prepared Statement of Mr. Rokita was submitted for the 
record.]
    Chairwoman Klobuchar. Thank you. Next, for our final 
witness, Michael Waldman, the President of the Brennan Center 
for Justice.

OPENING STATEMENT OF MICHAEL WALDMAN, PRESIDENT OF THE BRENNAN 
             CENTER FOR JUSTICE, NEW YORK, NEW YORK

    Mr. Waldman. Thank you, Madam Chairwoman, Ranking Member 
Blunt, and members of the committee. Thank you for the 
opportunity to testify on behalf of this landmark legislation. 
We believe the For the People Act, S. 1, would be the most 
significant democracy reform measure in over half a century. It 
is the next great civil rights bill and responds to the demand 
for racial justice in our country. It is long overdue, and it 
is urgently needed now.
    Now, as you know, there are a number of reforms in this 
legislation relating to curbing the role of money in politics, 
to dealing with gerrymandering, to dealing with ethics. I want 
to focus on the sacred right to vote, which is in so many ways 
at the heart of our democracy and our understanding of 
ourselves as Americans.
    I ask you to think about what happened in 2020. Despite the 
pandemic, despite voter suppression, despite the lies, it was 
the highest voter turnout since 1900. As has been said, the 
Trump Administration's own Department of Homeland Security 
confirmed it was the most secure election ever. This is 
something we ought to celebrate.
    Instead, what has happened? We had the big lie about the 
election being stolen. We had the insurrection driven by that 
big lie. Now in states across the country, a wave of legislated 
attempts to curb the vote. The most significant attempted 
cutback in voting rights since the Jim Crow era. The Brennan 
Center has studied these laws for years and found, as has been 
mentioned, 253 laws that would in one way or another cut back 
on voting. That was last month, seven times higher than the 
rate 4 years ago. The number is actually higher right now. 
These laws are being pushed hard. It is only March, I should 
note, already the Governor of Iowa has signed into law 
significant cutbacks, for example, in vote by mail.
    In Georgia, the legislature is finishing its work this week 
on an egregious bill. There was a public outcry that has forced 
changes, but there are still tremendously harmful provisions 
that will be moving through the legislature. These laws that we 
see across the country affect voters of color, young voters, 
poor voters. The intent, I am afraid, is often unambiguous. One 
of the sponsors of these bills in Arizona said the purpose was 
to make sure that only, ``quality voters'' had the right to 
vote, not that everybody would have the right to vote.
    That does not strike me as true to our American spirit. S. 
1, the For the People Act, deals with this in a very important 
way. I want to be very clear. This legislation would stop this 
wave of voter suppression cold. It stops it in its tracks. 
Congress has the power, the right, the authority, 
constitutionally and legally to do this. What this bill would 
do is set national standards to ensure that every eligible 
citizen has the freedom to vote and the ability to make that 
ballot count. It would make automatic voter registration, 
already the law in 19 states, Democratic and Republican states, 
the law of the land. It would ensure access to vote by mail and 
early voting and other things that proved so popular and so 
effective in recent years and are used by tens of millions of 
people enthusiastically.
    It would ensure the right to vote be given to returning 
citizens after they are incarcerated so they can rejoin our 
society. It would take all these important steps. I note again 
that every one of the things in this legislation, every 
proposal in this legislation is based on a tested and effective 
reform or policy at the national level, at the state-level, and 
at the local level. It would bolster election security in 
significant ways. As has been noted, you are more likely to be 
hit by lightning than to commit voter impersonation in the 
United States.
    We can't allow the conspiracy theory about massive 
misconduct to guide policy. I will note also that this 
legislation in very significant ways honors the Constitution. 
The Elections Clause gives Congress this power. I would note as 
well that the Supreme Court of the United States in 2019, in an 
opinion by John Roberts, specifically pointed to this 
legislation as a Constitutionally sound example of Congress's 
power to set election law.
    This is part of the great story of American democracy. Will 
we live up to our best ideals? Will we build a multiracial 
democracy that really represents all people? Will we allow a 
drive to take place to turn the clock back, to cut back on 
those rights? This legislation would be a significant, and 
again, long overdue milestone for our country, and I urge you 
to enact it.
    [The prepared Statement of Mr. Waldman was submitted for 
the record.]
    Chairwoman Klobuchar. Thank you very much, Mr. Waldman. 
Thank you to all of our witnesses. I will begin the questioning 
and then turn it over to Senator Blunt. I did want to clarify 
one thing. I have been hearing the word chaos tossed around. 
Well, let me tell you what chaos is. Chaos, as we have seen in 
the last few years, 5 hour, 6 hour lines in states like Arizona 
to vote. Chaos is purging names of longtime voters from a voter 
list so they can't go vote in states like Georgia.
    Chaos is the State of Texas declaring that you can only 
have one drop off box for votes and ballots in their counties, 
including huge counties like Harris County with nearly 5 
million people. Chaos is forcing people in Wisconsin to stand 
in garbage bags in the rain, waiting in line just to exercise 
their right to vote. Chaos is people in South Carolina being 
told that they have to have a notary public to be able to get a 
mail in ballot and having to have it do it through a window of 
a hospital while they have got COVID.
    Chaos is a law in North Carolina that a circuit court ruled 
was so discriminatory against African-Americans that they said 
this in a conservative circuit court, that it was designed with 
almost surgical precision, their words, not mine, to 
discriminate against African-Americans. Chaos is what we saw 
happen at the Capitol when people heard for an entire year that 
our election isn't sound, and they decided to come here and 
take it into their own hands. That angry mob, that was chaos.
    What this bill tries to do is to simply make it easier for 
people to vote and take the best practices, that we have seen 
across the country, and put it into law as we are allowed to do 
under the Constitution. So I will start with you, Attorney 
General Holder. The For the People Act would ban practices that 
states use to purge voters effective immediately.
    Can you explain how voter purges disproportionately impact 
some voters and why these provisions are so important, given 
what we just heard from Mr. Waldman about all of the bills that 
have been introduced across the country to limit people to 
vote? Is this threat real?
    Mr. Holder. The threat is extremely real. I mean, voter 
purging occurs in disproportionate numbers, places. I have 
looked at a study that indicates that 40 percent of all the 
voter purging has occurred in states that were formerly covered 
by the Voting Rights Act of 1965. There, you know, this desire 
to purge voters because people decided not to exercise their 
right to vote disproportionately falls on people who are people 
of color or people who vote Democratic. So this is something 
that I think that we need to be cognizant of. There are 
movements to try to keep people away from the polls and purging 
people from voter registration rolls is one of the tactics that 
is unfortunately used too frequently.
    Chairwoman Klobuchar. Under Article I Section 4 of the 
Constitution, Congress can ``make or alter,'' those are the 
words of the Constitution, rules for Federal elections, ``at 
any time.'' Is that correct?
    Mr. Holder. That is correct. The power that Congress has 
under the elections clause with regard to the regulation of 
Federal elections is very broad.
    Chairwoman Klobuchar. The Supreme Court has upheld this 
power as, ``broad'' and ``comprehensive.'' Is that right?
    Mr. Holder. That is correct. The court has considered the 
elections clause in a number of contexts, and I am not aware of 
any instance where the court has said that Congress has somehow 
gone beyond that, which it could do with regard for the 
regulation of Federal elections.
    Chairwoman Klobuchar. Thank you, Mr. Waldman, your 
organization has done a great deal of work monitoring these 
bills that you just discussed. You mentioned some of them are 
actually becoming law as we speak. Can you speak briefly to 
some of the most egregious bills you have seen just briefly? 
Mr. Waldman?
    Mr. Waldman. Thank you, Madam Chairwoman. In Texas, for 
example, there is a proposed legislation moving through the 
legislature that would require people with disabilities to have 
a witnessed note confirming that they have the right to get an 
absentee ballot. You see cutbacks on absentee balloting and 
vote by mail all across the country. You see them in ways that 
are politically very, very targeted. In Georgia, the 
legislation that was moving through the legislature until the 
last day or so in this form ended effectively no excuse 
absentee balloting but preserved it for people over 65, who 
tend to vote conservative, who tend to be white. You see laws 
of this kind all over that are very precisely targeted, that 
look neutral but have a very, very sharp and clear racial and 
partisan bent.
    Chairwoman Klobuchar. Okay. Last year, because of the 
pandemic, 45 states, this is for you, Mr. Waldman, did not 
require an excuse for voters to request a mail in ballot and 34 
states allow for this in every election, including states like 
Utah, Montana, Florida. We just saw how critical mail in voting 
was and a lot of voters really liked it. They said we want to 
keep it. This bill, Mr. Waldman, would ensure that all voters 
can request mail in ballots going forward. Do you agree that 
all voters should be able to vote by mail and that voter 
participation, whether you are a Democrat or a Republican, in a 
blue state or red state, increases when voters have options to 
cast their ballots?
    Mr. Waldman. Absolutely. This legislation would preserve 
something that was a hugely successful effort. First of all, 
even before 2020, tens of millions of people in this country 
voted by mail without incident, and it has not benefited either 
political party. Last year, many people found it was convenient 
and it would be unwise in the extreme to take it away, to take 
away from voters something they have found to be very useful in 
our newly mobile society, which is not the same as it was when 
we set Election Day on 1 day so that you could get to the 
polling place in your horse and buggy.
    We should guarantee that as something that everybody all 
over the country, regardless of where they live as a minimum 
standard, have access to vote by mail. It is important to note 
you will hear people say this switches everybody to vote by 
mail. That is not true. It merely gives people the opportunity 
to vote by mail and makes sure that they have the ability to 
apply for that kind of absentee ballot.
    Chairwoman Klobuchar. Thank you very much. My last few 
questions to you, Secretary Benson. Secretary Warner, your 
fellow Secretary of State, testified that this bill would 
somehow create barriers to ballot boxes. Over the last 2 years 
in Michigan, you have put in place many of the policies that 
are actually included in this bill as we look at best practices 
to set national standards, including automatic voter 
registration, same-day voter registration and no excuse to vote 
by mail for all voters.
    By the way, those policies have led my state to be No. 1, 
No. 1 in voter turnout, time after time electing Republican 
Governors over the years, Democratic Governors, and Independent 
Governors in Jesse Ventura. So has your experience, Ms. Benson, 
been that these policies have somehow created barriers to 
voting?
    Ms. Benson. No, quite the opposite. In fact, not only were 
these policies enormously popular among voters on both sides of 
the aisle, both in voting to enact them and also taking 
advantage of them, we saw record setting voter turnout in every 
election that followed the implementation of these policies, 
and that included a statewide primary election in the midst of 
a pandemic that did not include any major contested statewide 
primary on either side or race. So even absent a highly 
contested election, these policies in and of themselves 
increased significantly voter turnout on both sides of the 
aisle in the State of Michigan within a year of them becoming a 
mandate in our State Constitution.
    Chairwoman Klobuchar. Thank you very much. Thank you to our 
witnesses. I will turn over to Senator Blunt.
    Senator Blunt. Thank you, Senator Klobuchar. Mr. Waldman, I 
think I will start with you. You mentioned, as Senator 
Klobuchar did, as others have, that the last set of elections 
were the most secure elections ever. You accepted that and have 
repeated that. It seems to me based on that there would be no 
reason to have this discussion unless you could create a false 
narrative, in my view, that somehow states are passing massive 
legislation that changes the voting structure to people's 
disadvantage. Now, that is different than individual members of 
the legislature introducing bills. You said the last set of 
legislative bills are more bills than usual.
    Now, actually, I think on the Republican side, 22 bills of 
those bills are in Arizona and 22 or so those bills are in 
Georgia, which I suspect my back of the envelope calculation 
would indicate that the four, five or six bills in other states 
is about right. Believe me, politicians believe they are 
election experts and there are always bills passed--almost 
always bills filed, almost none of which pass.
    Every article on this topic cites your organization and all 
of this voter suppression legislation that, one, all isn't 
voter suppressing, and two, just simply is not going to become 
law. It is a great excuse to upend a system that served the 
country well for a long time. On the Utah bill, for instance, 
that I cited earlier, HB12, requires the Lieutenant Governor, 
who is the chief election authority, to provide Social Security 
data of deceased individuals to county clerks so they can begin 
the process of removing deceased individuals from the voter 
rolls. Why would that be voter suppression?
    Mr. Waldman. Well, thank you, Senator. When we look at 
legislation across the country, we look to see whether the 
measure is potentially restricting or suppressing----
    Senator Blunt. On the question I asked, why would that 
bill, removing dead people from the voter rolls based on Social 
Security information be voter suppression?
    Mr. Waldman. Because there are frequently errors in the 
lists that are used in Social Security and other----
    Senator Blunt. So your view would be--your view would be 
the Federal Government is not capable of telling the state 
which Social Security recipients died and no longer get a 
check, so we should turn the entire election over to a Federal 
structure? I just don't agree.
    Chairwoman Klobuchar. Senator Blunt, can we allow the 
witness to answer the question?
    Senator Blunt. No, no, the witness did answer the question. 
The witness answered the question separately, Senator----
    Chairwoman Klobuchar. We will clarify----
    Senator Blunt. Senator, the witness answered the question 
by saying the Federal Government often is in error in giving 
information to the states. That was the answer to the question. 
On--let's go to the Secretary of State, Warner, who is here, 
and the other two as well. We had three different views of this 
from two current Secretaries of State and one person, the 
Attorney General of Indiana, who was the Secretary of State 
until the end of last year. I think to some extent that may 
show why one size fits all maybe doesn't ever fit anybody very 
well.
    Secretary Warner, what would be the challenge? You said you 
would have to have a special session in the legislature, you 
would think, if this bill passed. Tell me again why that would 
be the case?
    Mr. Warner. The expanse of this bill would force states to 
address these issues, such as the funding to get these new 
machines. When this decertifies all the machines we have in 
West Virginia, we have to go back and get new machines. That is 
quite the process to find that funding, to then put it out for 
bids, that sort of thing. I want legislative directive.
    Again, that is what our Constitution says. It is going to 
be left up to the states. I want that direction from the 
legislature to tell me so then I can execute that, the 
provisions to implement this vast, as I called it, monstrosity 
of a bill. There is just too much in there. The clerks are 
extremely against the same day voting--same day registration 
aspect of this bill that just would overwhelm them.
    As I said, when you do not have the broadband capability 
throughout the state, it is an impossibility. Then our 
legislature would be up to trying to find a way to address what 
Congress is passing down to them, but then meeting the reality. 
That is the problem of so much of the discussions going on here 
today. It is talking points versus reality.
    That is why I always turn to my clerks and my clerks tell 
me, unanimously across the board, they are against this S. 1 
because of the unfunded mandates and the expanse that it would 
impose upon them in the election administration.
    Senator Blunt. Attorney General Rokita, you said you 
thought there would be immediate legal action by a number of 
states. What would be the principal legal focus of that action 
as to why this should not move forward?
    Mr. Rokita. Thank you, Senator. Of course, the 
constitutionality of this all is immediately called into 
question, not just with regard to the framers clear intent that 
state legislators and legislatures determine these rules, but 
also in terms of redistricting, which would be completely 
usurped by the Federal Government and particularly unelected 
judges. The people have the most power in this situation when 
they can hold directly their representatives accountable for 
redistricting processes. So that is a huge problem.
    The private right of action that is in this bill that was 
not in the Help America Vote Act is also a huge problem. When 
you have individual citizens, like, for example, a prisoner who 
decides that his rights are now violated, as made up in this 
bill, can sue the states. Untold amount of litigation will 
happen.
    So it is not just the states against the Federal 
Government. This bill would give rights and private rights of 
action to citizens for their apparent, not real, grievances, 
and that will drive up costs to states significantly.
    Senator Blunt. Thank you, Attorney General Rokita. Thank 
you, Chairwoman.
    Chairwoman Klobuchar. Thank you very much, Mr. Waldman, 30 
seconds. You want to finish answering that question before I 
turn it over to Senator Feinstein?
    Senator Blunt. You know, I would say, Chairwoman, the 5-
minutes is mine. It is not Mr. Waldman's. I didn't take the 4-
minutes you took before the clock started--or the 1.48 
minutes----
    Chairwoman Klobuchar. I simply want to give Mr. Waldman 30 
seconds to finish answering the question, and that is my 
prerogative as chair.
    Senator Blunt. Well, if I had given him 30 seconds to 
answer the question or another minute, I wouldn't have been 
able to answer my questions within near the 5-minutes that 
every member should be restricted to here.
    Senator Leahy. Madam Chair, I think the Senator from 
Missouri took 6 minutes.
    Chairwoman Klobuchar. Yes, I was generous in time. I was 
generous in the time. Mr. Waldman could you just finish 
answering the question? My goodness. What? Could you let the 
witness, please, Mr. Wicker. Could you, Senator Wicker, let him 
just finish, 30 seconds.
    Mr. Waldman. I will be brief. One must be very careful when 
purging voters from the rolls to ensure that the lists are 
checked and double checked. Unfortunately, there are errors. 
That is why voters should have protected rights, as in this 
bill, to ensure that they are not being removed from the rolls 
when they ought to be eligible and ought to be able to vote.
    Chairwoman Klobuchar. Thank you. Senator Wicker.
    Senator Wicker. Madam Chair, I don't know if my mic is on. 
The position of the Chair on the timing in question is 
irregular. I've been a member of the Senate now for thirteen 
years [technical problems]. The Chair took four minutes after 
she made her opening statements for questions. After the 
question was answered, she took four minutes to make another 
opening statement. Then the clock began. She then took over six 
minutes to ask questions. Now she knows quite well, as does 
Senator Blunt, that a witness can filibuster an answer and take 
up five minutes of a Senator's time. So Senator Blunt was well 
within his rights to cut that off, to move on to other matters, 
but if the chair in this committee, on this important day where 
we have two panels, is going to run this committee in a way 
that I have never seen in 13 years, then I will point out that 
this is quite irregular.
    Chairwoman Klobuchar. Excellent. So I will note that 
testimony is supposed to be 5 minutes and the time can be 
extended by the chair, including for questioning, which I just 
did for Senator Blunt. I am sure we can work that out. I will 
say what is unprecedented is that we are finally having a 
hearing about something big. We are finally having a hearing in 
the Rules committee about an actual bill and that everyone is 
here in this beautiful room. That is unprecedented. I will be 
nothing but more than fair as we go forward, because I 
understand how important this is. With that, I turn it over to 
Senator Feinstein. Thank you.
    Senator Feinstein. Thank you, Madam Chair. In 2013, the 
Supreme Court struck down a key preclearance provision in the 
Voting Rights Act, which required jurisdictions with a history 
of discrimination against minority voters to obtain approval 
from the Justice Department before making changes to voting 
laws. At the same time, the Washington Post has reported that, 
and I quote, ``in 43 states around the country, Republican 
lawmakers have proposed at least 250 laws that would limit 
mail, early, in-person and Election Day voting with such 
constraints as stricter I.D. requirements, limited hours, or 
narrower eligibility to vote absentee according to data 
compiled on the onset as of February 19 by the nonpartisan 
Brennan Center for Justice.'' Let me ask both witnesses, can 
you discuss why it is so important to pass the For the People 
Act now? Nobody is here to answer?
    Chairwoman Klobuchar. Why don't we--I think they just need 
a specific witness to go forward. Why--do you want to take 
that, Attorney General Holder?
    Mr. Holder. Yes, I would be glad to answer the question. It 
seems to me that this is the right time. This is the right Act 
dealing, as I said, with that unholy trinity of voter 
suppression, dark money, and gerrymandering. These are all 
things that are handled by this Act and will make our electoral 
system more fair, more responsive, and more available to the 
American people. That is why I think this bill should be 
passed.
    Senator Feinstein. Thank you. Last June, California passed 
bipartisan legislation to mail every voter a ballot before the 
November election in order to mitigate the risk of spread of 
COVID. As my colleague, Senator Padilla, I think can attest, 
our election was successful. Almost 70.8 percent of voters 
participated. That is the highest percentage of eligible voters 
since 1952, and there were no reports of widespread voter 
fraud, according to the Los Angeles Times. California is not 
the only state to recently expand vote by mail. For example, in 
2018, Michigan supported a measure that established the right 
to vote by mail. I would like to ask Ms. Benson, did this 
measure increase access to ballots in the 2020 Federal 
election?
    Ms. Benson. Yes, it did. Remarkably, we saw one of the most 
secure, high-turnout elections in our state as a result of 
policies just like that.
    Senator Feinstein. Well, can you describe it a bit more, so 
we have something tangible.
    Ms. Benson. So in 2020, as I mentioned, we saw in 
particular the amount of people who voted absentee go from 1.1 
million in 2016 to 3.3 million in 2020. That was enormous. We 
saw 5.5 million people vote overall in the Presidential 
election, but we had four elections in 2020. In every single 
one of them, we saw more people vote than ever before, taking 
advantage in more numbers than we had even expected, of their 
right to vote absentee. In doing so, they utilized secure drop 
boxes to return their ballots. They utilized applications that 
were mailed to them, to every registered voter in order to know 
how to request their ballot. In short, I think Michigan's 
experience over the past 2 years is the blueprint for how every 
state in the country can effectively and securely take the 
policies and the For the People Act and make them real for 
their voters.
    Senator Feinstein. Thank you. The recent Solar Winds hack, 
and this comes from intelligence, is a reminder of the scale of 
the cyber weapons our adversaries possess and our ongoing need 
to secure critical infrastructure from attack. In light of this 
attack, it is troubling that even after 21 states were warned 
they were targeted by Russian hackers in 2016, approximately 10 
percent of votes cast in 2020 do not have a verifiable paper 
record.
    To be clear, this doesn't mean that these votes were 
fraudulent, but it does suggest a major vulnerability in the 
event of a large scale attack on our elections. For the People 
Act would require states to use voter verified paper ballots in 
election and conduct risk limiting audit. How would the For the 
People Act protect our election systems against foreign 
interference and attacks?
    Ms. Benson. Well, simply put, you can't hack paper. One of 
the reasons we had one of the most secure elections across the 
country in recent history is because so many states use paper 
ballots that enabled us in Michigan to have more than 250 post-
election audits to affirm that the ballots were accurately 
counted by the voting machines. It enables transparency and 
enables reliability. Notably, there are systems set up to 
enable military and overseas voters to have those same 
protections of paper ballots in voting and making sure their 
votes are received on time. Again, many states have gone 
through this and can provide the best practices and experiences 
that underscore how to do this.
    Chairwoman Klobuchar. Well, thank you. I think we are going 
to go--move on. So thank you very much. Next, Senator Cruz. 
Thank you, Senator Feinstein.
    Senator Cruz. Thank you, Madam Chairwoman. This bill is the 
single most dangerous bill this committee has ever considered. 
This bill is designed to corrupt the election process 
permanently. It is a brazen and shameless power grab by 
Democrats.
    It speaks volumes that this is H.R. 1 and S. 1. That the 
No. 1 priority of Democrats is not COVID, it is not 
immunizations, it is not getting people back to work, it is not 
getting kids back in school, it is keeping Democrats in power 
for 100 years. How do they do this? They do this by instituting 
a bill that will promote widespread fraud and illegal voting.
    Under this bill, there is automatic registration of 
anybody, if you get a driver's license, if you get a welfare 
payment, if you get an unemployment payment, if you attend a 
public university. Now everyone knows there are millions of 
illegal aliens who have driver's licenses, who are getting 
welfare benefits, who attend public universities. This bill is 
designed to register every one of those illegal aliens. General 
Rokita, what would the impact be in state elections of 
automatically registering millions of illegal aliens to vote?
    Mr. Rokita. Well, despite that cost and everything in the 
system, it would dilute, it would dilute the votes of every 
citizen who was supposed to be voting. So they want the voter 
turnout, they want more people to participate, and you cannot 
vote in this country unless you are a United States citizen in 
a Federal election.
    Senator Cruz. The bill explicitly says if an illegal alien 
is registered to vote under its provisions, even though it is 
illegal for him to vote, that illegal alien will not be liable. 
So it anticipates, the Democrats here anticipating, and their 
desired effect is to register millions of illegal aliens. Is 
that correct, General Rokita?
    Mr. Rokita. Yes.
    Senator Cruz. It is not just illegal aliens. This bill is 
designed to get criminals to vote. A great many states across 
this country prohibit felons from voting. This bill strikes 
down all those laws. This bill says if you are a murderer, if 
you are a rapist, if you are a child molester, we, the 
Democrats, want you voting. Every one of those state laws is 
struck down. Is that right, General Rokita?
    Mr. Rokita. That is correct. If they don't get their way, 
then they sue the state, as I referenced in my earlier answer.
    Senator Cruz. So apparently the Democrats have determined 
that if millions of illegal aliens get to vote, if millions of 
criminals get to vote, that that will benefit Democrats because 
they understand that that criminals and illegal aliens are 
much, much more likely to vote for Democrats. Is that correct?
    Mr. Rokita. Yes.
    Senator Cruz. Not only that, this bill strikes down photo 
I.D. laws. 31-29 states have photo I.D. laws, including, by the 
way, the State of Arizona, including the State of Georgia, 
including the State of West Virginia, all of which I might 
note, have Democratic Senators, but I will tell you, the Senate 
Democrats are so interested in maintaining power that they are 
asking the Senators from Arizona, from Georgia, West Virginia, 
to join a bill that strikes down the photo I.D. laws in their 
states. General Rokita, do photo I.D. laws help protect the 
integrity of elections?
    Mr. Rokita. Absolutely. They give people confidence. They 
make sure we hold to the principle of one person, one vote, 
particularly one citizen, one vote. In fact, in Indiana, where 
we had Indiana's first photo I.D.--we had the country's first 
photo I.D. law, voter turnout went up, and it went up because 
more people had confidence in the process. In fact, when others 
on this panel and other places say that a certain subset of our 
country or our electorate can't vote without--with photo I.D., 
that is really a racist statement.
    Senator Cruz. Well, you are right that Indiana's photo I.D. 
law was a model for the Nation. At the time Indiana passed it, 
it was challenged in court. I was Solicitor General of Texas. I 
led a coalition of states defending Indiana's photo I.D. law 
before the United States Supreme Court, and the United States 
Supreme Court upheld that law by a vote of six to three.
    The majority opinion was written by Justice John Paul 
Stevens, a noted liberal who observed rightly that voter fraud 
is a serious problem, that photo I.D. laws protect the 
integrity of elections. What the Democrats want to do? They 
want to strike down every photo I.D. law in the country to 
encourage voter fraud. Not only that, this bill mandates ballot 
harvesting. It mandates party operatives being able to go into 
nursing homes, collect every ballot there, throw out the 
ballots they don't like because there is no supervision over 
the ballot harvesting.
    The Carter Baker Commission, chaired by Democratic 
President Jimmy Carter, said ballot harvesting was a major 
source of voter fraud. What do Senate Democrats do? Look at the 
Carter Baker Commission say, where do we get fraud? Let's do 
more of that. This bill has rightly been called the Corrupt 
Politicians Act because it is designed to keep corrupt 
politicians in office and everyone supporting it should be 
ashamed.
    Finally, Madam Chairwoman, I would like to introduce six 
letters in opposition to this bill to the record, a letter from 
the Family Research Council, a letter from Citizens United, a 
letter from Concerned Women for America, a letter from the 
Public Interest Legal Foundation, a letter from the Independent 
Women's Forum, the Independent Women's Law Center, and the 
Independent Women's Voice and a letter from the Campaign for 
Liberty.
    Chairwoman Klobuchar. Any opposition? Letters will be 
admitted in the record.
    [The information referred to was submitted for the record.]
    Senator Leahy. Madam Chair?
    Chairwoman Klobuchar. Thank you, Senator Cruz. Senator 
Leahy.
    Senator Leahy. It is interesting. The junior Senator from 
Texas has said that they are allowing felons to vote, but, of 
course, that benefits Democrats. I note that the State of 
Vermont has always allowed felons to vote and overwhelmingly 
elected a Republican Governor in this last election and has, 
even though we are the 14th state, we have only elected one 
Democrat to the United States Senate. So it certainly isn't 
something that might benefit just Democrats.
    We are concerned when state legislatures across the country 
are pushing legislation that would make it more difficult for 
the disabled, for shift workers to cast ballots or inviting 
partisan poll watchers. That is not what is intended. Look at 
Vermont, where we have the most honest voting you can imagine. 
I thank the witnesses for being here today. I hope we can stop 
this sliding backward in the face of a spree of voter 
suppression laws across the country.
    How do we make it easier, not more difficult for our 
citizens to vote? Recent election cycles have seen dramatic 
increases in early in-person voting, especially in the COVID 
pandemic, and that helped rural areas like Vermont. We boast 
that we make voting easier but also safe, secure, and legal. 
You can vote early and vote by mail from your home when you 
have a ballot delivered to you by two justices of the peace.
    Now, Ms. Benson, you serve the people of Michigan, a state 
which backers of former President Donald Trump challenged the 
validity of your elections, and certainly parts of your 
population are as rural as Vermont. So I ask you, do you doubt 
the safety and security of your elections, and have you had any 
evidence presented to you in the court or anywhere else of 
mail-in or early and absentee voting led to widespread fraud in 
Michigan's elections?
    Ms. Benson. Thank you, Senator. Michigan's experience has 
demonstrated that these policies can be implemented securely 
and effectively with an eye toward making sure everyone, 
citizens on both sides of the aisle, whether they live in rural 
or urban areas, can participate in their democracy.
    You know, I will emphasize that when it comes to making 
sure that every valid vote is counted and that only valid votes 
are counted, these policies not only enable that, further that, 
but there is plenty of data, facts, and evidence to underscore 
exactly how to ensure that is the case.
    You can look to not just Michigan, but states all around 
the country who have successfully ensured that people can vote 
securely through these provisions and that they are 
administered securely to ensure that only valid citizens are 
able to, for example, register to vote automatically when they 
get their driver's license.
    Senator Leahy. I think you have done it as clearly as 
Secretary Condos in our state has done. I think in many ways 
our state is a road map for the For the People Act. Now, 
Attorney General Holder, you and I have spoken many times about 
the Supreme Court's devastating decision in Shelby County that 
gutted Section 5 of the Voting Rights Act and led to a spree of 
state suppression schemes not seen since the civil rights era.
    In fact, some of them, almost immediately after the case 
came down. With the For the People Act, we are trying to ensure 
states moving toward increased access, not less, but can we 
also make sure that under legislative action, states that have 
already taken the actions are not penalized or unduly burdened? 
Should Congress consider some kind of certification process for 
states to show they are already meeting the voting access 
requirements of this legislation?
    Mr. Holder. Yes, I think having some kind of requirement 
that makes states prove that they are, in fact, following the 
intent of the law would be something that ought to be 
considered. I am very concerned that after the Shelby County 
case, for instance, 1,700 polling places around the country 
were closed and for no good reason. There were a number of 
things that happened post Shelby County that have hindered the 
ability of people, especially people of color, to get to the 
polls. Having some kind of requirement that shows that states 
are, in fact, doing all that they can to make sure that their 
citizens have access to the polls, I think would be something 
worth considering.
    Senator Leahy. Thank you. I will discuss that further with 
you one of these days when we have a chance to talk, but I 
really appreciate that. Madam Chair, thank you for this 
hearing. I think it is vitally important.
    Chairwoman Klobuchar. Thank you very much, Senator Leahy. 
Next, Senator Wicker.
    Senator Wicker. Thank you, Madam Chair. There was a poll 
done this month of 1200 likely voters [technical problems] that 
turns out the people of the United States don't want this bill.
    [Technical problems.] Okay, am I on or not? Okay, now I am 
on. I think, Madam Chair, I really think you should start my 
time again.
    Chairwoman Klobuchar. I will. I will. You can start again.
    [Laughter.].
    Senator Wicker. You are my dear friend.
    Chairwoman Klobuchar. There you are. Alright.
    Senator Wicker. Anything I have said is not personal.
    Chairwoman Klobuchar. I understand.
    Senator Wicker. People of the United States may like the 
sound of a bill that says it is going to be easier for people 
to vote. I think Senator Cruz is right to an extent, it makes 
it easier for some people to cheat in elections, but when you 
go step by step and ask the questions, as this pollster did, 
the American people object to many, many provisions in this 
bill.
    I would like to ask Secretary Warner and General Rokita 
about this. Universal mail in voting. You know, this may be 
great for some states, but 71 percent of Americans are 
concerned about that and only 26 percent are not concerned. 
Remote ballot drop boxes, 74 percent of Americans are concerned 
about that. Only 24 percent are okay with it. Preventing states 
from regularly cleaning up voter registration file to ensure 
that people who have died or moved out of the state are 
removed.
    Preventing states from doing that, 82 percent of Americans 
are concerned with that provision in this bill. Only 17 are not 
concerned. Yet one of the witnesses for the majority has told 
this committee that that using Social Security numbers to 
remove dead people is voter suppression. You know, I believe in 
eternal life, Madam Chairwoman, but I think once we have passed 
on the voting stops. General Rokita, you were a member of the 
House when ballot harvesting was an issue, were you not?
    Mr. Rokita. I believe it was. We voted against it several 
times.
    Senator Wicker. Well, as I recall, a member from North 
Carolina, Republican was elected in a close election and was 
expelled or not seated from the House of Representatives 
because he engaged in ballot harvesting, which was illegal 
under the law of North Carolina, but would be not only legal, 
but required to be legal in all 50 states and the District of 
Columbia. That practice by that member who had won the most 
votes was denounced on both sides of the aisle as wrong, as 
rife for fraud.
    The Republican member was not seated on a bipartisan basis 
because he engaged in a practice that would be blessed by this 
Act. I will ask each of our witnesses in 2 minutes to comment 
about whether ballot harvesting, in other words, letting 
hundreds of people go out there and pick up ballots to bring 
them in and trust them to do that. What do you think about 
that, Mr. Secretary?
    Mr. Warner. I am completely against it, Senator. Thank you 
for the question. The Carter Center has addressed these issues. 
The further we get away from Election Day with the mail in 
ballots and so forth, that is where the fraud is most likely to 
occur. The gold standard in elections is voting in-person at a 
polling precinct under the supervision of trained poll workers 
on Election Day. That is where we need to go.
    Only if there is a good reason for doing something other 
than voting on Election Day, then that is where you open up 
early voting or open up absentee ballots, but that should be 
for a reason, a legitimate reason as prescribed by the state 
legislature. Each of our states has different character, and 
the people in it, different history. In West Virginia, the 1960 
Presidential election was bought by John F. Kennedy and they 
bragged about that for years. They took that as a sense of 
pride. That is in our character and we need to overcome that.
    We are not proud of that anymore. That is where the ballot 
harvesting, the mail in ballots, all that, we want to keep a 
tight rein on it. Our legislature is well aware of that. That 
is where I want to get my guidance, from the state legislature, 
and not go toward automatic voter registration, the mail in 
ballots, the same day registration. All these provisions that 
are in this bill, our legislature is against them.
    Senator Wicker. Quickly, General Rokita. There is a post 
that says allowing political organizations and activists to 
collect thousands of ballots and deliver them unsupervised with 
the county clerk, 83 percent of Americans are concerned. Is 
this legal or illegal in Indiana and is it a good idea?
    Mr. Rokita. It is illegal in Indiana and it is a terrible 
idea. I look back to Senator Feinstein's argument for 
California. It is not that California mailed these ballots out, 
live ballots to every voter. They mailed out to every name on 
the voter list.
    If like this bill, you don't cleanup that voter list, that 
means you are going to have tens of thousands, maybe millions 
of ballots out there that are live, associated with people who 
shouldn't vote, meaning they are dead, they moved away, they 
are in prison, except for Vermont, I guess, but what have you.
    So that is why this is a terrible idea. They need to have 
professional, partisan paid campaign paid ballot harvesters 
going around collecting those live ballots and trying to get 
them cast. This bill does not allow you to challenge those 
ballots.
    Senator Wicker. Thank you, Madam Chair.
    Chairwoman Klobuchar. Next up is Senator King, who is with 
us remotely. Senator King? Okay, I think we will be joined by 
Senator King later, but we will now turn to Senator Merkley.
    Senator Merkley. Thank you very much to all of our 
witnesses. I wanted to turn to Michigan Secretary of State 
Jocelyn Benson, and I wanted to understand, with your automatic 
voting registration system, do you have a system to make sure 
people are aware of the requirements to be a legal voter and 
that instructs them to opt out of being signed up if they don't 
meet all the requirements?
    Ms. Benson. Yes, we do, but we don't just have that. We 
actually have six checks in place, multiple different places 
and positions to ensure that only valid citizens are being 
registered to vote through this process. As we have implemented 
over the course of the past year and a half, we found that to 
be enormously successful through those checks, and again, 
leading to the registration of nearly a quarter of a million 
new eligible citizens, registered voters in the State of 
Michigan.
    Senator Merkley. So have there been any sort of examination 
or studies of Michigan that have turned up significant numbers 
or any numbers at all of folks who are noncitizens registering 
to vote under the AVR system?
    Ms. Benson. No, but, and again, there is a procedure in 
place to ensure that if there is, you know, one error, that it 
is quickly found by one of the other checks. That is why six 
checks through multiple partnerships has been critical to 
ensure that if there is an issue, that it is found and 
addressed long before that person either, you know, is in a 
position to wrongly feel that they have the ability to 
participate. So, in other words, the checks and balances that 
we have in place in our state prevents----
    Senator Merkley. So tell me--I am going interrupt you, 
because I know my time will run out quickly, but tell me again 
how many more people got registered because of AVR?
    Ms. Benson. 250 million, and notably because of Real I.D. 
which is in place, of course, and being implemented, and a 
number of other things, people have got to show documents in 
order to get their driver's license. Those documents also 
affirm----
    Senator Merkley. Okay. I am going to cutoff your--keep your 
answers real short, if you are if you are able to for me. That 
would help me out. So one of the concerns that has been noted 
is cybersecurity. We are worried about this in all sorts of 
contexts, transferring information. Do you have any--you don't 
have to give me all the details, but are you working to address 
cybersecurity to make sure that we don't have voting systems 
that are hacked?
    Ms. Benson. Yes. Thankfully, through our successful 
partnerships with the Federal Government, we have got all the 
more resources to be able to do that.
    Senator Merkley. Another question that comes up is the cost 
of implementing this. That is certainly a legitimate concern. 
The complexity of modifying existing computer code. In terms of 
how long it took you and the cost, were you able to cover it 
with the funds from the America Votes Act or was it a big 
burden on the State of Michigan?
    Ms. Benson. It was not a big burden. It does take funding, 
but notably the $2 billion, approximately $2 billion allocated 
to states through this Act would address many of those issues. 
The funding goes not just to the implementation but also 
educating voters about how to take advantage of these new 
rights.
    Senator Merkley. So it wouldn't be an imposition on the 
states if we passed the funds to enable them to hire the help 
needed to get this done, if what you are saying----
    Ms. Benson. Absolutely right.
    Senator Merkley. So you have road tested this. I want to 
make sure one point is very clear. How many people were found 
to have signed up illegally to vote and voted in a Michigan 
election in the 2020 election?
    Ms. Benson. None.
    Senator Merkley. None, zero. So when my colleague from 
Texas says that this bill is about registering millions of 
illegal aliens and yet we are basing a model based on the good 
work that Michigan and Oregon and other states have done, and 
you found zero, we can just discount that as some sort of 
hyperbolic speech, not a real recounting of how this system 
works. Is that correct?
    Ms. Benson. Yes, I recommend that.
    Senator Merkley. Okay, well, I think it is really important 
to get past the hyperbole. You empowered hundreds of thousands 
of people to vote in Michigan. I didn't get the Michigan number 
you gave me. I think you said 250 million, but that wasn't AVR 
in Michigan. What was the number in Michigan of how many new 
voters under AVR?
    Ms. Benson. That is correct. A quarter--a quarter of a 
million, 250,000.
    Senator Merkley. Okay. Yes, thank you. So 250,000 people 
were empowered with this right to vote to make sure that the 
obstructions were knocked down. Not a single illegal voter. 
That seems like exactly what this Congress should be defending 
and making sure happens across this country, taking the good 
work that has been piloted in states like Michigan.
    Ms. Benson. I agree, yes. Again, the system works with 
proper funding and enough partnerships. There is no reason why 
every state in the country can't follow our lead and implement 
the provisions of this Act.
    Senator Merkley. There is one last question here. I think 
these are legitimate concerns that have been raised that we can 
learn from the experience of states that have gone through this 
process, but some voting machines would be decertified, in part 
because they don't produce paper ballots, or some voting 
machines would be certified for that reason. Are paper ballots 
integral to the system of having high integrity elections?
    Ms. Benson. Yes, they are, because you can't hack paper. 
The more incentives we have to improve the security of our ways 
of tabulating those paper ballots, the better off our democracy 
will be.
    Senator Merkley. We would like to have American made 
machines to also ensure there is not some internal backdoor 
corrupting our elections. Is that right?
    Ms. Benson. Yes, Senator.
    Senator Merkley. Yes. Thank you very much. Your experience 
was very instrumental. Very instructive. Thanks.
    Senator Blunt. Senator Capito.
    Senator Capito. Thank you, Senator Blunt, and thank you for 
the hearing. Secretary Warner, all of us want to have the 
ability to participate in our elections and democracy and have 
great faith in this and not be disenfranchised. We have heard 
from Michigan and Indiana and West Virginia that certain things 
are working in their states. Great. If things are working in 
their states, we should keep doing that. I note in your bio, 
Secretary Warner, that you say that 313 outdated, duplicate, 
out-of-state, deceased, and convicted felon voters have been 
eliminated. At the same time, in a state probably one fifth the 
size of Michigan, you have also registered 246,000 new voters, 
67,000 of which are high schoolers. You don't have same day 
registration. You don't have the other provisions that she has.
    So I think that we have tailored the way we want to get new 
and energetic voters on our rolls and get rid of the voters 
that are no longer eligible to vote. So congratulations to you 
on that. The specific thing I would like to talk about is your 
mobile voting app. You have talked about your overseas service 
members with electronic voting, but I think it is also 
important to know that you have expanded the use, with the help 
of the legislature I believe, of online voting for disabled 
individuals.
    I have heard from our deaf and blind community in West 
Virginia about what S. 1 would do to prevent them from using 
this tremendous increased accessibility voting option that you 
have pioneered in the State of West Virginia. So if you could 
briefly share your concerns about the impact that this bill 
would have on military voters and voters with disabilities.
    Mr. Warner. This bill would absolutely eliminate the 
opportunity for military people overseas, for voters overseas, 
and for what you just mentioned, the voters with certain 
disabilities, especially the blind community and folks who are 
physically not able to get to the polling locations, that is 
where we have enabled them to vote using a mobile device that 
is tailored to their specific situation.
    I visited one quadriplegic who physically could not get out 
of his bed to go vote, 35 years old, said for the first time in 
his life, he felt like an American where he could vote using 
this. So S. 1 would eliminate that option.
    Senator Capito. That would eliminate those folks' ability 
to vote. Now we are talking about accessibility to voting, and 
this eliminates our military out of our country and certain 
folks with disabilities in our state to be able to vote at the 
most convenient and test technology tested way. I would also 
note, in the State of West Virginia in the 2020 election, with 
all this--without this bill, you increased the number of voters 
by about 130,000 that actually came to the polls. Is that about 
a correct statement?
    Mr. Warner. Yes, we had over 800,000 people vote, and we 
have just over 1 million active voters. So we had a tremendous 
turnout.
    Senator Capito. Okay. I want to followup on something you 
said in your statement, something Senator Merkley said about 
the decertification of certain machines. Now, I understand in 
West Virginia, all of ours are paper.
    Mr. Warner. Yes, we have a paper trail auditable. Yes, we 
do.
    Senator Capito. Okay, so why would our machines be 
decertified under this legislation?
    Mr. Warner. This bill requires that all machines meet the 
VSG 2.0 system, and no state has the machines ready to meet 
that because this was just passed a month ago by the EAC. So we 
are all getting used to what those requirements are. We would 
have to go out and buy new machines to meet this new standard.
    Senator Capito. So you are telling me every state would 
have to buy new machines?
    Mr. Warner. You are correct. Under this----
    Senator Capito. Every state would have to buy new machines?
    Mr. Warner. Yes.
    Senator Capito. Remember the funding that we put in to Help 
America Vote Act to make sure that you are up to the point 
which you are right now today.
    Mr. Warner. Yes.
    Senator Capito. So I am going to ask a question. I know 
this is a dangerous thing, but I have no idea--I have no idea 
what the answer is going to be here, but there is a provision 
in this bill that says that we are going to politicize the FEC, 
and we are going to make it instead of even three Republicans, 
three Democrats, the majority party will be able to have a 
majority vote at the FEC. So I would like to ask Mr.--I am 
going to ask everybody, yes or no. Do you agree with that 
provision in this bill, Mr. Holder? Yes or no?
    Mr. Holder. I do. The FEC has proven to be totally 
ineffective in the way that it is constructed now.
    Senator Capito. So that is a yes?
    Mr. Holder. Yes.
    Senator Capito. You are in favor? Okay. Ms. Benson?
    Ms. Benson. Yes.
    Senator Capito. Mr. Waldman?
    Mr. Waldman. Yes.
    Senator Capito. Mr. Warner?
    Mr. Warner. No.
    Senator Capito. Mr. Rokita?
    Mr. Rokita. No.
    Senator Capito. I cannot believe that three out of the five 
witnesses thinks that it is a good idea to take a nonpartisan 
FEC Commission, and politicize it, and make decisions about 
elections when you can use your majority vote to ram anything 
through. That, to me, is a major red flag in this legislation. 
Thank you.
    Senator Blunt. Senator Padilla.
    Senator Padilla. Thank you, Mr. Chair, for the time being, 
and I would request in advance maybe an extra minute as one of 
the other prior state chief elections official serving in this 
committee right now. Let me begin by commenting on remarks made 
earlier by Minority Leader McConnell. So glad that he made 
reference to the Help America Vote Act that he worked on.
    As I recall him speaking, he said it was both crafted and 
passed not just on a bipartisan basis, but specifically given 
the approach to make it harder to cheat--excuse me, easier to 
vote and harder to cheat. Well, the second part has clearly 
been accomplished, folks. Voter fraud in America is exceedingly 
rare. Study after study, investigation after investigation, 
report after report shows that. Anybody with evidence or proof 
to the contrary needs to step up and bring it forward. Easier 
to vote and harder to cheat.
    We still have a lot of work to do on the first part. Voter 
purges. Discriminatory voter I.D. laws. Long lines that no 
voter should have to suffer and wait to exercise their 
fundamental right to vote. Let alone the false choice too many 
voters were forced to make last year in either protecting their 
health and their lives versus exercising their right to vote 
during the COVID-19 pandemic.
    We have a lot of work to do still on making it easier for 
eligible citizens to register, to stay registered, and to cast 
their ballot. Anybody who agrees with Minority Leader McConnell 
in thinking that the 2020 election went so well, then you have 
to also denounce the hundreds of bills that have been 
introduced, even though they have not been passing yet, but 
they have been introduced, that would have the effect of making 
it harder for eligible citizens to participate.
    Now let me jump to three questions for the three witnesses 
pretty quickly and let me ask the three and then we will get 
their responses. I am learning how to manage my time as a new 
member around here. The first addressed to Mr. Holder. Now I 
will bypass the preamble and just ask the question in reference 
to the flurry of bills that we have seen since the start of 
this year coming off of the November 2020 election. How these 
recent proposals further highlight the need to create a Federal 
baseline of voting rights and access to the ballot that should 
apply across the country. That is No. 1.
    No. 2, question for Mr. Waldman. Some folks have argued, 
well, separate apart from S. 1 and H.R. 1, there is the John 
Lewis Voting Rights Act. Isn't that enough? While I think 
restoring the teeth of the Federal Voting Rights Act is 
critical, Mr. Waldman, can you explain why it is necessary to 
create a baseline of voting rights through S. 1 rather than 
only implementing new preclearance requirements for state and 
local jurisdictions to go through the Department of Justice in 
the Defense of Voting Rights?
    Last, two questions for Secretary Benson. Hello, Jocelyn. 
As Michigan's chief elections official, you obviously have a 
vested interest in ensuring the proper administration of free 
and fair elections in your state, as your colleagues across the 
country. So does the For the People Act wrest control over 
elections away from state officials and local elections 
officials and Federal elections, as some have argued?
    If you have a minute as well to quickly comment on your 
experience with the independent redistricting commission, that 
is one area that California has led on as well. Thank you.
    Ms. Benson. Thank you. Senator Padilla. You know, with 
regards to the implementation, I think what we have seen is 
that with proper funding and with, you know, all the things 
that we have learned from other states in place, it is possible 
to implement all of these policies. You know, it amazes me how 
so many of the arguments we have heard today were made against 
the Voting Rights Act of 1965, almost verbatim, the overreach 
argument, and I will underscore that in Michigan, you know, we 
had a state policy, the Motor Voter Law that the VRA expanded 
nationwide, that, again, same arguments were raised. It is not 
possible. It is an overreach. It is a Federal takeover. It 
wasn't the case.
    It actually dramatically improved our system of election 
administration all across the country. So these arguments have 
been made before and they haven't proven to play out in 
reality. You know, I will direct anyone I know, my time is 
limited, to MichiganRedistricting.org to also see the enormous 
success we have had implementing a citizen's redistricting 
commission in Michigan.
    We have basically essentially found that when you give 
citizens the ability on both sides of the aisle to draw their 
own legislative districts, they embrace that ability with good 
intentions. We have, through this commission, effectively 
eliminated gerrymandering in our state.
    Mr. Waldman. Senator Padilla, we need both this legislation 
and the John Lewis Voting Rights Advancement Act to ensure 
equal access to the ballot for all Americans and to ensure that 
there is not racial discrimination in voting.
    As you note, the John Lewis Voting Rights Advancement Act 
deals with the restoration of preclearance, which is a fairly 
specific thing relating to past racial discrimination and how 
it plays out in voting, but this legislation, too, by setting 
national standards and ensuring that we can't have cutbacks in 
access to voting, that unfortunately also have a very direct 
tinge of discrimination, that can happen as well.
    I will note that Representative Lewis, when he was still 
with us, was very involved in the writing of this legislation 
when it was in the House of Representatives.
    Senator Padilla. Mr. Holder.
    Mr. Holder. With regard to this need for baselines, I think 
that is extremely important. We keep hearing about this cry 
about voter fraud. It simply doesn't exist. Simply because you 
say it doesn't necessarily mean that it exists. I look at 
Texas, for instance. I mean, Senator Cruz wanted to talk about 
that. The Attorney General, Ken Paxson spent 22, according to 
NBC News, spent 22,000 hours looking for voter fraud, found 16 
cases of false addresses on registration forms. He talked about 
the late Justice Stevens, who said that his vote upholding 
voter I.D. laws because of a concern about fraud was the worst 
opinion, the worst decision he ever signed on to.
    There is simply not--there is simply not any indications of 
fraud to the extent that would justify the very draconian 
measures that have been put in place and that this Act--this 
Act would prevent from being put in place. That would separate 
people from their ability to affect the direction of the 
Nation. It would return power to the people.
    Senator Blunt. Senator Padilla, I think you maximized your 
time. Congratulations. Senator Fischer.
    Senator Fischer. Thank you, Senator Blunt. In the 2020 
Presidential election in the State of Nebraska, we saw an 
excellent job done in administering the vote and we had record 
turnout. We saw over 960,000 people vote out of 1.26 million 
registered voters. I am so proud of the job that Nebraska has 
done. As I sit here today and I listened to my colleagues on 
the other side of the aisle and the witnesses that they brought 
forward, as well as my colleagues on my side of the aisle and 
the witnesses that we have brought forward, it sounds like 
states are doing a great job.
    We hear that there is very little or no voter fraud. We 
hear that the voter turnout was tremendous in this last 
election, which all of us want to see. We want people to 
exercise their right to vote. We want that to happen. So I 
would just ask for us to think about why in the world would we 
give up state control of our elections to the Federal 
Government? Most everybody in here is saying in their own 
fashion that our elections are working. Yet we are saying, oh, 
you know, my heavens, we have to have the Federal Government 
take over control. I vehemently disagree with that.
    As I look through this bill, my staff worked overtime 
trying to get through the 800 some pages, but what we saw were 
proposals that I think are done in a political fashion. What we 
have seen is a lot of confusion in this bill. In some cases, I 
would say sloppiness in how this bill was written. Senator 
Merkley brought up one point about that the states have to 
purchase the paper backed voting machines that are compliant 
with new standards.
    I believe you, Secretary Warner, you also spoke to that. We 
have conflicting deadlines in this bill that we discovered. In 
one section it says this has to happen by January 2022. In 
another, it conflicts with that. I see chaos, I see chaos in 
trying to meet these requirements for a 2022 election. For 
example, these machines don't even exist yet. So you tell me 
how we are going to get this implemented. You tell my elected 
officials in Nebraska, our Secretary of State and his very 
competent staff, how we are going to be able to meet all this. 
I would imagine before we are through here, we are going to 
find a lot more, a lot more.
    As Senator Wicker pointed out, when the American people 
hear what is in this, they do not support it. We all want fair 
elections. We all want more citizens to vote. That is what 
keeps a democracy strong, but to try and portray this as 
something that isn't is just pretty darn disingenuous. 
Secretary Warner, I would ask you, in your written testimony, 
you identify the unrealistic deadlines that I mentioned that we 
see in S. 1, and it makes it difficult for states to meet that.
    Can you speak to some of the challenges, for example, to 
when we look at the decertification of millions of dollars 
worth of equipment that I mentioned? Can you quickly--well, I 
have used a lot of time already, but can you speak to that? 
Then I will have a number of written questions to you, because 
these--we can't just sit here on both sides and speak in 
grandiose terms. We need to get down to the nuts and bolts in 
this and figure out what is going to happen and if it is even 
realistic, sir.
    Mr. Warner. Thank you, Senator. I think you have 
articulated the sentiment, especially of the people of West 
Virginia, with the problems with this bill. On the equipment 
itself, it just--since it doesn't exist, you have to get 
through that process of the vendors actually developing that. 
They say and it is anywhere between 12 and 36 months. So that 
would shoot way past even the January 2022 timeframe. Then 
there is the whole process of acquiring that equipment. Then 
there is the training the clerks and then the clerks training 
the poll workers on that. It is just unrealistic and that is 
one of the major concerns that our clerks have expressed to us.
    Senator Fischer. You know, I saw much of this when I was in 
the Nebraska legislature, I chaired the Transportation 
Telecommunications committee. We had to implement Real I.D. and 
Nebraska was one of the first states to be able to get that 
done. It takes time. It takes time to do the Help America Vote 
Act when that came out. It takes resources.
    So when we are looking at a complete Federal takeover of 
the election system of the United States of America, we need to 
understand what is fully involved here. Thank you, sir.
    Mr. Warner. Yes, ma'am.
    Chairwoman Klobuchar. Thank you very much. I am back from 
voting. We have been able to run two votes with us having a 
seamless hearing. I want to thank Senator Blunt for helping me 
with that. If any of our witnesses need a three or 4 minute 
break here, let us know because we will just finish up unless 
Senators want to have a second round of questioning of this 
panel. So next is Senator King.
    Senator King. Thank you, Madam Chair, I appreciate it and 
appreciate the recognition of the voting. As a former Governor, 
I am sort of conflicted here because I am a strong believer in 
states' rights and the states have the ability and need the 
ability to make their own laws according to their local needs 
and their local situation. On the other hand, I view many of 
the provisions of this bill as a kind of extension of the 1965 
Voting Rights Act. As it has been testified, the Congress has 
involved itself in voting and voting rights on numerous 
occasions. Really what we are talking about here is protecting 
the right to vote.
    So I wanted to ask a couple of questions, Mr. Waldman. One 
is a sort of forward looking request. You are collecting data. 
You have reported on all of these bills that have been filed 
around the country. I would appreciate it if you would notify 
the committee perhaps on a bi-weekly basis as we move into the 
consideration of this bill, what is happening to those bills 
that have been introduced around the country.
    Ranking Member Blunt pointed out that some of them will be 
enacted and some won't. I think it would help us in our 
deliberations to learn exactly which of these bills have gone 
forward in which states, and that will allow us to sharpen the 
provisions of the bill. Mr. Waldman, can you do that for us, 
please?
    Mr. Waldman. We certainly can. Indeed, our website already 
tracks the path of these bills, but we will make it very useful 
and useful to the committee, but it is also the case that there 
is a very fierce push to enact these bills happening in plain 
sight in front of our eyes. We ought not, I would suggest, 
ignore that either.
    Senator King. I agree with you. I think if we are talking 
about enacting a law to protect the right to vote, then we 
shouldn't have to wait for states to be infringing on that 
right. This should be a protective measure. There hasn't been a 
lot of discussion, and I suppose, Mr. Waldman, you are the guy 
to ask about this, at least when I have been here at the 
committee meeting this morning about gerrymandering. I consider 
that one of the most serious problems afflicting our democracy.
    It happens in both ways. There are Democratic gerrymandered 
seats. There are Republican gerrymandered seats. The problem 
is, instead of the voters choosing the politicians, the 
politicians choose the voters. Talk to me about the effect of 
gerrymandering in this country, the extent of it, and what it 
is doing to our politics.
    Mr. Waldman. Thank you, Senator. You are exactly right. 
Both parties gerrymander when they can, and it is a risk to the 
representation of voters. It is a risk of partisan abuse. It is 
a risk of choking off the voices of communities of color that 
are often the fastest growing communities.
    This legislation follows what a lot of states have done, 
what a lot of voters have put in place, in a lot of states. It 
bans partisan gerrymandering. It requires that redistricting be 
done with standards for representation of communities and other 
fair standards, and includes commissions, nonpartisan 
commissions to implement this, but even if this legislation is 
not passed in time to implement those, it has very, very 
valuable national standards to ensure that all voters are able 
to have competitive and representative elections.
    Senator King. One of the hidden problems with 
gerrymandering is if you have got a district that is all 
Democratic or heavily Democratic or heavily Republican, you 
tend to have members elected who are on the edges of their two 
parties. It is--you don't win a primary in one of those by 
being moderate. I think that is one of the things that has 
contributed to the polarization that we see in the Congress. 
Have you observed that?
    Mr. Waldman. Yes, sir. That does seem to be the case and of 
course, in legislatures as well. The rules in this bill don't 
just affect right now, as we know, because redistricting 
happens every 10 years and it is going to begin in a few months 
around the country. If there are abusive redistricting 
practices and unfair maps that are drawn, those can lock in a 
bad system, can lock in advantage for much of a decade. It 
really does make it something where voters don't want to vote 
if they don't have a real opportunity to be heard.
    Senator King. Unfortunately, the Supreme Court punted on 
that issue when I think they had a good case before them that 
they could have handled, and I think abdicated the 
constitutional responsibility. That is another question. I want 
to thank all the witnesses today.
    I just want to close with a little piece about Maine, we 
have same day registration, no excuse absentee voting, no voter 
I.D. and no fraud. I just wonder about all of these provisions 
that are being enacted all over the country to chase a fraud, 
fraud allegations that I have not yet seen validated in any 
objective forum. So, Madam Chair, I appreciate the hearing, 
Ranking Member Blunt, and look forward to consideration of the 
bill.
    Chairwoman Klobuchar. Well, thank you very much, Senator 
King. We do appreciate the Maine Secretary of State's support 
for this bill as well. Next, Senator Hagerty.
    Senator Hagerty. Thank you, Chair. I want to direct this 
question both to Secretary Warner and to General Rokita. I want 
to ask you if you agree with me, that this bill, by eliminating 
common sense security measures for voting, by bypassing elected 
state representatives, is really a power grab by those 
politicians that are currently in power that wrote this bill to 
use their power--even though it is so thin in a 50-50 Senate--
to use their power to fundamentally change the rules of the 
game so they stay in power permanently?
    Mr. Warner. That is what it would appear to be, Senator.
    Senator Hagerty. General Rokita, do you agree?
    Mr. Rokita. Yes, and you can just, like, look at the--
excuse me, look at the number of the bill. It was H.R. 1 and 
Senate Bill 1. As Leader McConnell said, it is very telling 
what the most important priority is for Democrats. I mean, 
frankly, I have never seen a group of people complain so much 
after winning.
    Senator Hagerty. Doesn't using Government power to ensure 
you stay in power sound more like the Maduro regime, or 
Chairman Mao's regime, than it does something would happen here 
in the United States?
    Mr. Rokita. Yes. I think the American people see right 
through it. That is why the Senate has got to vote this bill 
down just to maintain, for nothing else, maintain their 
credibility with the American people.
    As you look at these state legislators, and whether the 
bills that they are proposing are good or bad or ugly or what, 
they are responding to their constituents. They are responding 
to the American people. They are closer, frankly, to the 
American people than the Federal Government is.
    Clearly, people felt that because of the last minute rule 
changes and everything else, the last election wasn't a good 
one from a process standpoint. The 2018 and 2016 elections were 
much better.
    Senator Hagerty. General, can I keep you on point for just 
a few more minutes? I would like to ask three quick questions, 
and I think they could probably be simple yes or no answers. 
General Rokita, is it accurate that under this bill it is quite 
possible that a court in Washington, DC. would redraw every 
single congressional district in all 50 states before the 2020 
midterm elections rather than allowing the elected 
representatives of those people in those states?
    Mr. Rokita. Yes, that is exactly where this is going. You 
can argue whether redistricting is good or bad and if it could 
be done better, but you make it a lot worse by definition when 
you take it more out of the hands of the people. The fact of 
the matter is, state legislatures are directly elected by the 
people. District Court Circuit Judges or three panel appellate 
judges are the most removed from the people, by design in terms 
of the judiciary, but it is the responsibility, as the framers 
intentionally noted, that the first branch of Government, the 
legislatures, be in charge of this process for accountability 
reasons.
    Senator Hagerty. Yes, I can tell you the people in 
Tennessee would agree with you. We would not want to cede our 
power to set the rules of elections to the district court here 
in Washington, DC. Next question is requiring a voter to 
present a reliable form of identification an important method 
of determining that a voter is who that voter claims to be and 
not trying to impersonate someone else?
    Mr. Rokita. Absolutely. Yes. It is 19th and 20th century 
technology, and it is very simple. Only a photo allows you to 
determine that you are who you say you are. It is important for 
confidence, but you can argue whether there is voter fraud or 
not voter fraud in your state. It depends if you are actually 
looking No. 1. Also, No. 2, it is a very difficult crime to 
spot because the evidence goes away right after the vote is 
cast.
    There is no dead body with an outline to make afterwards to 
prove a crime. It goes away. So it is very difficult, and 
prosecutors don't like prosecuting it because it is very 
different than the run of the mill crimes that they are used to 
prosecuting.
    So that should not be the measure. The measure should be 
the confidence that it brings to the process. Time and again, 
like the Mexico example I gave, the Indiana example I gave, 
where turnout goes up after the election--after presenting a 
photo I.D. is valid because it is telling people, you know 
what, we are going to invest in this process like we do when 
you go rent a video, as you used to do, or where you go to get 
on an airplane. We are going to care enough about your vote to 
make sure that it is one person, one vote. That is what photo 
I.D. does.
    Senator Hagerty. Yes. One last question. Would you agree 
that allowing paid by the hour political operatives to go out 
and harvest ballots and drop them in unmanned boxes would 
actually decrease election integrity?
    Mr. Warner. Absolutely, Senator. The answer to your former 
question was, yes.
    Mr. Rokita. It would absolutely----
    Senator Hagerty. General Rokita. General?
    Mr. Rokita. Sorry, I didn't mean to step on anybody, I was 
going to--yes, absolutely. That would be chaos. That is the 
real definite chaos, waiting in a line, hopefully a short line 
is not chaos, but this kind of stuff coupled with the lawsuits 
that are going to come with this bill, that it is going to be 
chaos for 2022 and beyond.
    Senator Hagerty. Thank you.
    Chairwoman Klobuchar. Senator Hagerty, you are done? Okay, 
thank you very much. Next, Senator Ossoff.
    Senator Ossoff. Thank you, Madam Chair, and thank you to 
our distinguished panel for your testimony. Thank you as well 
to Senator Merkley for your leadership on this issue. Madam 
Chair, as you know, this is an issue of particular concern as 
one of the Senators from Georgia, and it is with a heavy heart 
that I report to the committee and to the panel for those who 
are not aware that right now in Georgia's state legislature, a 
significant faction of Georgia's Republican delegation is 
pursuing utterly meritless, blatant voter suppression 
legislation that is so brazen in its partisan and racial 
targeting that even Georgia's own Republican Lieutenant 
Governor refused to oversee the debate of this legislation 
because it is obvious to all and indeed openly admitted by some 
of these Republican legislators that the exclusive purpose of 
this legislation is to gain a partisan edge in the elections by 
making it more difficult for black voters and working class 
voters in Georgia to vote.
    I take exception to the comments that you just made, Mr. 
Rokita, that public concern regarding the integrity of the 
recent election is borne of anything but a deliberate and 
sustained misinformation campaign led by a vain former 
President unwilling to accept his own defeat, who, rather than 
observing the sacred tradition and necessary process of a 
peaceful transition of power for a losing candidate for the 
Presidency, undertook a scorched earth effort to undermine 
public confidence in the integrity of our elections that was so 
dramatic and so destructive that it culminated in a violent 
assault on the United States Capitol.
    Former President Trump's own senior officials, cabinet 
officials, directly rebutted his meritless claims that there 
was any level of voter fraud that might have had a substantive 
impact on the outcome of the election. I find it disturbing 
that a chief law enforcement officer from one of our great 
states would indulge in that kind of misinformation and spread 
those kinds of conspiracies when public confidence in the 
integrity of our elections is absolutely essential to 
sustaining our democracy. I want to turn for a moment now to 
the legislation before us----
    Mr. Rokita. A minute to respond to that?
    Senator Ossoff. No, you may not. I would like to turn now 
for a moment to Ms.----
    Chairwoman Klobuchar. Senator Ossoff, give him 30 seconds 
to respond.
    Senator Ossoff. Go ahead, sir.
    Mr. Rokita. Yes, Senator. I mean, that is true. I mean, we 
are trying to have a constructive debate. You are not adding to 
it by cutting people off after invoking their name. I would say 
that you are entitled to your opinion, as misinformed as it may 
be, but I share the opinion of millions of Americans. The other 
difference between my opinion and yours is mine comes with the 
ability to file lawsuits.
    Senator Ossoff. Well, whether our elections have been 
conducted with integrity is a matter of fact, not a matter of 
opinion. Moving along, I would like to ask Ms. Muller. We have 
seen in Georgia some of this legislation filed intended to make 
it more difficult for some to vote, would even bar the 
distribution of water and snacks to people who are being forced 
to wait in lines that in Georgia have stretched as long as 6 or 
8 or 10 hours as a function of inadequate resourcing of 
election infrastructure and training of election personnel. 
What is your view, Ms. Muller, of this sort of voter 
suppression legislation?
    Chairwoman Klobuchar. Yes, that--Ms. Muller is coming right 
up on our next panel, but why don't we ask one of our other 
witnesses? Maybe----
    Senator Ossoff. Sure. Mr. Holder.
    Mr. Holder. Yes, I think that I am very concerned about 
that. I have looked at studies that show that African-Americans 
in Atlanta had to wait 51 minutes to vote, white Atlantans had 
to wait 6 minutes to vote. There is no indication of widespread 
voter fraud. You say it, people say it all the time, but simply 
saying it doesn't make it so. So these measures that they are 
trying to put in place are really only designed to make it 
difficult for people who they think will vote against them, 
make it more difficult for those people to vote without any 
kind of basis for the concerns that they express.
    Senator Ossoff. Thank you, Mr. Holder. Thank you to the 
panel. Thank you, Madam Chair. I yield back.
    Chairwoman Klobuchar. Thank you very much, Senator Ossoff. 
Next up, Senator Hyde-Smith.
    Senator Hyde-Smith. Before we start, I have a question of 
the chair.
    Chairwoman Klobuchar. Sure.
    Senator Hyde-Smith. Earlier, Senator Schumer, the Majority 
Leader, had requested a response from Republican members of 
this committee as to things that were happening in Georgia? 
When is the appropriate time that I can respond to the 
question?
    Chairwoman Klobuchar. You could respond right now, Senator 
Hyde-Smith.
    Senator Hyde-Smith. Thank you very much.
    Chairwoman Klobuchar. Thank you.
    Senator Hyde-Smith. Senator Schumer's question was he was 
wondering why on Sundays, Georgia would not participate in an 
electoral process of gathering signatures, of registration and 
things on Sunday. I would just like to respond to that. Georgia 
is a southern state just like Mississippi. I cannot speak for 
Georgia, but I can speak for Mississippi on why we would never 
do that on a Sunday or hold an election on a Sunday. You know, 
this is our currency. This is a dollar bill. This says the 
United States of America, In God We Trust. Etched in stone in 
the United States Senate chamber is In God We Trust. When you 
swore in all of these witnesses, the last thing you said to 
them in your instructions was, so help you God. In God's word, 
in Exodus 20:18, it says, remember the Sabbath and keep it 
holy.
    So that is my response to Senator Schumer. Thank you, Madam 
Chairwoman. Now I will begin with my questions. Also, I have a 
letter that I would like to have entered into the record. You 
know, I am really concerned how this legislation would 
negatively affect the integrity of the election system.
    I recently received a letter from our Secretary of State in 
Mississippi, Michael Watson, and he was concerned that the 
various provisions in this Act provide new pathways for 
election fraud, undermine the First Amendment right to free 
speech through censorship of campaign activity and restrict 
states authority to conduct local elections.
    So given Secretary Watson's role as Mississippi's chief 
election officer, I would ask that the entire letter from 
Secretary Watson be entered into the record.
    Chairwoman Klobuchar. Without objection, entered in the 
record.
    [The information referred to was submitted for the record.]
    Senator Hyde-Smith. One of the specific concerns raised by 
Secretary Watson was the bill's effect on Mississippi's voter 
I.D. law. Voter I.D. was adopted by the people of Mississippi 
in 2011, and not only did we adopt it, we made it an amendment 
to the State Constitution. It was passed by an overwhelming 
margin, and the voter I.D. has been implemented with success in 
Mississippi. We have provided Government issued I.D., free of 
cost to our citizens, not only to vote, but any other thing 
that they might need a Government I.D. for. Our Secretary at 
that time, Delbert Hosemann, worked closely with the Obama 
Justice Department and beginning in the drafting of the phases 
of the enabling law through the final implementation.
    The result of this collaboration is that Mississippi's 
voter I.D. law is working successfully, while such policies in 
other states have been embroiled in extensive litigation. 
However, the legislation before us today would nullify 
Mississippi's successful voter I.D. law. Under S. 1, in a 
Federal election, an individual could walk into a polling 
place, register and vote on the spot without ever showing any 
proof of identity or residency, and for that matter of age.
    Mr. Rokita, I am going to put this one to you, how would 
allowing individuals to register and vote in a Federal election 
without ever confirming their identity or residency lead to 
further undermining voter confidence?
    Mr. Rokita. Well, thank you, Senator. Yes, the implications 
are obvious. More cheating, more potential for abuse, couple 
that with aggressive ballot harvesting as this bill promotes 
and doesn't allow prohibitions against. So you can see where 
all this is going. I go back to what Leader McConnell said 
during his opening remarks, which was true when we all 
implemented the Help America Vote Act about 20 years ago and it 
improved the process because it was bipartisan.
    Yes, make it easier to vote, but make it harder to cheat. 
Senator, what this bill does--and by the way, I don't take the 
premise that it is hard to vote. There has to be some basic 
responsibilities for the individual in a free Republic. One of 
those has to be taking reasonable, common sense initiatives to 
cast your ballot. We can continue to improve upon that, of 
course. I think that one of the huge avenues we can continue to 
explore is technology.
    But if you don't couple that improvement of the voting 
process, like using technology, with individual responsibility 
and accountability, then all you are doing is making it easier 
to cheat. So where the Help America Vote Act was, yes, let's 
make it easier to vote and harder to cheat, this bill is let's 
make it easier to cheat, period.
    Senator Hyde-Smith. I agree with you on that. I just did a 
press conference in reference to Jennifer Jackson in 
Brookhaven, Mississippi, who called me. She had gone to vote, 
and she was told, ``You can't vote.'' You have already voted. 
She saw where someone had signed her name. She looked above it 
and her deceased father had already voted that morning as well. 
So the fact that voter fraud is prevalent, it is rampant, and 
in close elections, it does make a difference. I have got just 
a few minutes. One minute. This bill would also create a 
complicated multi-ballot system for states like Mississippi, as 
you referred to.
    Given that voter I.D. as part of our State Constitution, 
the state will still have to require voter I.D. for voting on 
state and local issues, even if the law prohibits it for 
Federal elections. This would create a system of multiple 
ballots and conflicting rules, which will make voting much more 
complex and time consuming for voters and those running our 
elections.
    If our goal is to reduce wait times at the polls, this 
multi ballot system, combined with the same day voter 
registration, would drastically increase the amount of time it 
takes to vote. Secretary Warner, how will the conflicts between 
this bill and state law create problems and make voting more 
difficult in West Virginia?
    Mr. Warner. Well, I think West Virginia is very similar as 
you describe the process and the people in Mississippi. I think 
I was hearing and seeing the people in West Virginia in a 
similar light. This process of automatic or the same day 
registration and that voting is the thing that the clerks 
mentioned to me the most that was going to complicate their 
administration of the elections. Then the I.D. does not present 
problems. I found it ironic that on this morning's news there 
was talking about bringing your I.D. to get a COVID shot.
    We are requiring people to bring an idea to get a COVID 
shot but says that it is a problem to vote. No, people don't 
have problems. We implemented voter I.D. just a couple of years 
ago ourselves in West Virginia. No problems whatsoever with the 
implementation. No complaints.
    In fact, people would typically come into the polling 
precinct and hand people their I.D. before they were even asked 
because that was the expectation. When we have the voter I.D. 
laws, it adds confidence to the process. So this bill 
complicates the entire process going in the wrong direction 
from where we need to go.
    Senator Hyde-Smith. Thank you very much, Mr. Secretary.
    Mr. Warner. Thank you.
    Senator Hyde-Smith. I yield.
    Chairwoman Klobuchar. Thank you very much, Senator Hyde-
Smith. I think that concludes our panel. We are going to move 
on to the second panel. I want to thank all of our witnesses. 
It was a good morning on a critically important bill. So thank 
you, and we will just take a minute to switch out the panels. 
Thank all of you for coming and testifying before us. I can see 
our people who are virtual waving and I am waving back. 
Alright, thank you.
    Well, thank you very much, and we are going right through 
today, so we really appreciate our second panel. I am going to 
just mention who they are, then swear them in, and then give 
them their righteous and rightful introductions. So with us 
today is the honorable Trevor Potter, the former Republican 
chair of the Federal Election Commission, who is here to 
testify for the bill, the honorable Lee Goodman, former 
Republican chair of the Federal Election Commission, who will 
be on the other side against the bill.
    The third is Fred Wertheimer, the President of Democracy 
21. I believe, he has been working on these issues for over 50 
years, but we will let him tell us that. Then we also have with 
us the honorable Bradley Smith, former Republican chair of the 
Federal Election Commission. Then Tiffany Muller, the President 
of End Citizens United.
    The purpose of the second panel is to focus on the campaign 
finance and the ethics portions of the bill, where the first 
panel was focused on the voting portions of the bill. So if the 
witnesses could stand, including our remote witnesses, so I 
could swear you in. Raise your right hand. Do you swear that 
the testimony you will give before the committee shall be the 
truth, the whole truth, and nothing but the truth, so help you 
God?
    Mr. Potter. I do.
    Mr. Wertheimer. I do.
    Mr. Smith. I do.
    Mr. Goodman. I do.
    Ms. Muller. I do.
    Chairwoman Klobuchar. Thank you. You may be seated. Today 
on our second panel is Mr. Trevor Potter. Mr. Potter is the 
former Republican Chair of the Federal Election Commission. He 
is also the President of the Campaign Legal Center, which he 
founded in 2002. Mr. Potter was appointed to the Federal 
Election Commission by President George H.W. Bush in 1991, 
where he served as a Commissioner until 1995. He served as 
General Counsel to Senator John McCain's 2000 and 2008 
Presidential campaigns. He has authored several books and 
manuals on lobbying, regulation and disclosure, campaign 
finance, and Federal election law. He has chaired numerous 
American Bar Association election law and lobbying regulation 
committees and task forces and is currently a member of the 
ABA's Standing committee on Election Law.
    He has also served on the Common Cause National Governing 
Board and currently serves as an adviser for the American Law 
Institute and Issue One. He received his undergraduate degree 
from Harvard and his law degree from the University of Virginia 
School of Law.
    Fred Wertheimer is the Founder and President of Democracy 
21, as I mentioned. In 1971, he joined Common Cause, where over 
the course of 24 years he served as the organization's 
Legislative Director, Vice President for Program Operations, 
and President.
    In 1997, Mr. Wertheimer established Democracy 21, which has 
played a role in the enactment of the Bipartisan Campaign 
Reform Act of 2002, and the Honest Leadership and Open 
Government Act of 2007, and the establishment of the Office of 
congressional Ethics in 2008. He has served as a fellow at 
Harvard University's Shorenstein Center on Media, Politics, and 
Public Policy, and also as a visiting lecturer at Yale. He has 
served as a political analyst, and he has participated as a 
lawyer in every major Supreme Court campaign finance case since 
1976, including Buckley v. Valeo and Citizens United v. FEC. I 
think we can concede here that he is qualified to be a witness 
in front of this body. He received his undergraduate degree 
from the University of Michigan and his law degree from 
Harvard.
    Tiffany Muller is our--will be speaking last on the panel. 
She is the President and Executive Director of End Citizens 
United. She has been in this role since 2016. She became the 
first openly gay public official in Kansas in 2004 as a member 
of the Topeka City Council, where she led successful efforts to 
expand anti-discrimination protections.
    After working for Governor Kathleen Sebelius, Ms. Muller 
ran a political research firm in Florida. She served as Chief 
of Staff to two Members of Congress. Prior to joining End 
Citizens United, she was a Deputy Political Director for the 
Democratic Senatorial Campaign committee. She received her 
undergraduate degree from Washburn University and her master's 
degree from the University of Maryland. Now I will turn it over 
to Ranking Member Blunt to introduce the other two witnesses. 
Thank you.
    Senator Blunt. Thank you, Chairwoman. Welcome to all of our 
panelists. The two I get to introduce, Lee Goodman. Mr. Goodman 
previously served as Chairman of the commission, the 
Commissioner, and Commissioner both of Federal Elections 
Commission. He has served as the Legal Counsel and Policy 
Adviser to the Governor of Virginia, the Attorney General of 
Virginia, the Associate General counsel to the University of 
Virginia and General Counsel to a number of political 
organizations. His experience covers a broad range of policy 
oriented subjects, including Federal and state campaign finance 
laws, ethics laws, and election administration. We are glad to 
have him with us as well.
    Another former commissioner of the Federal Election 
Commission, Bradley Smith. Professor Smith is the Founder and 
Chairman of the Institute for Free Speech and is the Josiah 
Blackmore and Shirley Nault Professor of Law at Capital 
University in Columbus, Ohio. Again, he previously served as 
the Commissioner of the Federal Elections Commission, including 
Vice Chairman in 2003 and Chairman in 2004. Thank you, 
Chairwoman.
    Chairwoman Klobuchar. Well, thank you very much. Each 
witness will now be recognized for 5 minutes for their opening 
statement. We will begin with the Honorable Mr. Potter.

OPENING STATEMENT OF HONORABLE TREVOR POTTER, FORMER REPUBLICAN 
 CHAIR OF THE FEC AND FOUNDER AND PRESIDENT OF CAMPAIGN LEGAL 
                    CENTER, WASHINGTON, DC.

    Mr. Potter. Thank you, Senator Klobuchar and Senator Blunt, 
for the honor of appearing before you today in support of S. 1, 
the For the People Act. The Campaign Legal Center, of which I 
am President, is a nonpartisan, nonprofit organization 
dedicated to advancing American democracy through law. Many of 
S. 1's provisions have bipartisan origins and have broad 
bipartisan public support, with majorities of voters from both 
parties saying they back provisions in the legislation.
    I do not believe this bill benefits one party over the 
other, but it does benefit the American people by making their 
Government and election process more accessible and 
transparent.
    Let me give you a few examples of the bipartisan roots of 
key provisions of S. 1. The FEC reform provisions are drawn 
from a bipartisan bill introduced in the last three Congresses. 
Digital disclosure provisions are drawn from the Honest Ads 
Act, introduced in the last two Congresses with bipartisan 
support, and reforms to strengthen the Foreign Agents 
Registration Act have a similar bipartisan background. Super 
PAC coordination provisions echo those included in bipartisan 
bills and are similar to bipartisan state measures, such as a 
2019 bill introduced in West Virginia by a Republican State 
Senator and passed with bipartisan support, and signed into law 
by that State's Republican Governor. Provisions that would end 
shadow lobbying tracked the bipartisan bills previously 
introduced and implement recommendations from a bipartisan 
American Bar Association task force.
    I would like to note one critical component of S. 1 that 
CLC believes is particularly important: reform of the FEC. The 
Federal Election Commission has grown deeply dysfunctional, and 
our democracy is suffering as a result. During my time at the 
FEC, I remember only one agency deadlock on an enforcement 
matter. Deadlocks now occur with great frequency, almost 
routinely if the matter has significant political or legal 
importance.
    My written testimony to this committee details the rise of 
these deadlocks over the last decade and the numbers are stark. 
Some will try to argue that things aren't as bad as the record 
shows, but in doing so, they play games using numbers that 
equate routine commission votes, such as approving the minutes, 
with votes on major enforcement matters. Or, they average 
commission votes over the FEC's whole history when the 
deadlocks are almost all in the last 10 years.
    The failure of the FEC to muster a majority in recent years 
to enforce campaign finance laws has resulted in an explosion 
in secret spending by C(4)s and other groups that do not 
disclose their donors. In the 2020 election cycle, dark money 
groups spent $1 billion in political advertising or other 
expenditures, including $600 million transferred to Super PACs 
to spend, thereby blatantly laundering the money to prevent 
disclosure of the donors.
    The open involvement of Federal candidates and office 
holders in raising funds for their supposedly independent Super 
PACs raises the very real danger of corruption. Some people 
will tell you that FEC Commissioners who refused to support 
transparency are only protecting First Amendment rights, but 
the Supreme Court ruled 8 to 1 in Citizens United, that knowing 
the source of funding of political advertising is a crucial 
right of voters. ``Requiring groups like Citizens United, which 
was not a political committee, to disclose their donors is 
constitutional the Supreme Court said in that case.''
    Yet, the FEC has repeatedly deadlocked on disclosure 
issues, whether to write regulations implementing the 
disclosure holdings of Citizens United or in multiple 
enforcement matters involving disclosure.
    S. 1 would therefore restructure the FEC to address well-
documented problems by changing the number of FEC 
Commissioners, improving the Commissioner's selection process, 
strengthening the enforcement process to prevent Commissioners 
from deadlocking on making investigations at an early stage, 
and making meaningful judicial review of FEC action or inaction 
easier. I believe these changes will allow the FEC to function 
as the crucial and effective watchdog it needs to be. Thank 
you.
    [The prepared Statement of Mr. Potter was submitted for the 
record]
    Chairwoman Klobuchar. Thank you very much. Next up, we have 
the honorable Lee Goodman. Thank you.

 OPENING STATEMENT OF HONORABLE LEE GOODMAN, FORMER REPUBLICAN 
   CHAIR OF THE FEDERAL ELECTION COMMISSION, WASHINGTON, DC.

    Mr. Goodman. [Technical problems.]--one point of 
clarification. Chair Klobuchar, you announced that I was here 
in opposition to S. 1. I can tell you that in 800 pages of 
legislation, I am sure there are some elements of the bill that 
I could speak in favor of.
    Chairwoman Klobuchar. Excellent.
    Mr. Goodman. However, there are provisions in the campaign 
finance section that--can you hear me now?
    Chairwoman Klobuchar. We could hear you before. You are 
Okay.
    Mr. Goodman.----outweigh many of the benefits of the bill. 
I also believe that the bill misfires and is inadequate in many 
ways to address, for example, in the foreign meddling approach 
using the Honest Ads provisions. The central feature of the 
bill that I believe makes the bill objectionable for the 
American people, is its vast expansion of the type of speech 
Americans wish to engage in, subjecting them to public and 
compulsory disclosure and doxing. It does that in two central 
ways.
    First, it imposes on the compulsory exposure regime of the 
FEC a requirement that citizens disclose who they are, who 
their donors are, who their members are any time they make a 
``campaign related disbursement'' in an election cycle of 
$10,000 or more, and a ``campaign related disbursement'' is 
defined as any communication, any public communication that 
would include pamphlets, direct mail, robocalls, TV broadcast, 
and online. Any time somebody funds a public communication, 
even if it is focused solely on legislation, but it 
nevertheless mentions a politician in connection with that 
legislation in a favorable or unfavorable light, also known as 
the PASO Standard: promote, attack, support or oppose. That is 
an extremely vague standard on which to regulate the American 
people's desire to speak and to exercise their First Amendment 
right to speak if they so choose anonymously on policy and 
issues. You don't have to look very far in the law to find good 
examples of how vague that standard is. It would represent a 
vast expansion of speech regulation in America to everyday, 
ordinary policy speech.
    The second area that this bill expands public compulsory 
disclosure and exposure of citizens and groups when they want 
to speak is under the Honest Ads provisions.
    The Honest Ads provisions require that any time an 
individual or organization desires to speak about any matter of 
public policy, in the bill, it discusses ``issues of national 
importance.'' Any time you want to spend $500 to do so online, 
you must disclose who you are, you must disclose the leaders of 
your organization, your address, and details about your 
communication to the public. Yet it does so under the purported 
interest of preventing foreign meddling. Yet it targets the 
speech of American citizens and it imposes on American media 
companies all new liability, both civil and criminal liability, 
because one bill makes American media companies both the 
policemen of foreign speech that might end up on their online 
platforms and subjects them to potential criminal sanctions if 
they fail to do so.
    So while it starts as a proposal for Russian meddling, it 
imposes restrictions on all American citizens and media 
companies. It is under inclusive to even effectively address 
active measures by foreign countries because it covers only 
paid ads, not the free posts that occur on social media. It 
affects only large platforms. Yet there are thousands of 
smaller platforms that reach hundreds of millions of Americans. 
It does not address that. It does not address print media, 
direct mail, robocalls and other forms of communications. It 
imposes all new standards on media companies, and it also has a 
fundamental contradiction with the Foreign Agents Registration 
Act, which exempts the media for carrying foreign propaganda. 
United States Courts have ruled this law unconstitutional--
excuse me, a very similar law in Maryland.
    All of this expansion of speech regulation must be 
understood in the current context, in the times in which we 
live, where we have heightened political polarization and 
intolerance in America, because that informs the degree of 
chill and restriction on actual speech that will occur if this 
expansion of speech regulation takes effect. Thank you, Chair.
    [The prepared Statement of Mr. Goodman was submitted for 
the record.]
    Chairwoman Klobuchar. Thank you very much. Our next 
witness, Mr. Wertheimer.

OPENING STATEMENT OF FRED WERTHEIMER, PRESIDENT OF DEMOCRACY 21 
     AND FORMER PRESIDENT OF COMMON CAUSE, WASHINGTON, DC.

    Mr. Wertheimer. [Technical problems.]--to testify today. 
Also I want to thank Senate Majority Leader Schumer, lead 
sponsor Senator Merkley, and Chairwoman Klobuchar for their 
leadership on S. 1, which we consider an essential bill for 
democracy reform. There is nothing new about the campaign 
finance proposals in S. 1. I testified before this committee in 
2012 for the DISCLOSE Act, the major campaign finance 
provisions that have been before the Congress and the Senate, 
at least since 2017 and earlier. In many other cases, campaign 
finance reform proposals were passed in the House.
    In 2019, I testified before the House Administration 
committee. The Senate majority in the last Congress chose not 
to consider this bill and not to hold hearings. I first 
testified before this committee in this room in 1973. As I was 
waiting to testify, a newly elected Senator, Senator Joe Biden 
of Delaware, testified and spoke on behalf of public financing 
of elections. He described public financing as the swiftest and 
surest way to purge our election systems of the corruption, 
that whatever the safeguards, money inevitably brings.
    Senator Biden continued to be a leading voice for public 
financing of elections throughout his career. Congress enacted 
the Presidential public financing system in 1974 with a 
bipartisan vote and after the Senate twice had passed a similar 
bill that was blocked by the House. The new system worked well 
for decades. Almost every major party candidate used the system 
for seven elections. Three Republicans and two Democrats were 
elected President using this system. President Ronald Reagan 
benefited most from this system, using it three times. The RNC 
and the DNC voluntarily requested and accepted public funds to 
help finance their convention for decades. The system broke 
down in 2000, when the growth of the costs of campaigns simply 
outweighed the benefits that the system provided.
    Congress never revised the system. The campaign finance 
system today is flooded with funds coming from influence 
seeking billionaires, millionaires, lobbyists, bundlers, 
business executives, dark money groups, Super PACs, and special 
interest PACs. As a result of Supreme Court decisions, the 
American people have been treated to the spectacle of the top 
donor and his spouse in the 2020 elections, giving $218 million 
to influence the 2020 elections.
    The next leading individual donors provided $153 million, 
$72 million, $68 million, and $67 million respectively. The top 
hundred donors to Super PACs provided $2.1 billion. The 
national median family income in the United States in Fiscal 
Year 2020 was $78,500. The current system may benefit the 
interest of the donors, the Super PACs, dark money, nonprofits, 
and the candidates that are being supported, but it does not 
benefit the interests of the American people.
    S. 1 addresses this problem by providing an alternative 
financing system that gives candidates the voluntary option to 
finance their campaigns with small contributions matched at a 
six to one ratio. There is a big difference between the 
Presidential system and this system. The Presidential system 
was financed with tax revenues. The new system prohibits the 
use of tax revenues to finance the matching funds. The system 
would be financed entirely by a small surcharge on penalties 
and settlements paid to the Government by corporations, 
corporate executives, and wealthy tax cheats. The system also 
does not have spending limits and therefore it does not run 
into the problem that the Presidential system ran into. Thank 
you very much.
    [The prepared Statement of Mr. Wertheimer was submitted for 
the record.]
    Chairwoman Klobuchar. Thank you very much, Mr. Wertheimer. 
Next, we turn to the honorable Bradley Smith.

 OPENING STATEMENT OF BRADLEY SMITH, CHAIRMAN OF THE INSTITUTE 
  FOR FREE SPEECH AND FORMER REPUBLICAN CHAIR OF THE FEDERAL 
              ELECTION COMMISSION, COLUMBUS, OHIO

    Mr. Smith. Thank you Chair Klobuchar, Ranking Member Blunt, 
and members of the committee. S. 1, I think, is frankly a 
cynical bill. This 800 page bill is not for the people, it is 
for the politicians. Note that as we meet here today, if a 
citizen went to Congress.gov to try to learn what this bill was 
about, he would be met with this message: ``As of March 24, 
2021 the text has not been received for S. 1.''
    This rush forward with a lengthy and complex bill suggests 
a desire to make sure that few of the American people actually 
understand its impact, but the insiders understand it. 
Yesterday, in a training session on how to pressure Senators to 
pass S. 1, held by an ad hoc group called Declaration for 
Democracy, a Democratic United States Senator expressed his 
belief that S. 1 would eliminate two thirds of the speech 
critical of the progressive agenda, and speaker after speaker 
noted that S. 1 was needed because it would silence voices that 
question the progressive agenda and thus makes that agenda 
easier to pass.
    The cynicism for the For the Politicians Act is highlighted 
by two provisions. The first is the point just noted by Mr. 
Wertheimer, that the bill claims not to use taxpayer money to 
fund elections. It then immediately sets up a system using 
taxpayer money to fund elections. The bill provides that the 
system will be paid for with fines, penalties, and the sale of 
Government assets, but all of this is taxpayer money and all of 
us know that. How cynical is it to claim that the funds of the 
United States Government are not taxpayer money, like they are 
just magical funds that are somehow there?
    Next is the change in the FEC from a bipartisan 
organization to an agency under partisan control. How cynical 
is this? All morning long through the first panel I listened to 
one member of after another of this committee insist that we 
had to pass S. 1 to do away with partisan redistricting, but 
apparently we need to pass S. 1 to get partisan enforcement of 
campaign finance laws. If I wanted to foster distrust in 
American elections, I could think of few better ways to do it 
than to change the FEC from a bipartisan to a partisan 
organization.
    S. 1 would put the FEC under effective partisan control of 
the Democratic Party through at least the 2026 midterms, longer 
if a Democrat is elected President in 2024. Now the cynical 
claim is that this is not true because one member will be 
independent, but we know that there are independents, and there 
are independents. For example, currently the Republicans hold 
of 50-48 majority in the Senate, which is why Senator Blunt 
opened this meeting, and I am hear as majority--no, wait, that 
is not right, is it?
    That is because the body's two independent Senators caucus 
with the Democrats and I think it is fair to say that one of 
those two, Senator Sanders, is further from the typical 
Republican than is the typical Democrat. Indeed, the FEC 
technically has an independent now, but he caucuses with the 
Democrats and was former Democratic leader Harry Reid's 
attorney, and was appointed to a Democratic seat on the 
commission on Senator Reid's recommendation. It is cynicism, 
raw cynicism, to try to claim that this is not a partisan power 
grab at the FEC.
    Now, the first defense of every rogue violator of campaign 
finance laws is that the FEC is on a partisan witch hunt.
    The response we all know immediately, and I have heard from 
Mr. Potter, heard from Mr. Wertheimer, ``the commission is 
bipartisan. Got to have bipartisan majority.'' If S. 1 passes, 
of course, this will be gone. If you want to create cynicism, I 
think having a partisan enforcement body is a good way to do 
it. Of course, this new partisan FEC will have lots of new 
rules to write and enforce.
    Your opening statement, Madam Chair, was correct that the 
Supreme Court has upheld disclosure, but it was incorrect to 
suggest, as has been suggested here by others on this panel, 
that any particular proposals in this Act have Supreme Court 
support.
    To the contrary, numerous Supreme Court decisions have 
limited past attempts to expand disclosure in the sort of ways 
included in this bill. Specifically, S. 1 would unwrite--it 
would unconstitutionally regulate speech that mentions a 
Federal candidate or elected official at any time under a 
vague, subjective, and dangerously broad standard that asks 
whether the speech promotes, attacks, or supports, or opposes, 
``PASO''. This would, in effect mean that the media, which is 
exempt, has even greater control of public discourse in 
messaging.
    But the focus of the bill on identifying who is speaking is 
also bad for democracy. We should be focusing on issues rather 
than on individuals and contributors to organizations so that 
those people can be doxed and personally attacked, exacerbating 
the politics of personal destruction and further coarsening 
political discourse in our country.
    There is a lot more bad in this bill. I could go on for 
some length, but my time is nearing an end. So we will leave it 
to say that a detailed analysis of its provisions is available 
at www.ifs.org by the Institute for Free Speech and in my 
prepared comments. I look forward to questions. Thank you very 
much.
    [The prepared Statement of Mr. Smith was submitted for the 
record.]
    Chairwoman Klobuchar. Thank you very much. Our last witness 
is Tiffany Muller.

 OPENING STATEMENT OF TIFFANY MULLER, PRESIDENT AND EXECUTIVE 
 DIRECTOR OF END CITIZENS UNITED/LET AMERICA VOTE ACTION FUND, 
                        WASHINGTON, DC.

    Ms. Muller. Thank you so much, Madam Chairwoman. Chairwoman 
Klobuchar, Ranking Member Blunt, and distinguished members of 
the committee, thank you for the opportunity to appear before 
you today to discuss S. 1, the For the People Act. I would like 
to thank Senator Merkley for introducing this bill with 
Chairwoman Klobuchar and leading the efforts in the Senate. I 
would also like to thank Senator Schumer for recognizing the 
grave urgency to pass this bill and designating it S. 1. 
Finally, I would like to thank the other witnesses 
participating today, many of whom, like my colleagues Fred 
Wertheimer and Trevor Potter, have given decades of service on 
these issues as the chairwoman pointed out earlier.
    My name is Tiffany Muller. I am the President of the End 
Citizens United / / Let America Vote Action Fund. We are 
dedicated to fighting the biggest threats to the foundation of 
our democracy, unlimited and undisclosed money in politics and 
voter suppression.
    I am pleased to be here to represent our 4 million members 
nationwide. They are regular people in every state across the 
country, teachers, nurses, first responders, and business 
owners, and many more who make this country run. Like too many 
other Americans, they believe their votes don't matter and 
their voices aren't heard. Too often they are right. The For 
the People Act can change that. It ensures people, not just the 
powerful, are the foundation of our democracy. Americans 
understand that the money in politics has led to corruption and 
that ultimately, it is not only impacting their own bottom 
lines, but their lives and the daily lives of their families. 
They know corporate interests and big donors have access and 
influence that they don't. They have seen the impact of a 
broken Washington firsthand.
    Here is how the corruption of our democracy has impacted 
real people in this country. Big Pharma has spent hundreds of 
millions of dollars on campaign contributions and lobbying 
since 1990, and it was rewarded with the $76 billion corporate 
tax cut, but drug prices didn't go down for our members or 
anyone else, even during this pandemic. In fact, almost one out 
of every three Americans quit taking medicine they needed this 
past year because they couldn't afford it.
    Another example: almost 90 percent of Americans support 
background checks for all gun sales. It is not controversial, 
yet even in the face of horrific mass shootings, including in 
Colorado and Georgia just this week, Congress has been unable 
to act. The NRA has spent nearly $130 million in outside money 
in our elections since 2000 and has blocked even the smallest 
progress. We can look at the response to this horrible pandemic 
after an initial bipartisan effort to pass early relief, it 
took over 9 months to allow a vote on much needed additional 
assistance to American families. That delay was largely caused 
by corporations demanding special carve outs to give them 
immunity.
    That, Senators, is money in politics, and money in politics 
has always been a problem, but the magnitude has exploded since 
the 2010 Citizens United decision. In the 20 years before that 
decision, there were $749 million in outside spending on 
political issues. In the 10-years since, that has skyrocketed 
to $7.3 billion. This flood of outside dollars has been driven 
by a handful of wealthy Americans who often have different 
priorities than everyone else. The amount of dark money is 
increasing at a dangerous rate.
    Right now, only a quarter of outside spending is fully 
disclosed. Only a quarter. The American people deserve to know 
who is trying to influence their vote and their representatives 
in Government. Not only are these dark money forces preventing 
progress on the most important policy issues, but they have 
launched an all-out assault on the right to vote with an 
intensity not seen since the Jim Crow era. In the run up to the 
2020 election, dark money groups funded dozens of lawsuits 
across the country, attempting to disenfranchise millions of 
Americans. After the election, they spent millions more to 
spread the big lie about fraud and that the election had been 
stolen. Now they are funding an unprecedented attack on voting 
rights at the state-level. The New York Times just reported 
that dark money groups are driving this strategy because they 
believe it is the only way to protect their interests. This all 
underscores the urgent need to pass the For the People Act and 
to pass it now.
    The individual elements of this bill work together to take 
on corruption, hold Government accountable, and put the power 
into the hands of regular Americans. These are popular common 
sense reforms to reduce the influence of money in politics, 
crackdown on corruption in both parties, ensure accurate 
elections, and protect voting rights. They will benefit 
everyone regardless of their political affiliation, which is 
why 83 percent of Americans, including nearly three quarters of 
Republicans, want to see the For the People Act signed into 
law. Thank you so much for having this hearing today on this 
critical bill, and I look forward to your questions.
    [The prepared Statement of Mr. Muller was submitted for the 
record.]
    Chairwoman Klobuchar. Thank you very much, Ms. Muller. I am 
going to allow Senator Warner, who has a conflict, to take my 
first slot here, but I did want to clarify one thing which was 
stated by one of the witnesses. This bill is publicly 
available. It is on the websites of both of the authors, the 
lead authors of this bill, Senator Merkley and myself. 
Sometimes there is delay in getting bills, especially long 
bills on senate.gov.
    But we all know this is very, very similar to H.R. 1, which 
has been on the House website for a number of months. There 
were some technical changes made on the Senate side, and you 
can compare them, if you would like, with our bill, but I don't 
think there is any question that the witnesses knew what is in 
this bill. In fact, most of the major components have been out 
there for years. With that, I will turn it over to Senator 
Warner.
    Senator Warner. Thank you, Chair Klobuchar. Thank you for 
calling both of these panels. Thank you for. leadership on this 
issue. I want to start my questions with Mr. Wertheimer and Mr. 
Potter. Or start by thanking both of you for your help that you 
gave to Senator Klobuchar and I as we were drafting the Honest 
Ads Act. It is one of the reasons why I am bumping the line 
because I have got an intel hearing at 2 p.m.----
    Chairwoman Klobuchar. Mark--Senator Warner, could you just 
turn up your volume just a little bit? It is not a big deal.
    Senator Warner. Okay. Usually I am told to tone down rather 
than tone up. Is this better?
    Chairwoman Klobuchar. That is a little better. Just keep 
going.
    Senator Warner. So the Honest Ads Act, as you know, grew 
out of what came out of the 2016 campaign where we saw social 
media firms who were suddenly being used in politics and in a 
dramatically different way than any prior national campaign. We 
saw foreign actors in 2016, oftentimes Russians, 
misrepresenting themselves as Americans on social media and 
then literally purchasing, in certain cases, campaign ads in 
rubles.
    We are seeing these efforts to effect domestic elections by 
foreign actors. I think that can end up weakening confidence in 
our political system. Mr. Wertheimer and Mr. Potter, can you 
speak to the ways in which the Honest Ads Act brings 
longstanding Constitutional transparency requirements for 
politics in the digital age?
    Mr. Wertheimer. Yes, the campaign finance disclosure laws, 
for the most part, were written in the 1970's. The internet did 
not exist. Computers barely existed in homes, but what the 
Honest Ads Act does is bring the normal disclosure that has 
existed for decades and that has been repeatedly upheld by the 
Supreme Court onto campaign related communications on the 
internet. I think it is extremely important because the 
internet became a way of evading campaign finance disclosure 
laws. We know that foreign interests and Russia in particular 
took advantage of the ability to do anonymous, without 
disclaimer, ads on the internet. I think it fills a major 
loophole in the disclosure laws.
    So I want to make one other comment here. The comment was 
made that the PASO test was too vague and our colleagues who 
made that comment have their views, but here is what the 
Supreme Court said about the PASO test. They said it is not 
unconstitutionally vague. It provides explicit standards for 
those who apply them. The court said any public communication 
that promotes or attacks a clearly identified Federal candidate 
directly affects the election in which he is participating, he 
or she I would add.
    The record on this score could scarcely be more abundant. 
Disclosure is the baseline of campaign finance laws and the 
Honest Ads Act and the DISCLOSE Act fill gaping loopholes in 
order--so that the American people can know when they see 
campaign communications, who is behind those communications.
    Mr. Potter. I am sorry, should I answer Senator Warner as 
well?
    Chairwoman Klobuchar. Sure. If that is okay, Senator 
Warner.
    Mr. Potter. I will be quick. Which is to say, the two key 
pieces of this, I think are one, we are talking about paid 
advertising on the internet. Paying more than $10,000 for 
advertising is what then requires the disclosure of the sources 
of funding. So we are not talking about people sitting at home 
blogging away. Secondly, this establishes an archive so that 
when advertising is paid, people can find out what is said.
    That is really important because in the pre-internet world, 
when somebody paid for advertising in a newspaper or on radio 
or TV, there was a record of that kept in the business' files 
or available to the public. You could see it and know who was 
saying what. On the internet with targeted advertising, there 
are communications that can go only to a very small segment of 
people. No one else will know what is being said, but it is 
paid advertising. That archive would require at least a public 
record of who is paying for the advertising and communicating 
with Americans about elections.
    Senator Warner. I know I jumped line and my time has 
expired----
    Chairwoman Klobuchar. No, go ahead. You can go ahead.
    Senator Warner. I want to thank you both and recognize that 
while the social media companies have on a policy basis tried 
to put some of these procedures in place, we still don't have 
the law of the land. I think our democracy is important enough 
that we are not to rely simply on the goodwill of Mark 
Zuckerberg, even when he is doing the right thing. I would only 
quickly add, Madam Chairwoman, one other component that I 
thought was strong common sense.
    As we have seen recently, the Director of National 
Intelligence has come out with a report indicating in 2020 
election, we saw Russian intervention again, we saw Iranian 
intervention. We saw less Chinese, but potential for Chinese 
intervention. I just hope, the FIRE Act, which is also part of 
this important legislation, pretty darned simple, it says that 
if a Foreign Intelligence Service tries to offer assistance to 
a Presidential campaign, the appropriate response ought to be 
call the FBI and not say thank you.
    I won't get a chance to ask that question, but I appreciate 
very much that piece of legislation being included. Thank you, 
Madam Chair.
    Chairwoman Klobuchar. Excellent. Thank you. We will turn to 
Senator Blunt and then to Senator King.
    Senator Blunt. Thank you, Chairwoman. I am a little 
hesitant to do this. I only have 5 minutes. Again, grateful 
that you are all here, but, Mr. Goodman, this may be the 
easiest time to get into your view of this. You want to respond 
to what you just talked about and maybe how the Maryland case 
you think would apply here that you say already has been 
determined to be unconstitutional but respond any way you want 
for maybe a minute and a half and then I will interrupt you if 
I need to. Is your mic on, sir?
    Mr. Goodman. I am responding to Mr. Wertheimer's comment 
that the Honest Ads provisions would affect ``campaign related 
communications.'' Actually, the Honest Ads provisions require--
compel public doxing and disclosure of anyone who wants to 
speak about any national issue, any public policy issue at all 
without regard to elections, without ever referencing a 
candidate for public office. You now have to disclose 
everything about your and your communications under this bill.
    Mr. Potter said that there was a trigger of $10,000. That 
is not the trigger for disclosing who you are when you want to 
talk online. The trigger there is $500. Any time someone wants 
to talk about taxes, abortion, climate change, gun rights, 
whatever the issue is, and they spend as little as $500 to talk 
about that issue on the internet, in a paid ad, they have to 
disclose everything about their communication, who they are, 
and open up their archive.
    One comment about the archive. This bill states what its 
purpose is. It says that we need to identify for counter 
speakers and fact checkers who said what on the internet. I do 
not believe that the First Amendment will tolerate a 
Governmental interest that says you must disclose who you are 
to empower your political opponents to fact-check you and to 
know what you are saying.
    Senator Blunt. Alright. Thank you.
    Mr. Goodman. Fundamental flaws in that.
    Senator Blunt. Thank you. There may be other questions by 
their members on this. Let's go to Mr. Smith. In the 1974, 
about the time Mr. Wertheimer became involved in all this, the 
74 amendments to the Federal Election Campaign Act took a lot 
of the enforcement, if not all the enforcement, away from the 
Justice Department that they thought could easily represent 
only one side and transferred that to this newly created FEC 
that would be required to be represented by both sides.
    Can you give some examples of, in your experience there, 
what would have happened if any three of the members would have 
been able to do whatever they wanted to do? I know the law 
specifically says there would be five members and any time a 
majority of them are there, that is a quorum. So that would be 
three and a majority of them are currently serving. I am not 
trying to get into whose absence or hiding from somebody, but 
what do you see as some of the potential problems here?
    Mr. Smith. Well, I mean, that is a difficult question. You 
have to ask about specific enforcement actions, but basically 
you are talking about having a partisan majority. One of the 
things we know is that not only are there partisan pulls, you 
know, in Washington and you know, all of us are human. We tend 
to see things through our prisms, right, but it is not really, 
``I am going to get this person because he is a Republican and 
I have got three Democratic votes'', right.
    It is also the natural tendency. Most campaign finance laws 
affect different groups differently. Different groups have 
different ways of communicating. Republicans do a lot more work 
with direct mail. Democrats do a lot more work with groups like 
Act Blue. If you get a partisan committee, it is easy for a 
group to say, well, what Act Blue is doing seems perfectly 
reasonable but that direct mail stuff the Republicans are doing 
seems like a terrible violation of the law. In other words, you 
lose that perspective, and you have the ability to force things 
through.
    So I think it is a major problem. If I can say real 
briefly, I try and answer your question there, but I do hope 
somebody will give me a chance to talk a little bit more about 
the PASO standard, because I think Mr. Wertheimer left 
something very important out of his description of the Supreme 
Court.
    Senator Blunt. Alright. Well, my colleagues are listening 
in on that. Let me ask one more quick question. I think I can 
phrase it the way that yes or no for everybody. On this issue 
of independents who can clearly, from all their other 
activities, function as if they were always going to join one 
side or the other. On March the 12th of this year, Axios 
published a memo that had been written by, according to the 
article, ``a prominent voice in campaign finance reform 
world,'' and shared with White House staff.
    This memo advocated for finding ways around congressional 
intent by replacing a current Republican FEC Commissioner with 
a Democrat critically, with a Democratically aligned nominee 
who would probably be an Independent but Democratically 
aligned. Yes or no to all five of you. Did--were you or any 
organization that you represent or work for, to the best of 
your knowledge, involved in writing this memo? Not suggesting 
anything is wrong with that, but if there is, I may want to ask 
more questions. Mr. Potter?
    Mr. Potter. No.
    Senator Blunt. Mr. Wertheimer?
    Mr. Wertheimer. No.
    Senator Blunt. Mr. Goodman?
    Mr. Goodman. No.
    Senator Blunt. Our other two witnesses. Mr. Smith?
    Mr. Smith. No.
    Senator Blunt. Ms. Muller?
    Ms. Muller. No.
    Senator Blunt. The five of you were pretty far into the 
well-known people who talk about public financing and campaign 
finance reform and other things, so thank you for those 
answers. Senator King, you are next.
    Senator King. Thank you very much, Senator Blunt. Mr. 
Goodman, I am--I want to ask some questions about your thoughts 
about disclosure being some kind of violation of the First 
Amendment. If you give $100 to my campaign, I have to disclose 
your name, address, occupation, but if you give $10 million to 
my campaign in the form of a Super PAC or against me, there is 
no disclosure.
    I don't really get that. It seems to me the identity of the 
donor is relevant information for the public. I don't 
understand why it is an invasion of a millionaire's privacy to 
have their names known. It is not an invasion of my next door 
neighbors when I have to disclose their name, when they 
contribute to my campaign. Explain why we have these two 
parallel systems that just can't be reconciled.
    Mr. Goodman. Yes. Senator, the courts over the years have 
drawn a sharp distinction between the disclosure that is 
permitted under the First Amendment when someone gives money to 
a political committee or makes an independent expenditure to 
fund explicit electoral speech. The individual who gives your 
campaign $2,800 per election or $150 or $200 is disclosed 
publicly and all of those names are publicly available on the 
internet--I am sorry. I spoke over, Senator. I am sorry, what 
is that----
    Senator King. Right. Why shouldn't that same rule apply to 
somebody who spends millions of dollars to buy ads on 
television during a campaign that says I am a scoundrel, or I 
am a saint?
    Mr. Goodman. The boundaries drawn for that are, if the 
millionaire gives money to a Super PAC, then their name is 
publicly disclosed because a Super PAC is a political committee 
that discloses all of its donors. Now, where the law has drawn 
the line is the disclosure is permitted constitutionally so 
long as the speech that it is funding is explicit electoral 
speech, and in the Bipartisan Campaign Reform Act, that notion 
or that realm of speech that can require disclosure was 
expanded to ``electioneering communications.''
    This bill, however, this bill would require that disclosure 
if all you want to do is a year, a year and a half before the 
election, you want to talk about legislation pending and attach 
a Senator's name to it in a favorable or unfavorable light. 
This bill would expand that public disclosure to people who 
want to talk principally about public policy and issues under a 
vague standard called PASO, where anything that would be deemed 
favorable or unfavorable about you in that context would 
trigger disclosure of the people who fund that speech. I 
believe that the courts would strike that as overbroad.
    Senator King. Well, I don't agree with you that there is 
full disclosure of people--I don't believe that there is full 
disclosure of people who are contributing dark money to 
campaigns through 501c4s and other formats. I just, I don't 
think that happens. In Maine, if you go to a town meeting, you 
can't wear a bag over your head. People have a right to know 
who is expressing their opinions. That is part of the 
information that is important to the voters.
    Madam Chair, before I go any further, I wanted to mention 
something in the prior panel, and I didn't get to. I think we 
need to be careful in the bill about requiring paper ballots, 
which I am totally supportive of from a security and 
cybersecurity point of view, but we have to consider people 
with disabilities. That is something that I think we can work 
on as this bill moves through the committee and into the 
Senate, but I think we need to be aware of some of the 
subtleties here involving people with disabilities.
    Mr. Potter, nice to see you. I think you and I were at the 
last hearing of this Rules committee on Campaign Finance some 
five, six, seven, 8 years ago with Justice Stevens. Can you 
talk to me about the disclosure and the importance of 
disclosure? Am I correct that I think dark money comes into 
campaigns through independent expenditures and we can't find 
out who they are?
    Mr. Potter. Yes, Senator, it is good to be back in this 
room with you virtually on this subject that we still need to 
work on. Your question points out why, which is you are right, 
somebody who gives you money is disclosed--or your opponent 
money--over $200.
    As Mr. Goodman says, if they give to a Super PAC, the 
identity of the person or the entity giving to the Super PAC is 
disclosed, but if they give to a C(4), which runs the very same 
ad that your opponent could be running or that the Super PAC 
could be running, then there is no disclosure of the donors 
paying for that ad. As I indicated in my opening remarks, what 
can happen is that the C(4) gets the money and then it 
transfers it to a Super PAC which spends it.
    So you end up effectively gutting the disclosure provisions 
even for the Super PACs. That is the key problem we have here. 
That is why we have seen this wave of secret money in 
elections.
    Senator King. Thank you. I am out of time. I appreciate 
both your answers. Back to you, Chairwoman Klobuchar.
    Chairwoman Klobuchar. Thank you, Senator King. Next, 
Senator Hyde-Smith.
    Senator Hyde-Smith. Thank you, Madam Chairwoman, and thank 
you to all of you who are testifying today. It is a great 
resource to have, and we appreciate your willingness to do 
this. One of the most concerning portions of this bill for me 
is the section setting up Government funding for financing of 
political campaigns. This concerns me for two specific reasons.
    First, we are approaching a $30 trillion national debt, 
and, you know, I firmly believe in addressing this debt is a 
fundamental responsibility that we have that is necessary to 
keep our economy at full strength for future generations. 
Putting the Government on the hook to pay for political 
campaigns is a step toward further unnecessary spending and 
further debt at a time when we need to be getting our fiscal 
house in order.
    Second, I am concerned that this program will effectively 
force Americans to subsidize speech that is fundamentally 
against their beliefs. For example, pro-life Americans will 
have to pay through their tax dollars for ads promoting 
candidates who support abortion on demand. Mr. Smith, I am 
going to ask you about this.
    I know you have dedicated so much time in defending our 
First Amendment freedoms, especially as it relates to political 
speech rights. How might this sort of Government financing of 
campaigns, as envisioned under this legislation, endanger the 
rights of consciousness and freedom of speech?
    Mr. Smith. Well, I think it is recognized that this is very 
unpopular, which is why the Act, like I said, includes this 
language, oh, we are not going to use any tax dollars for it, 
but then immediately proceeds to set up a system using tax 
dollars for it, right. I mean, they are not income tax dollars, 
but it is money that belongs to the Federal fisc. It can be 
spent on other things if it is not spent on these campaigns, or 
we could give it back to the taxpayers, right?
    So it is Government funding. It is a problem. In fact, the 
system is more problematic than that because it is a big match. 
I believe it is a six to one match. So, you know, if a party 
goes out and somebody goes out and gives, you know, $50 bucks 
to a campaign that you really hate, that it might be somebody 
really terrible, by the way, we have had cases of neo-Nazis and 
so on getting money in some of these programs in the states, 
then the Federal Government gives six times that to that 
candidate.
    I do think that is a, you know, a very serious problem that 
Americans, I think, don't like that. I prefer to think that we 
should be funding campaigns, the people, right, not the 
Government. One of the other problems with this kind of system 
is that it makes everything a scandal. In other words, it leads 
the Government into more and more campaigning.
    Well, what can you say? They require me to say certain 
things or not say certain things because now you are spending 
public money. Once you are spending public money, the 
Government has an interest in how it is spent. That is very 
dangerous implications in the long run for campaigns.
    Senator Hyde-Smith. Thank you. Also, my second question, 
while I have a little time left. This law would expand the 
definition of what is covered by Federal Election Campaign Act 
to include any paid internet or paid digital communication, as 
the conversations we have just had. This comes at a time when 
we have seen a rise in internet censorship by big tech 
companies just over the past few years.
    The problem of social media censorship is affecting so many 
across our society. I have heard from many just everyday 
Mississippians who have had their posts blocked or deleted or 
even their accounts locked because they are certainly 
monitoring this closely. Mr. Goodman, can you explain what the 
expanded definitions in this legislation could mean for freedom 
of speech on social media sites?
    Mr. Goodman. Yes, Senator. Under this bill, any time you 
want to talk about a matter of public policy, and you don't 
even have to mention a politician or candidate, you are forced 
to disclose who you are, who your board of directors is, the 
audience to which you are communicating, and you go into a 
public file and library for everyone to see who you are, what 
your home address is, and what you had to say.
    This bill also imposes upon these social media platforms, 
and it is not just social media platforms, Senator. It is 
thewashingtonpost.com. It is newyorktimes.com. It is a 
wallstreetjournal.com. All of these sites that sell advertising 
on the internet are going--this one bill makes them both the 
policemen to make sure foreign actors don't slip through the 
cracks, and at the same time makes them criminally responsible 
if they fail at that task.
    Now, that is a task that the FBI and our National Security 
Agency failed at in 2016. Now we are putting that burden--in 
making them both police and criminal--in one bill. You know 
what the result will be? If we are worried about selective 
censorship now, these social media sites will simply close 
their platform, because of the cost and burdens and potential 
liability, to all citizens.
    That is not a constructive result. It is not pro-democratic 
because we will lose these low cost platforms for advertising, 
because the cost just will not be worth it.
    Senator Hyde-Smith. Thank you very much for your answer. I 
yield, Madam Chairwoman.
    Chairwoman Klobuchar. Thank you. Next, Senator Merkley.
    Senator Merkley. Thank you, Madam Chair, and I would like 
to enter for the record a letter from the Governor of Oregon, 
Kate Brown, and a letter also from Democracy for All 2021, as 
well as an opinion piece that H.R. 1 isn't at all an 
unconstitutional bill.
    Chairwoman Klobuchar. Since the Governor of Oregon grew up 
in Minnesota. Is there any objection? They are entered into the 
record. Thank you.
    [The information referred to was submitted for the record.]
    Senator Merkley. There is a strong connection between 
Oregon and Minnesota in seeking to ensure that every citizen 
has access to the ballot, that this fundamental American right 
is guaranteed for all. I wanted to turn to you, Mr. Potter, in 
your considerable experience in the Federal Election Commission 
and understand, and in a modest length of time, whether you 
believe that for Congress to put in essentially guidelines for 
states to follow on congressional elections is Constitutional.
    Mr. Potter. The Constitution says that the states primarily 
have the right to regulate elections, except that Congress may 
intervene regarding the time, place, and manner of elections. 
Over the years, Congress has done that on a number of 
occasions. So it has superseding authority, which it has used.
    Senator Merkley. Yes. That authority is specifically stated 
in terms of elections to the House of Representatives and to 
the United States Senate. My understanding of the reasoning 
behind that was no matter what one of the original 13 states 
you were part of, because Congress is going to make a decisions 
affecting all that, every one, in every state had a stake in 
the integrity of the elections in the other states, and thus 
created that explicit power in the Constitution. Would that be 
a fair explanation of why that was included?
    Mr. Potter. It would be, Senator, and I would add that 
since then, Congress and the states have amended the United 
States Constitution, specifically with the 14th and 15th 
Amendments to broaden the Federal role in ensuring that all 
Americans have the right to vote, and people are not denied the 
right to vote because of their color. So there are other 
broader provisions now in our Constitution regarding the right 
to regulate elections in states.
    Senator Merkley. ----as well as the 19th for ensuring that 
women have the right to vote. Thank you very much. Mr. 
Wertheimer, I wanted to turn to you because there has been this 
discussion about whether it adds to integrity or subtracts from 
integrity to be able to have people run for office using 
essentially a matching fund for small donations. We have had 
some experience with this around the country. I have had some 
experience also with the Presidential matching fund, but my 
impression is that citizens really don't like the idea of 
bazillionaires, essentially buying a stadium sound system to 
drown out the voice of everyone else.
    So the idea of getting small donations across America, 
where the influence on an individual is dispersed, where no one 
person can say, hey, you know, I ran $100 million in your 
campaign or $5 million or $1 million, which kind of corrupts. 
So under this provision for small dollar donations that have a 
match, does that increase the integrity or is there some fatal 
flaw in that approach?
    Mr. Wertheimer. No, it increases the integrity and 
increases the credibility of the way decisions are made around 
here.
    Senator Merkley. So if we really believe in Government, by 
and for the people, not by and for the richest and most 
powerful Americans, this system of small donations with 
matching grants makes a lot of sense.
    Mr. Wertheimer. It does. The American people believe, in my 
view, that big money, influence seeking funders, have far too 
much influence over the way Congress in Washington makes 
decisions. The small donor who gives $200 is not going to buy 
or obtain influence for $200. The donor who gives over $200 
million is. The 100 donors who gave $2.1 billion to Super PACs, 
are going to get that influence, and it comes at the expense of 
the American people.
    Senator Merkley. So that very premise of equal 
representation, that very premise involving that vision of 
Government by the people means that we have to get big money 
out of these campaigns or to balance it with the opportunity 
for small donations.
    Mr. Wertheimer. Yes, and it doesn't change the existing 
system. Any Member of Congress, any candidate can run under the 
existing system. It gives candidates, office holders, an 
opportunity to turn to small donors and non-influence funds if 
they choose that option, but it frees them from having to 
depend on and be obligated to big money funders.
    Senator Merkley. Thank you very much. My time is up. If I 
can just close with a short comment. I know that many members 
here spend an enormous amount of time calling the richest 
people across America on both sides of the aisle to ask for 
funding or attending little gatherings with the richest people 
in America to solicit their funds, receive their funds.
    But the idea that one could possibly run for office, 
speaking to small donors across America, average citizens who 
care about health care and housing, education, living wage 
jobs, equality, taking on the pollution in their environment, 
and equal opportunity, that idea that you are fighting for them 
seems to me a perfect fit with the vision on which our country 
was founded, Government of, by, and for the people.
    Chairwoman Klobuchar. Thank you, Senator Merkley. Senator 
Hagerty.
    Senator Hagerty. Thank you, Chairwoman Klobuchar. Thank 
you, witnesses, for being here with us today. Mr. Goodman, I 
would like to direct this first question to you. Would you say 
that this bill is taking the regulatory approach to essentially 
control what speech the American people are allowed to hear, 
rather than allowing them to listen for themselves to a wide 
variety of sources and decide for themselves what they believe?
    Mr. Goodman. It does, Senator. Any time you chill speech--
and the mechanism in this bill, principally to chill Americans' 
right to speak, is through the compulsory disclosure provisions 
and the expansion of those compulsory exposure provisions to 
issue speech. We have documented studies that show we have two 
generations of young people who have been raised at heightened 
levels of intolerance.
    We have heightened levels of cancel culture, de-platforming 
culture, and what this bill does is it runs headstrong into 
that culture war that we are experiencing right now. What it 
does is it chills people's ability and willingness to speak 
openly both online and through other mechanisms even about 
public policy. What that does is it diminishes people's right 
to speak. It diminishes all of our rights to hear that speech. 
It diminishes speech overall.
    Senator Hagerty. Indeed. Indeed. Wouldn't you say that 
attempting to silence your opponents, to censor what people can 
hear, and to criminalize those who would say what you don't 
want them to say is more akin to what you would see in a 
totalitarian regime like that of Venezuela or China?
    Mr. Goodman. Well, I accept that premise. I will also add 
that this whole idea of public doxing, of public compulsory 
Government disclosure has been used to censor Americans 
throughout our history, depending on who controls sort of 
prevailing culture at the time. It has been both--it has been 
ecumenical. In the Red Scare, the subpoenas that went out to 
people and the questions: name the names of your fellow 
communists or socialists, right.
    Southern politicians demanding from the NAACP: give me your 
donor list in order to do business or even to litigate in my 
State of Alabama. This mechanism of public doxing and 
compulsory Government disclosure has been a tool, a cudgel, to 
effect censorship of American people. It has gone right to left 
and left to right. Today, it is left against right.
    Senator Hagerty. Well, let's stay on that for a minute. 
Doesn't this public disclosure requirement essentially put a 
nationwide bullseye on the back of every donor in their family 
who might contribute to a religious institution or some other 
institution that at some point in the future might make some 
political speech that the left decides they don't like?
    Mr. Goodman. Senator, that's what it does, because if you 
are a religious organization and you want to talk about an 
issue of national importance, and this is especially acute and 
has been especially acute in the social issue arena, 
historically, because those are the most sensitive issues, and 
they excite the most passions of people on the right and the 
left, people who support Planned Parenthood, if they are 
disclosed, they have red paint thrown on their front porches, 
for example.
    People on the right who support life are called names and 
they are harassed as well, and it has grown. So, yes, Senator, 
and Mr. Potter said, we are going to create an archive. In 
other words, we are going to find out who said what, when, and 
we are going to create an archive for all time so that people 
can go back and find out what group you were associated with 
for all time.
    Senator Hagerty. Thank you. Thank you, Madam Chairwoman.
    Chairwoman Klobuchar. Thank you. Thank you very much. We 
may be joined by one more Senator, but I will now get to my 
questions. I have deferred to some of the other Senators, so I 
think I will start with you, Mr. Potter. Thank you so much. As 
a former Republican Chair of the Federal Election Committee, I 
think you know a little bit about how this works. Thank you for 
being here, testifying today for the For the People Act.
    As a former Republican FEC Commissioner, do you see this as 
creating advantages for parties or do you see it as simply 
allowing people to vote and creating more transparency? And 
just talk about what this is like, because clearly there are 
some Republicans who agree with you, especially the polls have 
shown this, but yet right now we are in basically a partisan 
divide on this. How do you see this as a Republican?
    Mr. Potter. Thank you, Senator. To me, I think the lesson 
we learned over the last 20, 30 years is that it is a real 
mistake to try to predict what the partisan outcome will be of 
making it easier to vote. I do not believe that more 
transparency in politics helps one party or the other, greater 
voter turnout does, or that absentee ballots do.
    You know, I was a Republican election lawyer before heading 
off to run the Campaign Legal Center and all of my candidates 
had major absentee ballot programs on which they spent a lot of 
money to turn people out and guarantee they will have voted 
before the election so that if it rained or they were feeling 
badly, they didn't miss the chance to vote.
    So I think it is a mistake to look at this through a 
partisan lens. I think it is better to say that most of these 
provisions deal with very real problems that have been 
identified and that the disclosure we will see as a result of 
this, the issues we are talking about today, the independent 
redistricting commissions that will be required by this bill in 
states across the country, help people in red and blue states.
    Chairwoman Klobuchar. I certainly, I remember just this 
week talking to Senator Tester about this, about Montana, and 
they had a high voter turnout because of the vote by mail, but 
Republicans predominantly won in that state in this last 
election, but more people voted. I have certainly seen this ebb 
and tide in my own state, as I mentioned earlier, where we have 
had some of the most open elections in the country in terms of 
number of people voting, almost always the highest voter 
turnout we have had Governor Pawlenty and we have had Governor 
Dayton and we have had Governor Ventura and we have had both 
our Republican and Democratic Senators with those rules in 
place.
    Could you just highlight a bit the election, the FEC, your 
frustration having been on there and the way it is structured, 
which was all for good purpose? It was structured before and is 
structured now and why we would be restructuring it and how 
that could play either way, depending on who won an election, 
because there has been claims it is some kind of power grab, 
but I think it is important to know, once we change it, it is 
changed no matter who is in charge.
    Mr. Potter. I think there are a couple of points that are 
important. One is that that some people say, well, the FEC is 
functioning just the way Congress intended, which is to say it 
is doing nothing. I don't think that is true. I think you go 
back and look at the Watergate legislation that created it and 
what people wanted to make sure is that it was fair, that both 
parties were involved, and that it took a bipartisan majority 
to take action. While I was there, that is essentially what 
happened. It was very much an ``I am going to vote against your 
guy, but you better vote against mine when this comes up.''
    So there was a back and forth. That has changed. We have 
seen this over the last decade, real partisan deadlock and the 
effect of that deadlock is it can't actually take action. It 
can't open investigations because without permission of a 
majority, there is no way to go forward. It can't do 
rulemaking, etc.. I think in terms of the question of whether 
this is a partisan power grab, there are a couple of things I 
would note.
    First, current law says not more than three of any one 
party. This proposal says two of each party and one 
independent. The guarantee there, the safeguard is twofold. 
First, this establishes something that I and others have 
proposed for quite a while, which is an independent, 
nonpartisan blue ribbon group to advise the President on 
nominees so that it isn't just party leaders who are doing 
that. Then, you have, of course, the safeguard of the Senate. 
Commissioners don't get there without Senate confirmation.
    Finally, and I think probably most importantly, the FEC 
does not have the ability to fine someone. It is not a court. 
All it can do is investigate and say, we think you broke the 
law. If you will agree to pay this fine and admit the 
violation, the matter is over. If you say, no, I didn't, I 
don't think that's right, then the FEC has to go to court and 
sue someone and get a Federal judge to determine that there was 
a violation of law.
    So at the end of the day, what we are talking about is an 
independent finding by a Federal judge, unless the person 
admits that they did, in fact, violate the law.
    Chairwoman Klobuchar. Very good. Thank you for that 
succinct and actually understandable explanation. Mr. 
Wertheimer, the Supreme Court is the only Federal court in our 
Nation that is not required to follow a code of ethics, and yet 
they are deciding the most important decisions of our day and 
this comes up a lot in Supreme Court hearings in Judiciary, but 
I am not sure all the Senators understand this, that the 
Federal courts, district court, circuit court, they have ethics 
rules they have to follow and report things. Could you talk 
about how the code of ethics that is contained in this bill 
would help to improve public trust in the fairness of Supreme 
Court decisions?
    Mr. Wertheimer. Well, it's just common sense that the 
Supreme Court and Federal judges should have a code of ethics. 
The important part about this provision is that it leaves to 
the judicial conference to determine what that code of ethics 
is. So it maintains an independence for the judiciary, the 
Chief Justice, who is the Chair of the Judicial Conference, and 
it is made up of judges. So they will create their own code of 
conduct----
    Chairwoman Klobuchar. Which presumably could be like the 
circuit court ones they have right now.
    Mr. Wertheimer. Yes, absolutely. I would like to make one 
other comment if I could.
    Chairwoman Klobuchar. Sure.
    Mr. Wertheimer. I would like to read to you, since we have 
been discussing disclosure, what Justice Scalia has said about 
disclosure, and he said it in a case involving the names of 
petition signers. He said the following, ``Requiring people to 
stand up in public for their political acts fosters civic 
courage without which democracy is doomed. For my part, I do 
not look forward to a society which, thanks to the Supreme 
Court, campaigns anonymously . . . hidden from public scrutiny 
and protected from the accountability of criticism. That does 
not resemble the home of the brave.'' Thank you.
    Chairwoman Klobuchar. Very good. Thank you. I will have one 
last question of Ms. Muller, because I know we are not going to 
have any other Senators, I believe, come. One last question of 
you, and I guess it is a good segue from the quote that Mr. 
Wertheimer just read from Justice Scalia. To me, public 
knowledge is everything about who is making the decisions and 
who is supporting them and where their funding is coming from.
    Without that, it is hard to make informed decisions in a 
democracy. Do you just want to end things here for my set of 
questions, Ms. Muller, by talking about not maybe the details, 
we know we have had some discussions about this, what is in the 
bill, which is, of course, the DISCLOSE Act, long introduced by 
many in this body, including Senator Van Hollen, and when he 
was over in the House and Senator Kaine and many others.
    But could you talk about, just from your perspective, how 
that knowledge is going to help and what you see of some of the 
worst shenanigans that have been going on since the Supreme 
Court's decisions that could be cured by knowledge and also by 
perhaps public financing?
    Ms. Muller. Absolutely. Thank you so much, Senator. The 
American people have really lost faith in who Government is 
working for. Pew has been doing research over the past 50 years 
on does Government work for just a few big interests or does it 
work for the American people as a whole? Right now, 76 percent 
of Americans think it works for just a few big interests that 
frankly, those who are writing the biggest check get to have 
the biggest say in our Government.
    The fact that so much of that money that is flooding into 
our election. We had the 2020 election that cost $14.5 billion, 
more than double the most expensive election that we have ever 
seen. The fact that more and more of that money is undisclosed 
and untraceable just further erodes that confidence in 
Government and who it is working for. It is absolutely 
essential to trust the Government and to being able to evaluate 
political claims and political discourse that we are able to 
see who is funding claims in elections.
    That is really what this entire bill is about. What this 
entire hearing is about is, are we going to allow our elections 
to be controlled by just a few big interests or are we going to 
give the power back to the people and make sure that we take 
corrective action to make sure that Government is working for 
the people again? That is absolutely what the small dollar 
donor program does, too, Senator.
    It says that, you know, my voluntary measure that if 
candidates say they are not going to take big money and they 
are not going to take special interest money, that we are going 
to empower people to get involved in our democracy. We have 
seen that successfully implemented across the country with 
Republicans and Democratic candidates taking advantage of it. 
To us, that is what this is all about, restoring faith and 
trust in our Government.
    Chairwoman Klobuchar. Thank you very much. I just want to 
clarify, Senator Whitehouse, who leads the DISCLOSE Act in the 
Senate. With that Senator Blunt, do you want to ask a few more 
questions?
    Senator Blunt. I have a couple more, Chairwoman, if we have 
time for that. Before I do that, let me be sure I don't--I have 
a number of letters, statements, press reports and other 
documents opposing or raising concerns about this bill that I 
will be entering into the record. These letters and statements 
are from a broad spectrum of organizations that oppose S. 1, 
ranging from the March for Life to the ACLU in covering a broad 
spectrum of interest from disability rights to free speech. I 
would like to enter those in the record.
    Chairwoman Klobuchar. Without objection, so entered.
    [The information referred to was submitted for the record.]
    Senator Blunt. Just a couple of questions I have as we 
finish up. Again, thanks to our witnesses for being here today. 
Mr. Wertheimer, when I was leaving the House, I guess 2008 was 
the start of my last term in the House, you were helping set up 
that Office of Congressional Ethics. That was designed to have 
membership that were almost certain to be of equal number. Do 
you think now that was a mistake?
    Mr. Wertheimer. No, the ethics committees have always had 
equal numbers, but I don't believe that translates to an 
argument for keeping the Federal Election Commission the way it 
is.
    Senator Blunt. You wouldn't expect that Congress to change 
the ethics committee in the Senate where it had not an equal 
number. Is that what you are saying?
    Mr. Wertheimer. No, I think the ethics committees in the 
Congress have always had equal numbers and we support that.
    Senator Blunt. Well, I would think at the time, in 1974, 
that was at least one of the models looked at and I have heard 
what we said about that--I wonder, Mr. Potter, if the 
commission suffered, in your view from having a long period of 
time, most of the previous 10 years, until this committee 
worked to get six commissioners in place again. There was a 
long period of time when either there were three commissioners 
or there was almost never six commissioners. This is looking 
backward at a time when you were not on the commission. You 
think that was harmful to the commission?
    Mr. Potter. There was a period of--there have been two 
periods of time, to my knowledge, when it has not had a quorum, 
and I think that is incredibly harmful to the commission. One 
was in 2008 and one was much more recently, last year, I 
believe. So, yes, I do.
    Senator Blunt. I think that one had lasted for a while and 
we got a quorum and then somebody left and there was no quorum. 
Again, we finally do have six commissioners, which was in the 
last decade, not the usual practice. I am glad and was glad to 
see that. Mr. Smith, in the last round of questions I had, you 
said if you had time, you had a couple of thoughts about the 
PASO standard. I believe that--do want to address that?
    Mr. Smith. Yes, thank you, Senator. It was suggested that 
the PASO standard had been upheld by the Supreme Court, and it 
needs to be noted that the Supreme Court upheld that only in 
the context of political party speakers saying, and I quote, 
``because actions taken by political parties are presumed to be 
in connection with political campaigns.'' So, generally 
speaking, you can't apply that standard to everybody else. It 
is like saying because Ford once won the 24 hours of Le Mans, I 
could take my Ford Flex out and go win at Le Mans next year. 
That is just not necessarily true.
    Two other things. Much has been said about dark money. It 
needs to be remembered, dark money constitutes about 2 to 4 
percent of total spending in U.S. elections, and it has been 
consistent in that range ever since the Citizens United 
decision. When we think about as 2 to 4 percent, knowing that 
much of that comes from groups that are very well known 
publicly, like the NRA, the NAACP, the National Association of 
Realtors, the nature of the problem tends to shrink a little 
bit.
    Finally, Mr. Potter, if I may have misheard him, because I 
can't believe he would make this mistake, but I thought I heard 
him say that newspapers had a political ad file that they had 
to keep. Of course, that is not true. Indeed, the type of 
political ad file promoted in this bill was recently held 
unconstitutional by the 4th Circuit in Washington Post v. 
McManus just about 18 months ago in 2019.
    I thought those were three points where people should not 
be left with an incorrect impression about what the reality is 
and the full story. Thank you.
    Senator Blunt. Thank you. Mr. Potter, did you want to--did 
you misspeak or is there a disagreement here?
    Mr. Potter. I am not entirely sure I heard Mr. Smith 
correctly, but my point was that current law requires 
disclaimers on paid advertising in newspapers, radio, TV. 
Radio, TV are required to keep public files of those. Any one 
of us can go and look at a newspaper and see who paid for it. 
None of that is true for paid advertising on the internet. It 
disappears and it isn't widely available. There is no way, once 
it has occurred, to go back and see what was advertised or who 
was paying for it. That is what this would address.
    Senator Blunt. Mr. Smith?
    Mr. Smith. Thank you again, Senator. I will just say again 
that type of broad, sweeping public ad file outside the context 
of public broadcasters recently held unconstitutional in 
Washington Post v. McManus, 4th Circuit, 2019.
    Senator Blunt. Thank you. Thank you, Chairwoman.
    Chairwoman Klobuchar. Thank you very much. Do you want to 
say a few closing words, Senator Blunt? I was going to say a 
few things.
    Senator Blunt. Well, I am sure we are all going to have 
plenty more to say about this as we move forward. I would say 
on the issue which still troubles me of thinking every bill 
introduced in every state somehow represents a broad view of 
the country or the way the country is headed. I would say also, 
as it relates to the 2020 elections in the pandemic, many 
states stretched, as I believe they had the right to do under 
most of their State Constitutions and laws, to make it easier 
for people to vote in a pandemic circumstance than it would be 
any other time. In some of these so-called suppression movement 
bills that may actually be the ones that have a chance of 
passing, states are looking at that. They are trying to capture 
what part of that they should make part of their permanent 
process, which almost always is a much more bigger open door 
than they would have had prior to 2020 but reflects the 
likelihood that we are not going to have a pandemic every 
election. I just think this is not the reason to move forward.
    Now, you can make all the cases you want about why we 
should do these things, but I think the idea that somehow state 
legislatures are doing things that will dramatically change 
everyone's positive view, that Mitch talked today, about the 
2020 elections is frankly a false narrative, and I hope we can 
talk about the merits of this bill as opposed to what some 
random state legislator may have filed in a state legislative 
body that may not even ever have a hearing, let alone have a 
chance to get on the Governor's desk. Thank you.
    Chairwoman Klobuchar. Alright. Well, thank you very much, 
Senator Blunt. I want to thank our witnesses for appearing 
today to discuss this legislation, which I consider essential 
to our democracy. The testimony we have heard today makes clear 
that the For the People Act is to quote Secretary Benson, 
Secretary of State of the State of Michigan, as she told us, 
our best chance to stop the rollback of voting rights and to 
ensure that the voice and vote of every citizen is protected. 
Yes, we had a turnout like no other, nearly 160 million people 
in 2020 in the middle of a pandemic.
    In a way, it just tears at your heartstrings to think that 
people were willing to find a way to participate in this 
democracy. Democrats, Republicans, Independents, people of any 
political party. It was an amazing moment for our democracy. I, 
for one, think that once we have opened that door of finding 
ways for people to legally and safely vote, that you don't want 
to go backward, you want to keep those reforms in place, that 
is a good thing. As former Republican chair of the FEC, Mr. 
Potter just pointed out, it doesn't always mean that one party 
wins.
    The House actually got closer in terms of the majority in 
this last election. There were a number of statewide elections 
won by Republicans, but what it means, and I have experienced 
this big time in my own state because we have the highest voter 
turnout in the country year after year, is that more people are 
participating. They feel part of our democracy. They don't feel 
left out by our democracy. I have people come up to me all the 
time that say, I voted, I didn't vote for you, but I voted, or 
I voted for you. I wasn't going to, but then I did. They are 
part of it. They want to talk about it. They are proud that 
they participated as citizens. That is what I think we lose if 
we start making it harder and harder for people to vote.
    I feel the same way about the money in politics as someone 
that didn't come from a lot of money, as someone that the first 
race that I ever ran, you could only get for 8 years, $100 in 
the off election year. That is the maximum you could get from 
any contributor and $500 in the election year. That made me 
reach out to a lot of people and get small contributions for a 
jurisdiction that included over a million people. Then when I 
started running for the United States Senate, that is a whole 
different game, but at least there are limits. That was before 
all the outside money came flooding in.
    At least I felt I am responsible for the ads that I ran, 
and my opponent was responsible for the ads that he ran. I 
could respond to them on an even playing field. That is being 
taken away from us. When that gets taken away from us, we lose 
the power. So how I look at this bill is that it takes the best 
practices that have been identified by a number of our 
witnesses, things that we know are in place across the country, 
that worked in red states and blue states, that resulted in 
this high voter turnout.
    According to Chris Krebs, who for a significant period of 
time was the head of the section of Homeland Security under the 
Trump Administration, that was in charge of making sure we had 
safe elections, that both Democrat and Republican Senators 
praised both while he was in his job and when he was 
unfortunately forced to resign from his job, but before he did 
that, he said it was the safest election in the history of 
America. That happened while we found new ways to expand. While 
we didn't require these notary publics to sign off, while we 
were able to use vote by mail, and in some states, register 
people early. If I look at--I kept hearing that word chaos.
    If I look at the chaos, some of it was because after the 
election was done, and it was clear who won on the Presidential 
level, it was lawsuit after lawsuit after lawsuit that created 
the appearance of chaos, but it wasn't actually chaos. It was 
just votes being counted. One of the cool things about this 
bill to get at some of the concerns raised to me by Republican 
Senators during that time period is that it actually says that 
the states have to start counting those ballots, processing 
those ballots when they get them, because we know we have some 
states, blue states, red states, whatever, who wait till 
afterward. That creates some confusion, I think.
    So I look at this bill, and I just think when you go 
through it step by step, there are a number of really good 
things in this that would make things easier, reduce the chaos 
as people look at elections so they can believe in democracy. 
We know no one knows better than the people that work in this 
building, the staff that work in this building, what it means 
to have people try to undermine an election. No one knows 
better than former Vice President Pence what it means to be 
trying to do your Constitutional duty and simply count the 
votes and be there to do your job and have an angry mob come in 
basically trying to kill you. That is what happened in this 
place.
    So I get back to this word chaos. Talk about being able to 
turn something on its head, because what we are trying to do 
with this bill by putting in some simple, workable standards 
across the country, and you heard from the Michigan Secretary 
of State who said she implemented this in a very short period 
of time in her state that didn't have the Minnesota-like 
ability to make it easier for people to vote, she didn't have 
chaos. She had more people vote. That is what this hearing is 
about. I do want to thank you, Mr. Wertheimer, for 50 years of 
testifying and working on this issue. I am sure it is cathartic 
to finally be able to testify in the Senate, in this room, on 
this bill, which you have worked on provisions with regard to 
this bill for so long.
    I--you so well, quoted Justice, former Justice Scalia about 
the need for transparency, the need to figure out what is going 
on in this country. That is a central part of democracy. I just 
want us to take from this, especially in the words of former 
FEC Republican Chair Potter, that, in fact, this, in the end, 
is not a partisan bill.
    As he said, this bill does not give power to any particular 
party over another. It gives power back to the voters. So 
protecting the right to vote, ridding our politics of dark 
money spending, and strengthening our ethics laws will only 
strengthen the voice of all voters, regardless of where they 
live or which party they belong to, and require people in this 
building and people elected throughout the country to act for 
the people.
    The record will remain open until 5 p.m. on Wednesday, 
March 31st. I thank Senator Blunt, my friend for helping chair 
this hearing. I thank all the Senators who participated. I 
think every Senator participated in this hearing that is on 
this committee. We also are going to continue our bipartisan 
work on coming up with a very clear direction of 
recommendations of what we should be doing in this place to 
protect our staff and ourselves and our frontline workers and 
Capitol Police from what happened on January 6.
    I thank Senator Blunt and Senator Peters and Senator 
Portman over in Homeland Security for working with us as we 
finish that investigation and oversight. That has been a very 
meaningful part of our work so far on this committee this year. 
Thank you, and the committee is adjourned.
    [Whereupon, at 2:41 p.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  
                                [all]
</pre></body></html>
